Docket No. ____
IN THE SUPREME COURT OF THE UNITED STATES
________________________

EVELYN SINENENG-SMITH,
Petitioner,
– against –
UNITED STATES OF AMERICA,
Respondent.
________________________

PETITION FOR WRIT OF CERTIORARI
________________________

On Certiorari to the United States Court of Appeals
For the Ninth Circuit
________________________

ALAN ELLIS
JONATHAN I. EDELSTEIN
LAW OFFICE OF ALAN ELLIS
35501 South Highway 1, Unit 150
Gualala, CA 95445-9553
(415) 235-9058
aelaw1@alanellis.com

Counsel of Record

STATEMENT OF QUESTIONS PRESENTED
1.

Do the terms “encouraging” and “inducing” an alien to reside in the

United States, within the meaning of 8 U.S.C. § 1324(a)(1)(A)(iv), extend to the filing
of lawful and permissible immigration applications that confer some legitimate benefit
to the alien, simply because the alien is allegedly misled as to the extent of the benefit?
2.

May the terms “encourage” and “induce” as stated in 8 U.S.C. §

1324(a)(1)(A)(iv) be validly interpreted to include anything that helps or facilitates an
alien who is already residing illegally in the United States, and already illegally
employed in the United States, to remain there?
3.

Does the language of 8 U.S.C. § 1324(a)(1)(A)(iv) provide fair notice that

it encompasses conduct that provides a legitimate benefit to an alien and seeks
certifications that can be lawfully applied for on the alien’s behalf, simply on the
ground that the alien is allegedly misled regarding the extent of the benefit, and is the
statute unconstitutionally vague as applied to such conduct?
4.

Did the application of Section 1324(a)(1)(A)(iv) in this case violate

petitioner’s First Amendment right to persuade aliens already residing and employed
illegally in the United States to pursue available legal remedies?

-i-

PARTIES TO THE PROCEEDING
The parties to the proceeding are petitioner Evelyn Sineneng-Smith and
respondent United States of America.

-ii-

TABLE OF CONTENTS
Statement of Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceeding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii
Jurisdictional Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . x
Constitutional Provisions and Statutes at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . xi
Statement of Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
A.

The Underlying Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

B.

Procedural History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Reasons for Granting the Writ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

Section 1324(a)(1)(A)(iv) Should Not Extend
to Persuading Aliens to Pursue Remedies
that Confer Some Legitimate Benefit . . . . . . . . . . . . . . . . . . . . 9

II.

“Encourage” and “Induce” Do Not Mean “Help,”
and “Reside” Does Not Mean “Remain” . . . . . . . . . . . . . . . . . . 20

III.

Section 1324(a)(1)(A)(iv) is Unconstitutionally
Vague As Applied Because It Does Not Provide
Fair Notice that it Applies to Conduct
Conferring a Legitimate Benefit on an Alien . . . . . . . . . . . . . 23

IV.

Petitioner’s Prosecution Under Section
1324(a)(1)(A)(iv) Violated Her First
Amendment Rights As Applied . . . . . . . . . . . . . . . . . . . . . . . . 26

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
-iii-

Opinion of the Ninth Circuit Court of Appeals dated December
8. 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Decision of the United States District Court for the Northern
District of California dated October 12, 2011 . . . . . . . . . . . . . . . . . . . . App. 22
Decision of the United States District Court for the Northern
District of California dated December 23, 2013 . . . . . . . . . . . . . . . . . . . App. 28
Opinion of the Ninth Circuit Court of Appeals dated December
4, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 47
Memorandum of the Ninth Circuit Court of Appeals dated
December 4, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 89
Order of the Ninth Circuit Court of Appeals dated January
25, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 93

-iv-

TABLE OF AUTHORITIES
Cases:
Almendarez-Torres v. United States, 523 U.S. 224 (1998) . . . . . . . . . . . . . . . . . . . 14
Buckley v. Valeo, 424 U.S. 1 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Cal. Motor Transport Co. v. Trucking Unlimited, 404 U.S. 508 (1972) . . . . . . . . . 29
City of Chicago v. Morales, 527 U.S. 41 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . 23,28
Deal v. United States, 508 U.S. 129 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
DelRio-Mocci v. Connolly Properties, Inc., 672 F.3d 241 (3d Cir. 2012) . . . . . . . . . 22
Globe Newspaper Co. v. Superior Court, 457 U.S. 596 (1982) . . . . . . . . . . . . . . . . 29
Gustafson v. Alloyd Co., 513 U.S. 561 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Kolender v. Lawson, 461 U.S. 352 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Lytle v. Doyle, 326 F.3d 463 (4th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
McBoyle v. United States, 283 U.S. 25 (1931)

. . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

McDonald v. Smith, 472 U.S. 479 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Milner v. Department of Navy, 562 U.S. 562 (2011)
Nix v. Hedden, 149 U.S. 304 (1893)

. . . . . . . . . . . . . . . . . . . . . . . 21

. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

R.A.V. v. City of St. Paul, 505 U.S. 377 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Robertson v. Salomon, 130 U.S. 412 (1889) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Robinson v. Shell Oil Co., 519 U.S. 337 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Alvarez, 567 U.S. 709 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Brown, 459 F.3d 509 (5th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Klecker, 348 F.3d 69 (4th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . 24
-v-

United States v. Lanier, 520 U.S. 259 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
United States v. Sineneng-Smith, 140 S. Ct. 1575 (2020) . . . . . . . . . . . . . . . . . . . 7,18
United States v. Sineneng-Smith, 140 S. Ct. 36 (2019) . . . . . . . . . . . . . . . . . . . . . . . 6
United States v. Sineneng-Smith, 982 F.3d 766 (9th Cir. 2020) . . . . . . . . . . . . . . . viii
United States v. Sineneng-Smith, 910 F.3d 461(9th Cir. 2018) . . . . . . . . . . . . . . viii, 6
United States v. Sineneng-Smith, 744 Fed. App’x 498, 500 (9th Cir. 2018) . . . viii_, 6
United States v. Sineneng-Smith, 2013 WL 6776188 (N.D. Cal. 2013) . . . . . . . . . viii
United States v. Thum, 749 F.3d 1143 (9th Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . . 22
Van Buren v. United States, 141 S. Ct. 1648 (2021) . . . . . . . . . . . . . . . . 11,16,17,18,
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20,22
Wayte v. United States, 470 U.S. 598 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Yates v. United States, 574 U.S. 528 (2015) . . . . . . . . . . . . . . . . . . . . . . 13,14,15,16,
. . . . . . . . . . . . . . . . . . . . . . . . 17,18,20,21
Zavala v. Wal-Mart Stores, Inc., 691 F.3d 527 (3d Cir. 2012) . . . . . . . . . . . . . . . 19,22
Statutes and Rules:
U.S. Const. Amend. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
8 U.S.C. § 1321 et. seq. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
8 U.S.C. § 1324 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
18 U.S.C. § 1030 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
18 U.S.C. § 1341 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii, 4
18 U.S.C. § 1519 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13,14,15
18 U.S.C. § 1546 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
-vi-

26 U.S.C. § 7206 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii, 4
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . x
8 C.F.R. § 245.10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities:
Lauren D. Allen, Illegal Encouragement: The Federal Statute That
Makes It Illegal to “Encourage” Immigrants to Come to the
United States and Why It Is Unconstitutionally Overbroad,
60 Boston Coll. L. Rev. 1205, 1208-10 (2019) . . . . . . . . . . . . . . . . . 12,13

-vii-

OPINIONS BELOW
United States v. Sineneng-Smith,
982 F.3d 766 (9th Cir. 2020)
United States v. Sineneng-Smith,
910 F.3d 461 (9th Cir. 2018)
United States v. Sineneng-Smith,
744 Fed. App’x 498 (9th Cir. 2018)
United States v. Sineneng-Smith,
2013 WL 6776188 (N.D. Cal. 2013).
The 2020 opinion of the Court of Appeals affirmed, upon remand from this
Court, a judgment of conviction of the United States District Court for the Northern
District of California (Hon. Ronald M. Whyte, J.), convicting petitioner (i)upon jury
verdict of two counts of encouraging and inducing an alien to remain in the United
States in violation of 8 U.S.C. §§ 1324(a)(1)(A)(iv) and (B)(I) and two counts of mail
fraud in violation of 18 U.S.C. § 1341, and (ii) upon her plea of guilty of two counts of
willfully subscribing a false tax return in violation of 26 U.S.C. § 7206(1), and imposing
sentence thereon.
The 2018 opinion and memorandum of the Court of Appeals, respectively,
reversed petitioner’s Section 1324 convictions on the ground that the statute was
facially overbroad under the First Amendment, and affirmed her mail fraud
convictions. The reversal of the Section 1324 convictions was vacated by order of this
Court dated May 7, 2020.
The opinion of the district court granted in part and denied in part petitioner’s
-viii-

post-trial motion for judgment of acquittal; in particular, it granted judgment of
acquittal as to a third Section 1324 count and a third mail fraud count.
The order of the Court of Appeals dated January 25, 2021, denying petitioner’s
application for panel rehearing and/or rehearing en banc, and the district court
decision of October 12, 2011, denying her pretrial motion to dismiss, are unreported.

-ix-

JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1) in that this is a
petition for certiorari from a final judgment of the United States Court of Appeals for
the Ninth Circuit. The instant petition is timely because the Second Circuit’s decision
denying panel rehearing and/or rehearing en banc was issued on January 25, 2021, less
than 150 days prior to the filing of this Petition. There have been no orders extending
the time to petition for certiorari in the instant matter except to the extent that the
time to petition for certiorari has been extended generally by this Court’s COVID-19
guidance..

-x-

CONSTITUTIONAL PROVISIONS AND STATUTES AT ISSUE

8 U.S.C. § 1324(A)(i)(A)
Any person who-(i) knowing that a person is an alien, brings to or attempts
to bring to the United States in any manner whatsoever
such person at a place other than a designated port of entry
or place other than as designated by the Commissioner,
regardless of whether such alien has received prior official
authorization to come to, enter, or reside in the United
States and regardless of any future official action which
may be taken with respect to such alien;
(ii) knowing or in reckless disregard of the fact that an alien
has come to, entered, or remains in the United States in
violation of law, transports, or moves or attempts to
transport or move such alien within the United States by
means of transportation or otherwise, in furtherance of such
violation of law;
(iii) knowing or in reckless disregard of the fact that an
alien has come to, entered, or remains in the United States
in violation of law, conceals, harbors, or shields from
detection, or attempts to conceal, harbor, or shield from
detection, such alien in any place, including any building or
any means of transportation;
(iv) encourages or induces an alien to come to, enter, or
reside in the United States, knowing or in reckless
disregard of the fact that such coming to, entry, or residence
is or will be in violation of law; or
(v)(I) engages in any conspiracy to commit any of the
preceding acts, or
(II) aids or abets the commission of any of the preceding
acts,
shall be punished as provided in subparagraph (B)

-xi-

STATEMENT OF FACTS
A,

The Underlying Facts
The historical facts underlying this case are largely undisputed. Petitioner

Evelyn Sineneng-Smith, a Filipino immigrant to the United States who has a law
degree but is not an admitted attorney, operated an immigration consulting service in
California during the period from approximately 1991 to 2008. Sineneng-Smith
provided services chiefly to Filipinos who had sought and obtained work in the United
States and were hoping to regularize their status.
At issue was petitioner’s counseling and representation of certain aliens
concerning the so-called “Section 245i Labor Certification” process. Pursuant to 8
C.F.R. § 245.10, aliens who arrived in the United States before December 21, 2000
were eligible to obtain green cards through a three-step process: (1) obtaining labor
certification approval from the United States Department of Labor; (2) filing for I-140
alien worker approval from the United States Customs and Immigration Service; and
(3) applying for legal permanent residence. Concededly, under the law at the time of
the charged conduct, aliens who were not physically present in the United States on
December 21, 2000 and who had not applied for labor certification on or before April
30, 2001 were not eligible to take the third step and receive permanent residency under
the Section 245i process. However, it was undisputed at trial that aliens could
continue to file labor certification and I-140 applications; that the government would
continue to process and approve such applications, and that the date of filing would be
the alien’s priority date and the alien would receive an earlier place in line in the event
-1-

that Congress reopened the process. (Trial Tr. 184-244).
The evidence at trial showed that several aliens including Oliver Galupo, Amelia
Guillermo and Hermancita Esteban retained Sineneng-Smith, for a fee, to file
applications for Section 245i labor certification and/or I-140 applications on their
behalf. Sineneng-Smith in fact filed these applications. After filing the applications,
Sineneng-Smith sent the aliens periodic status letters informing them that the
applications were still pending or (if applicable) had been approved, and also provided
them with “leniency letters” that they could show to law enforcement and/or other
governmental agencies requesting that those agencies forbear removing them from the
United States because they were attempting to regularize their status.
Guillermo and Esteban (although not Galupo) claimed that petitioner misled
them by not informing them that they were presently ineligible for the 245i process
and that Congressional action would be required for them to obtain a green card under
that program.

Although the documentation they were given referenced their

applications being “subject to 245i” and advised that they could not work until their
status was adjusted, they stated that the meaning of this was never explained to them
and that the advisements were undermined by petitioner responding that work was
“why you are here” and/or that they could work “once the petition was filed.” Likewise,
they stated that when their laor certification applications were approved and they
again retained Sineneng-Smith for the I-140 stage, they were shown a chart that
stated “[i]f no 245i [w]ait 5 or more years unless Congress passes a new law” and that
expedited processing was available “only if you have 245i eligibility,” but that they
-2-

were not told what 245i meant.
Both Esteban and Guillermo testified that if they had been informed of their
present ineligibility for 245i relief, they would have returned to the Philippines rather
than remaining in the United States.
Evidence was also presented concerning a meeting that Sineneng-Smith held for
potential clients in August 2007, which was attended by an undercover ICE special
agent, Oliver Ramelb. At this meeting, Sineneng-Smith stated that aliens “technically
cannot work until they get their green card” but stated that if their employers would
“petition for [them],” she would give them a letter that could be shown to government
officials that her clients had successfully used in the past (an apparent reference to the
“leniency letters”).

The purpose of these letters was to show accurately the

immigration status of the alien and the alien’s intent and effort to obtain legal status.
She provided attendees with, inter alia, flyers listing her services, lists of clients who
had obtained labor certifications and were “now eligible to apply for their legitimate
work permits and green cards subject to certain Federal Regulations,” and a copy of
a Filipino newspaper advertisement stating that she had “helped 740 of our kababayan
legalize their status in the US” in the past 16 years.1
The government did not dispute that hundreds of Section 245i and I-140
applications filed by Sineneng-Smith were approved by the relevant agencies, even
during 2008 when her business was under investigation; however, it submitted that

1

“Kababayan” is a Tagalog term meaning “fellow Filipino.”
-3-

the majority of these clients were unable to regularize their status and that the
minority who obtained legal status did so by means other than the 245i process.
B.

Procedural History
On May 26, 2010, an eight-count indictment was lodged in the Northern District

of California charging Sineneng-Smith with three counts of encouraging and inducing
aliens to reside illegally in the United States for private financial gain (8 U.S.C. §§
1324(a)(1)(A)(iv) and (B)(1)), three counts of mail fraud (18 U.S.C. § 1341) and two
counts of willfully subscribing to a false tax return (26 U.S.C. § 7206(1)). (Doc. 1).
Thereafter, by superseding indictment dated July 14, 2010, petitioner was additionally
charged with two counts of engaging in monetary transactions in property derived from
specified unlawful activity (18 U.S.C. § 1957). (Doc. 6).
Petitioner pled not guilty to all counts and moved to dismiss on, inter alia,
vagueness and First Amendment grounds. The district court denied this motion,
finding that the meaning of “encourage” for Section 1324 purposes was sufficiently
clear and that the First Amendment did not forbid her prosecution for “representing
to aliens that her efforts would enable them to become legal permanent residents when
she knew that they could not.” (App. 22-27).
Prior to trial, the tax and monetary-transaction counts were severed, and in July
2013, petitioner went to trial on the immigration and mail fraud counts only. On July
30, 2013, the jury rendered a verdict convicting her of those counts. (Doc. 195).
Petitioner thereafter moved for judgment of acquittal and/or a new trial, arguing
that the evidence was insufficient, that her conduct was outside the scope of Section
-4-

1324(a)(1)(A)(iv), that the government was estopped from prosecuting petitioner for
filing applications that were lawful and that it had approved, and that the charged
conduct was protected by the First Amendment. (Doc. 213-14).
By order dated December 23, 2013, the district court granted petitioner’s motion
in part and denied it in part. (App. 28-46). The court found that Counts One and Four,
which respectively charged a Section 1324 violation and mail fraud with respect to
Oliver Galupo, must be dismissed because no evidence of petitioner’s interaction with
Galupo was offered other than the retainer agreement itself, and this did not establish
that he was misled as to his chances of obtaining permanent residency. (App. 35-36,
43-44). However, the court found sufficient evidence as to Counts Two, Three, Five and
Six, involving Amelia Guillermo and Hermansita Esteban, reasoning that by
concealing their present ineligibility for the 245i program, petitioner defrauded them
and unlawfully encouraged them to remain in the country. (App. 33-35, 40-43).
Finally, the court rejected petitioner’s First Amendment claims. (App. 45).
Subsequently, on January 12, 2015, petitioner pled guilty to Counts Seven and
Eight (the two tax counts) without benefit of a plea agreement. (Doc. 243).
On December 14, 2015, the district court (Hon. Ronald M. Whyte, J.) sentenced
Sineneng-Smith to concurrent 18-month prison terms on Counts Two, Three, Five, Six,
Seven and Eight. (Doc. 262). Counts Nine and Ten, the monetary-transaction counts,
were dismissed upon motion of the government. (Doc. 262).
Judgment was entered on December 17, 2015 (Doc. 263) and petitioner filed a
timely notice of appeal (Doc. 265).
-5-

Petitioner appealed her conviction to the Ninth Circuit Court of Appeals. In her
briefs to the Ninth Circuit, she challenged the sufficiency of the evidence on the
immigration and mail fraud counts, and additionally argued that her conduct was
beyond the scope of Section 1324(a)(1)(A)(iv). In support of the latter argument, she
contended that the statute did not provide fair notice that it could be applied to the
conduct at bar and that such conduct was protected by the First Amendment.
After oral argument was heard, the Ninth Circuit requested briefing on an issue
not raised by the parties, namely whether Section 1324(a)(1)(A)(iv) was facially
overbroad under the First Amendment. By opinion issued December 4, 2018, the
Ninth Circuit found that the statute was indeed facially overbroad, holding that it
encompassed sweeping categories of protected speech such as a family member, activist
or attorney urging undocumented aliens to stay in the United States and fight for their
rights. See United States v. Sineneng-Smith, 910 F.3d 461, 472-84 (9th Cir. 2018) (App.
47-88). By separate memorandum opinion issued the same date, the Ninth Circuit
affirmed the mail fraud convictions, finding that Sineneng-Smith’s statements to her
clients regarding the retainer agreements were “at least deceitful half-truths that
concealed material facts.” United States v. Sineneng-Smith, 744 Fed. App’x 498, 500
(9th Cir. 2018) (App. 88-92). However, because two of the counts of conviction had been
reversed, the court directed that the matter be remanded for resentencing.
The government timely sought, and was granted, certiorari to this Court.
United States v. Sineneng-Smith, 140 S. Ct. 36 (2019). On May 7, 2020, this Court
held that, in considering the facial overbreadth issue, the Ninth Circuit had “departed
-6-

from the principle of party presentation so drastically as to constitute an abuse of
discretion.” United States v. Sineneng-Smith, 140 S. Ct. 1575, 1578 (2020). This Court
accordingly “remand[ed] the case for reconsideration shorn of the overbreadth inquiry
interjected by the appellate panel and bearing a fair resemblance to the case shaped
by the parties.” Id. at 1582. This Court did not express an opinion on the merits,
either as to the facial overbreadth issue or as to the issues not yet considered by the
Ninth Circuit.
On remand, the Ninth Circuit considered petitioner’s remaining claims without
further briefing. By opinion dated December 8, 2020, that Court (Tashima, Berzon and
Hurwitz, JJ.) determined that none of the remaining issues had merit and that the
immigration convictions should be affirmed. (App. 1-21).’
The Ninth Circuit panel stated that Sineneng-Smith was “prosecuted for
entering into retainer agreements with aliens, knowingly misrepresenting to them that
her efforts through the § 245i Labor Certification process would, for a price, enable
them to become legal permanent residents, and misleading them about their ability to
work lawfully in the United States while they waited for the process to be completed.”
(App. 12-13). Thus framed, the court found that petitioner’s conduct fell within the
scope of Section 1324(a)(1)(A)(iv). In particular, the court found no support for the
proposition that a violation of this statute must entail fraud against the government
or provide no legitimate immigration benefit. (App. 13). The court stated that
although previous cases had involved conduct that did not provide any legitimate
benefit to the alien, they did not limit the statute’s scope to that scenario, and
-7-

importing a false-document element into the statute would render 18 U.S.C. § 1546
superfluous. (App. 13-14). Additionally, the court found that even if the applications
filed by Sineneng-Smith conferred some legitimate immigration benefit, “SinenengSmith encouraged [the aliens] to stay in the United States in violation of the law by
misleading them about the full extent of the benefits they might realistically expect”
from those applications. (App. 15).
Turning to the issue of fair notice, the Ninth Circuit found that even in the
absence of prior prosecutions on similar facts, the statutory language itself was
sufficient to put Sineneng-Smith on notice that her conduct was prohibited by Section
1324(a)(1)(A)(iv). (App. 15-16). For the same reason, the court found that an ordinary
person would understand that “[m]isleading an alien with false hope about her ability
to obtain a green card” was prohibited by the statute. (App. 16-17). The court also
determined that Sineneng-Smith’s conduct was not protected speech because it
amounted to “false claims... made to effect a fraud or secure moneys or other valuable
considerations,” and that it did not implicate the Petition Clause of the First
Amendment because it involved her representations to her clients, not to the
government. (App. 17-18).
Finally, the court found the evidence sufficient to sustain Sineneng-Smith’s
conviction on both immigration counts, finding that her representations concerning the
retainer agreements, the leniency and status letters, and her subsequent engagement
to file I-140 labor applications, combined with Guillermo and Esteban’s testimony that
the “intricacies of § 245i eligibility” were not adequately explained to them, enabled a
-8-

rational trier of fact to find that she “encouraged [them] to remain in the United
States” by “providing [them] with... false hope.” (App. 20-21).
Petitioner timely sought panel rehearing and/or rehearing en banc, which was
denied by order entered January 25, 2021. (App. 93). Now, for the reasons set forth
below, petitioner seeks certiorari as to each of the claims raised before the Ninth
Circuit.
REASONS FOR GRANTING THE WRIT
I.

Section 1324(a)(1)(A)(iv) Should Not Extend to Persuading Aliens to Pursue
Remedies that Confer Some Legitimate Benefit.
"When I use a word," Humpty Dumpty said, in rather a
scornful tone, "it means just what I choose it to
mean—neither more nor less."
"The question is," said Alice, "whether you can make words
mean so many different things."
"The question is," said Humpty Dumpty, "which is to be
master—that's all."
1,

The prosecution of Evelyn Sineneg-Smith arises from her being retained

to file immigration applications that she was indisputably allowed to file, and that
indisputably conferred a real benefit upon the clients she filed them for. There is no
dispute that, while the 245i and I-140 applications required Congress to revive the 245i
program in order to confer a path to permanent residency, they did guarantee
Sineneng-Smith’s clients an earlier priority date and place in line if such revival did
occur.

Moreover, given that several bipartisan immigration reform bills were
-9-

introduced with the support of the White House during the period when SinenengSmith was active,2 the possibility of favorable Congressional action was by no means
remote.

In the government’s and the Ninth Circuit’s conception, however, this

constituted illegal “encouragement” of aliens to reside in the United States because
Sineneng-Smith did not adequately explain the intricacies of the law to her clients and
made overly optimistic statements to them about their chances of obtaining work
permits.
In doing so, the court below converted a statute that was written and intended
to define a crime against the government – inducing aliens to come to and reside
illegally in the United States – into one that defines a crime against Sineneng-Smith’s
clients. It is now a federal crime to file applications that Sineneng-Smith’s clients had
a legal right to file and which did confer legal benefit on them, and which did not
defraud the government in the least, so long as the clients were misled, intentionally
or otherwise, about the odds of those applications leading to permanent residence
and/or a work permit. There is no basis, textual or otherwise, to construe Section

For instance, the Secure America and Orderly Immigration Act (S.1033),
proposed in May 2005; the Comprehensive Enforcement and Immigration Reform Act
of 2005 (S.1438), proposed in July 2005; the Comprehensive Immigration Reform Act
of 2006 (S.2611) which passed the Senate in May 2006 albeit failing in the House; and
the Comprehensive Immigration Reform Act of 2007 (S.1348), proposed in May 2007.
President Bush had also spoken earlier in his term about the need for comprehensive immigration
reform, including a path to citizenship for many aliens residing in the United States
illegally, including a televised joint speech with Mexican President Vicente Fox
Quesada on the White House lawn in early September 2001. See Rermarks by
President George Bush and President Vicente Fox of Mexico at Arrival Ceremony,
https://georgewbush-whitehouse.archives.gov/news/releases/2001/09/20010905-2.html (visited
June 22, 2021).
2

-10-

1324(a)(1)(A)(iv) as a statute that punishes frauds against clients. The rights protected
by this statute are the government’s rights, and those rights were not violated when
Sineneng-Smith was retained to file applications that the government recognized,
processed and approved.
2.

“[W]e start where we always do: with the text of the statute,” Van Buren

v. United States, 141 S. Ct. 1648, 1654 (2021), which specifies that anyone who
“encourages or induces an alien to come to, enter, or reside in the United States,
knowing or in reckless disregard of the fact that such coming to, entry, or residence is
or will be in violation of law... be punished as provided in subparagraph (B),” see 8
U.S.C. § 1324(a)(1)(A)(iv). From this text, it can readily be seen that the evil it was
intended to prevent was aliens “coming to, entering or residing” illegally in the United
States – in other words, that the statute is written to protect the government’s interest
in securing its borders and enforcing its immigration laws.
This purpose is corroborated by the statute’s placement and history. Title 8,
Section 1324 of the United States Code is captioned “Bringing in and harboring certain
aliens” and contains four subsections, each dealing with acts that in some respect
defeat the immigration laws. These are bringing aliens into the United States other
than at a designated port of entry, transporting or moving illegal aliens within the
United States, harboring or concealing illegal aliens, and as charged here, encouraging
or inducing aliens to come to, enter or reside illegally in the United States. See 8
U.S.C. § 1324(a)(1)(a)(i)-(iv). The statute also separately punishes conspiring to
commit, or aiding and abetting the commission of, the listed acts. See 8 U.S.C. §
-11-

1324(a)(1)(a)(v)-(vi).
This statute was originally part of the Immigration and Nationality Act of 1952;
however, “its language traces its roots to the Immigration Act of 1917,” which in
pertinent part made it illegal to encourage any contract worker to come to the United
States, encouraging aliens to come to the United States through an advertisement for
employment, or, being in the business of transporting aliens, to encourage or attempt
to encourage any alien to come to the United States. See Lauren D. Allen, Illegal
Encouragement: The Federal Statute That Makes It Illegal to “Encourage” Immigrants
to Come to the United States and Why It Is Unconstitutionally Overbroad, 60 Boston
Coll. L. Rev. 1205, 1208-10 (2019). In the 1952 act, these provisions were combined
into substantially the form in which the subject statute exists today, although the
subsequent Immigration and Reform Control Act of 1986 reduced the mens rea
required to violate the statute. See id. at 1210-14. This language was untouched by
the immigration legislation of 1996. Id. at 1214. Throughout, the focus of Congress
was on giving teeth to the immigration laws by prohibiting acts that would directly
impede the enforcement thereof, including such means as bringing aliens to the United
States without inspection, moving them clandestinely from place to place within the
country, shielding them from detection, and encouraging them to come and reside here
in the first place.
This is critical in understanding what “encourage” denotes within the meaning
of the statute. The meaning of the term “encourage” in this context is not plain on its
face, and indeed, “five circuit courts have recognized that the word ‘encourage’ is
-12-

ambiguous.” Id. at 1208 (collecting cases). Moreover, “the legislative history offers
little guidance regarding a potential construction,” because the meaning of the term
“encourage” was not debated on the floor of Congress or discussed in any report. See
id. at 1237 n.233. Thus, resort must be had to other canons of construction in which
the positioning of the subsection and the overall purpose of Section 1324 are
paramount. See Yates v. United States, 574 U.S. 528, 537-44 (2015).
In Yates, this Court construed 18 U.S.C. § 1519, which provided that a person
commits an offense if he “knowingly alters, destroys, mutilates, conceals, covers up,
falsifies, or makes a false entry in any record, document, or tangible object with the
intent to impede, obstruct, or influence” a federal investigation.” Yates, a commercial
fisherman, was charged with attempting to impede a federal investigation by throwing
“tangible objects” – undersized fish – off the deck of his vessel. See Yates, 574 U.S. at
531, 533-34. This Court acknowledged that “[a] fish is no doubt an object that is
tangible,” and hence could be construed as within the reach of Section 1519 as defined
in the dictionary. Nevertheless, this Court found that construing the scope of Section
1519 to include fish would “cut [the statute] loose from its financial-fraud mooring,”
and that since “Congress trained its attention on corporate and accounting deception
and coverups,” the term “tangible object” must be limited to objects “used to record or
preserve information.” Id. at 532.
In reaching this conclusion, this Court held that “[w]hether a statutory term is
ambiguous... does not turn solely on dictionary definitions of its component words,” but
also “the specific context in which that language is used, and the broader context of the
-13-

statute as a whole.” Id. at 537, quoting Robinson v. Shell Oil Co., 519 U.S. 337, 341
(1997) and citing Deal v. United States, 508 U.S. 129, 132 (1993). This Court further
noted that it had “several times affirmed that identical language may convey varying
content when used in different statutes, sometimes even in different provisions of the
same statute.” Id. As such, rather than accepting the government’s contention that
the dictionary definitions of “tangible” and “object” were the e-all and end-all of Section
1519's scope, this Court resorted to “[f]amiliar interpretive guides.” Id. at 539.
This Court first “note[d]... § 1519's caption: ‘Destruction, alteration or
falsification of records in Federal investigations and bankruptcy,’” which “conveys no
suggestion that the section prohibits spoliation of any and all physical evidence,
however remote from records.” Id. Nor did the title of the act of which Section 1519
was part convey such a suggestion. Id. at 539-40, citing Almendarez-Torres v. United
States, 523 U.S. 224, 234 (1998) (“The title of a statute and the heading of a section are
tools available for the resolution of a doubt about the meaning of a statute”). This
Court also considered Section 1519's position within the statutory scheme created by
the adjacent sections, noting that “each of them prohibit[ed] obstructive acts in specific
contexts.” Id. at 540. “Congress thus ranked § 1519... together with specialized
provisions expressly aimed at corporate fraud and financial audits.” Id. at 541.
These considerations led this Court to “rely on the principle of noscitur a sociis a word is known by ihe company it keeps.” Id. at 543 (emphasis in original). This rule
of construction is designed to “avoid ascribing to one word a meaning so broad that it
is inconsistent with its accompanying words, thus giving unintended breadth to the
-14-

Acts of Congress.” Id., quoting Gustafson v. Alloyd Co., 513 U.S. 561, 575 (1995).
Using this method, this Court found that “tangible object” was “appropriately read to
refer, not to any tangible object, but to the subset of tangible objects involving records
and documents.” Id. at 544. Such a “moderate interpretation,” this Court also found,
“accords with the list of actions § 1519 proscribes.” Id.
A similar analysis in this case makes clear that being retained to file lawful
immigration applications on behalf of clients – even if the clients are misled concerning
the extent of the benefit they would obtain by virtue of such applications – is not
“encouragement” within the meaning of Section 1324(a)(1)(A)(iv). The caption of
Section 1324 – as noted above,“Bringing in and harboring certain aliens” – does not
convey an intent by Congress to punish the filing of lawful applications on behalf of
undocumented aliens who are already here, and it certainly does not convey an intent
that Section 1324 act as a consumer protection statute for illegal aliens in their
dealings with immigration consultants.
Likewise, the “company [the word ‘encourage’] keeps” – the other subsections of
Section 1324 – relate to actions that directly defeat, and impede the enforcement of, the
immigration laws – bringing aliens into the United States illegally, moving them from
place to place (which enables them to evade detection in obvious ways, and also
facilitates trafficking), and/or harboring and concealing them. And the other penalty
provisions in Part VIII of Title 8 (see 8 U.S.C. §§1321-23, 1324a-c, 1325-28) are
similarly directed to acts that directly defeat the immigration laws, such as bringing
aliens into the country, unlawfully employing them, and assisting them to enter. Thus,
-15-

as in Yates, noscitur a sociis dictates that the ambiguity in the term “encourage,”
within the meaning of Section 1324(a)(1)(A)(iv), must be resolved to include only words
or acts that encourage aliens to directly defeat the immigration laws, i.e., by coming
to the United States to work or reside, or concealing themselves within the country.
Sineng-Smith’s conduct obviously did not amount to that. She filed lawful
applications on behalf of aliens who were already residing in this country. It certainly
cannot defeat the immigration laws to file applications that those very laws entitled
Sineneng-Smith’s clients to file, and that did confer a putative benefit on them under
those same laws. Nor did the filing of those applications conceal the clients or make
it harder for immigration authorities to detect them; if anything, the filings made them

easier to find by providing the government with their addresses and the names of their
employers. The government’s rights were not defeated here, and in the absence of any
indication by Congress that it intended to enact a consumer protection statute for the
benefit of illegal aliens and make it an offense to cause them to believe that they have
a better chance of getting a green card or work permit than they actually do, that is
sufficient to exclude Sineneng-Smith’s acts from the scope of the statute.
3.

This Court’s recent decision in Van Buren, supra, is also instructive here.

The Van Buren Court considered whether 18 U.S.C. § 1030(a)(2), which made it a
crime to intentionally “exceed[] authorized access” to a computer, reached a defendant
who obtained information via computer that he was authorized to obtain but did so for
an unauthorized purpose. In particular, the defendant, a police sergeant, was the
target of an FBI sting operation in which an informant bribed him to run the license
-16-

plate of a woman he had purportedly met at a local strip club. See Van Buren, 141 S.
Ct. at 1653. It was undisputed that he was entitled, as a police officer, to use police
computers to run license plates, but he was obviously not authorized to do so in
exchange for payment from a private citizen.
This Court, reversing the Eleventh Circuit, found that Section 1030(a)(2) did not
extend to “those who misuse access that they otherwise have” by obtaining data “for
an inappropriate reason.” Id. at 1653-54. Reading the statute narrowly, this Court
found that a person is “entitled so to obtain” information where he obtains it using a
means to which he is entitled, whether or not he did so for a prohibited purpose. See
id. at 1654-55. Likewise, this Court found that the statutory term “entitled” spoke to
the means by which information was obtained rather than the reason or motive for
obtaining it. Id. at 1656-57. Moreover, the term “access” must be interpreted in light
of the way that term is used with regard to computers, which connotes “the act of
entering a computer system itself” or a particular part thereof. Id. at 1658. Finally,
as in Yates, this Court looked to the “wider... structure” of the statutory scheme,
agreeing with the defendant that it was designed primarily to forestall hacking and
prevent “technological harms.” Id. at 1658-60.
Here, as in Van Buren, the gravamen of the charges against Sineneng-Smith is
that she did something she was legally permitted to do – act as an immigration
consultant and file lawful immigration applications on behalf of her clients – but that
she did so with an impure heart by taking advantage of the clients’ ignorance. But
again, nothing in either the text or history of Section 1324 suggests that this should
-17-

be the case.

Where, as here, Sineneng-Smith was doing something that the

immigration laws authorized her to do by filing applications with the appropriate
authorities – the equivalent, in immigration terms, of “accessing” to a computer system
– such action cannot be transformed into unlawful “encouragement” simply by virtue
of the fact that she may have done so for an improper reason or in a misleading way.
Indeed, the government itself suggested as much during this case’s first trip to
this Court, when the facial overbreadth of Section 1324(a)(1)(A)(iv) was at issue. The
government argued that the statute could be saved from overbreadth by construing it
to “prohibit only speech facilitating or soliciting illegal activity.” Sineneng-Smith, 140
S. Ct. at 1581 n.6. Here, Sineneng-Smith’s speech to her clients facilitated and
solicited legal activity – namely, the filing of Section 245i and/or I-140 applications.
To the extent that she may have misled them into doing so, other statutes, such as
mail and wire fraud, may be available, but there is no need, and no basis, to invoke
Section 1324's prohibitions on behalf of the government.
4.

“Finally, if... recourse to traditional tools of statutory construction leaves

any doubt about the meaning of [a statutory term], we would invoke the rule that
ambiguity concerning the ambit of criminal statutes should be resolved in favor of
lenity.” Yates, 574 U.S. at 547-48, quoting Cleveland v. United States, 531 U.S. 12, 25
(2000). One factor to be considered in invoking the rule of lenity is whether “the
government’s interpretation of the statute would attach criminal penalties to a
breathtaking amount of commonplace [conduct].” Van Buren, 141 S. Ct at 1661. And
here, if Sineneng-Smith’s conviction were permitted to stand, that would be the case.
-18-

It would subject immigration consultants, and indeed attorneys, to liability whenever,
in the sole opinion and discretion of a prosecutor, they did not explain carefully enough
the pitfalls of the legal procedures they invoke on behalf of their clients. Such an
interpretation would essentially transform a rule of ethics into a penal statute and
open the door to unlimited second-guessing – on pain of prison – of the advice that
immigration lawyers and consultants give their clients.
Moreover, according to the Ninth Circuit’s view of the matter, criminal liability
would hinge on matters that immigration consultants cannot possibly know or affect
– i.e., whether the advice given to the aliens in question actually affects their desire to
remain in the country. As discussed above, the Ninth Circuit hung its hat in part on
the post hoc testimony of Sineneng-Smith’s clients that they would have returned to
the Philippines if they had been accurately informed of the chances that their
applications would succeed, which of course was never disclosed by them to SinenengSmith. Presumably, if the aliens in question had been determined to remain in the
United States no matter what, thus needing no spiritual or moral “encouragement,”
then Sineneng-Smith would not have been guilty, even if Sineneng-Smith’s acts and
representations as to them were precisely the same. See Zavala v. Wal-Mart Stores,
Inc., 691 F.3d 527, 542 (3d Cir. 2012) (finding that Wal-Mart’s employment of illegal
aliens did not violate Section 1324(a)(1)(A)(iv) where they did not “allege that they
would not or could not have resided in the United States without having been
employed by Wal-Mart”). The rule of lenity is an appropriate exercise where the
government’s construction of a statute would make the same acts either criminal or
-19-

non-criminal depending on a third party’s subjective state of mind that the defendant
did not know and could not have known. See Yates, 574 U.S. at 548 (finding it
untenable to construe Section 1519 to include any item that might be of use in an
investigation, “no matter whether the investigation is pending or merely contemplated,
or whether the offense subject to investigation is criminal or civil”).
Thus, the Ninth Circuit erred in finding that “encourage,” for purposes of Section
1324(a)(1)(A)(iv) must be read to include possibly-misleading statements made in the
course of being retained to pursue lawful remedies that, if approved, will in fact benefit
the aliens on whose behalf they are filed. Both the canons of statutory construction
and the rule of lenity, as framed in Yates and Van Buren, supra, preclude such a
finding. This Court should “resist reading § [1324(a)(1)(A)(iv)] expansively to create
a coverall [consumer protection for illegal aliens] statute, advisable as such a measure
might be,” see Yates, 574 U.S. at 549, and should find that possibly-misleading conduct
in the course of soliciting and filing a lawful immigration application does not violate
the statute. Certiorari should issue.
II.

“Encourage” and “Induce” Do Not Mean “Help,” and “Reside” Does Not Mean
“Remain.”
5.

Construing Section 1324(a)(1)(A)(iv) to apply to representations

concerning the odds that lawful immigration applications would succeed is not the only
way in which the Ninth Circuit’s construction of the statute was overbroad. The Ninth
Circuit also, in accordance with its prior decisions, construed “encourage” to mean
“help,” and held at least implicitly that the term “reside,” for purposes of statutory

-20-

encouragement, included words or deeds that encouraged an alien who was already
residing illegally in the United States to remain there.
To be sure, the Ninth Circuit, and other courts that have adopted similar
constructions of “encourage,” have found support in dictionary definitions that include
“help” as a secondary meaning of that term. However, as this Court made clear in
Yates, the meaning of a statutory term is not defined only by the dictionary. Yates,
574 U.S. at 537. Moreover, this Court has also cautioned against resort to obscure or
little-used dictionary definitions in statutory interpretation, preferring instead to use
the meanings in “common parlance.” See Robertson v. Salomon, 130 U.S. 412, 414
(1889) (finding that while beans were technically seeds, they were not treated as such
“in commerce” or “in common parlance”); Nix v. Hedden, 149 U.S. 304, 307 (1893)
(finding that “in the common language of the people,” tomatoes were vegetables and
not fruits); McBoyle v. United States, 283 U.S. 25, 26 (1931) (finding that the statutory
term “vehicle” did not include aircraft, because “in everyday speech ‘vehicle’ calls up
the picture of a thing moving on land”); Milner v. Department of Navy, 562 U.S. 562,
578 (2011) (rejecting sweeping construction of the term “personnel rules” that “no one
using ordinary language” would recognize). And in common parlance, encourage does
not mean help.
If my neighbor is moving house and I show up with a van, I am not encouraging
him to move; I am helping him move. More analogously, if I, as an attorney, meet with
a client who asks that I defend him in a breach-of-contract action, I am not
encouraging him to breach – that is something he has already done – but instead
-21-

helping him avoid liability to the extent possible. And if my advice to him proves
overly optimistic, that unfortunately is something that often happens in litigation as
the case develops.
Nor does “reside,” by its everyday meaning, encompass “continue residing.” If
an ordinary person says that someone was encouraged to reside somewhere, he or she
means that the other person was encouraged to move in, not that such person was
encouraged to stay where she was already residing. There are other words in common
parlance for that – for instance “stay” or “remain” – which, notably, Congress did not
use in enacting Section 1324(a)(1)(A)(iv). The statute prohibits encouraging an alien
to illegally “come to, enter, or reside in” the United States – i.e., to travel to the border,
cross it, and take up residence – but does not contain any language prohibiting the
encouragement of a person already residing in the United States from remaining.
And rightly so, because if “encourage” indeed means “help” and “reside” indeed
means “remain,” this would, in the words of the Van Buren Court, open the door to
unlimited criminal liability. Nearly any aid given to an undocumented alien can help
him or her remain here – a drink of water, a meal, an apartment, certainly a job. But
it has been held that merely renting an apartment to an illegal alien does not violate
the statute, see DelRio-Mocci v. Connolly Properties, Inc., 672 F.3d 241, 249 (3d Cir.
2012), and that even employing an illegal alien does not constitute unlawful
encouragement to reside in the country, see Zavala, supra, 691 F.3d at 542. Nor does
the mere act of escorting an alien to a van that he knows is headed for the United
States. United States v. Thum, 749 F.3d 1143, 1147 (9th Cir. 2014). There is no
-22-

apparent logical basis to divide the kinds of help that will “encourage” an alien already
living in the United States to stay here from those that do not – especially if, as the
Ninth Circuit appears to believe, the distinction between encouraging and nonencouraging help hinges on the undisclosed mental state of the alien concerning the
conditions under which he or she will stay or leave.
Therefore, this Court should find that an act of illegal “encouraging” under
Section 1324(a)(1)(A)(iv) cannot be committed by means of words or deeds directed to
an alien who has already taken up illegal residence in the United States, nor can
merely helping or facilitating an alien to remain in the country constitute unlawful
encouragement, and that for this reason too, certiorari should be granted and
Sineneng-Smith’s Section 1324 convictions reversed.
III.

Section 1324(a)(1)(A)(iv) is Unconstitutionally Vague As Applied Because It
Does Not Provide Fair Notice that it Applies to Conduct Conferring a
Legitimate Benefit on an Alien.
6.

As a separate and independent ground for granting certiorari, Sineneng-

Smith did not receive fair notice, either from the statutory text or prior case law, that
Section 1324(a)(1)(A)(iv) prohibited her from expressing excessive optimism concerning
the success of lawful immigration applications that she was retained to file. It is well
settled that "due process requires that a criminal statute provide adequate notice to
a person of ordinary intelligence that his contemplated conduct is illegal, for 'no man
shall be held criminally responsible for conduct which he could not reasonably
understand to be proscribed.'" Buckley v. Valeo, 424 U.S. 1, 7 (1976); see also City of
Chicago v. Morales, 527 U.S. 41, 58 (1999) ("no one may be required at peril of life,
-23-

liberty and property to speculate as to the meaning of penal statutes").

The

requirement of due notice, which has become known as the "void for vagueness"
doctrine, "requires that a penal statute define the criminal offense with sufficient
definiteness that ordinary people can understand what conduct is prohibited and in a

manner that does not encourage arbitrary and discriminatory enforcement." Kolender
v. Lawson, 461 U.S. 352, 357 (1983) (emphasis added). This means that, in order to
withstand a vagueness challenge, a statute must "both... provide notice to the public
and... adequately curtail arbitrary enforcement," and that in fact "preventing arbitrary
enforcement is the more important aspect" of the standard. United States v. Klecker,
348 F.3d 69, 71 (4th Cir. 2003) (emphasis added).
Where a penal statute does not implicate First Amendment liberties, this Court
must determine whether it satisfies constitutional due process standards as applied
to the specific facts of the case. See Klecker, 348 F.3d at 71-72. In other words, it must
be sufficiently precise to provide the defendant with fair notice that his specific conduct
falls within its prohibitions, as well as ensuring that the indictment was not the
product of unbridled prosecutorial discretion. See id. As such, criminal statutes may
be unconstitutionally vague if there is either "uncertainty about the normal meaning"
of statutory terms, or if the statute does not give adequate notice "of what specific
conduct is covered... and what is not." Lytle v. Doyle, 326 F.3d 463, 469 (4th Cir. 2003).
In United States v. Lanier, 520 U.S. 259, 271 (1997), this Court stated that
"[d]ue process bars courts from applying a novel construction of a criminal statute to
conduct that neither the statute nor a prior judicial decision has fairly disclosed to be
-24-

within its scope" (emphasis added). “If we are not to lapse into defining a common law

crime, the outer boundary of this facially vague criminal statute must be determined
from the factual circumstances supporting affirmed convictions, not by negative
implication from the few constraints mentioned in disparate cases... [T]he scope of [a
penal statute] is defined by the set of cases in which convictions have been upheld, not
by the complement of the set of cases in which convictions have been reversed.” United
States v. Brown, 459 F.3d 509, 520 & n.9 (5th Cir. 2006) (emphasis added). Any other
construction would lead to unacceptable "incremental expansion of a statute that is
vague and amorphous on its face and depends for its constitutionality on the clarity
divined from a jumble of disparate cases." Id. at 522.
Here, as the Ninth Circuit had no choice but to acknowledge, “the set of cases
in which convictions have been upheld” does not include any prosecutions on facts
remotely like these. In her brief to that Court, Sineneng-Smith showed that, to the
extent that Section 1324(a)(1)(A)(iv) prosecutions had arisen at all from filing or
preparation of documents, they had involved preparation of fraudulent documents –
an act that obviously helps an illegal alien conceal himself or herself, and that is thus
similar to the acts prohibited in the other subsection of Section 1324. Nor could the
government, or the Ninth Circuit itself, point to any prosecutions that had arisen from
similar facts – or indeed, to any cases in which misleading aliens about the extent of
the benefit that would redound to them from the filing of a lawful application .
Faced with the dearth of case law placing Sineneng-Smith on notice that her
alleged conduct violated the statute, the Ninth Circuit held that she was put on notice
-25-

by the statutory language itself – but there, too, it was wrong. As discussed above, the
term “encourage,” in common parlance, does not mean “help” or “facilitate,” and a
person of ordinary intelligence would not be placed on notice by that word that filing
lawful immigration applications would be a crime. And even to the extent that the
charges against Sineneng-Smith hinged on her giving the clients an overly rosy
assessment of whether they would succeed in regularizing their status, and even if
such advice might be deemed “encouragement” (which as stated above, it should not),
the fact remains that the statutory language speaks only to encouragement of aliens
to “come to, enter or reside in” the United States, not to encouragement of those

already residing here to remain in the country. The statutory language, in and of
itself, thus cannot give fair notice that conduct such as Sineneng-Smith’s was
punishable, and therefore, in the absence of case law affirming convictions on similar
facts, Section 1324(a)(1)(A)(iv) could not be constitutionally applied.
IV.

Petitioner’s Prosecution Under Section1324(a)(1)(A)(iv) Violated Her First
Amendment Rights As Applied.
7.

Finally, this Court should grant certiorari on Sineneng-Smith’s as-applied

First Amendment challenge to her immigration convictions. Not only is the speech
underlying the charges not “integral to criminal conduct” as the Ninth Circuit found,
but speech like hers is integral to immigration representatives – whether consultants
or attorneys – doing their work.
The Ninth Circuit, relying on United States v. Alvarez, 567 U.S. 709, 723 (2012),
held that First Amendment protections “generally do not extend to false claims that

-26-

are made to effect a fraud or secure moneys or other valuable considerations.” (App.
17). But if optimistic – even excessively optimistic – advice to clients is construed as
a “false claim,” then representatives assisting aliens with immigration matters will be
chilled in advising their clients to pursue available remedies, even remedies to which
they are legally entitled. Indeed, fear of prosecution for being overly optimistic will
force immigration consultants and attorneys to be overly pessimistic and to warn their
clients away from procedures that might be beneficial to them.
Notably, none of what Sineneng-Smith allegedly told her clients was patently
false. Although Congressional action was necessary for the 245i and/or I-140 claims
she filed to lead to permanent residence, it was far from implausible at the time to
believe that there was a good chance of such action being forthcoming. As detailed in
footnote 2 supra, then-President Bush made a high-profile statement advocating
immigration reform in September 2001, and several bipartisan bills were introduced
in the Senate between 2005 and 2007. Although these bills failed, it was not a foregone
conclusion that they would do so, given that all of them had the support of lawmakers
from both parties as well as the White House. Therefore, it was hardly fraudulent for
Sineneng-Smith to tell her clients that the filing of these applications would improve
their chances to obtain work authorization and ultimately green cards. Nor, given her
experience, was it necessarily false for her to represent that the filing of such
applications might lead to interim forbearance from the authorities, as requested in the
“leniency letters” her firm issued.
Moreover, it is undisputed that Sineneng-Smith did give paperwork to her
-27-

clients that mentioned Section 245i and referred to Congressional action being
necessary. She did not guarantee success or tell her clients that they would surely
obtain green cards (which some of them, in any event, did obtain).

Thus, the

allegations on which she was prosecuted amounted to not explaining the obstacles
carefully enough and not being emphatic enough about the pitfalls.
The manner in which such an application of Section 1324 trenches on protected
speech is obvious.

Applying the “encouragement” statute to overly rosy advice

concerning a lawful and proper immigration application would interfere with the
relationship between representative and client, and as set forth above, representatives
would indeed be required to warn prospective clients away from taking measures they
were entitled to take lest a prosecutor later decide they were not diligent enough in
explaining the risks thereof. Moreover, advocates would be subject to prosecution even
for risks that they did disclose – such as the mentions of Section 245i and the need for
Congressional action on the paperwork Sineneng-Smith provided – if it were later
determined that their clients, despite such disclosure, remained subjectively confused.
Accordingly, contrary to the Ninth Circuit’s holding, the application of Section
1324(a)(1)(A)(iv) to Sineneng-Smith’s alleged conduct does have a “sufficiently
substantial impact on conduct protected by the First Amendment,” see City of Chicago
v. Morales, 527 U.S. 41, 52-53 (1999); see generally R.A.V. v. City of St. Paul, 505 U.S.
377, 382 (1992), to render it unconstitutional as applied to cases like hers. Whether
or not the speech at issue in her particular case crossed the line – and as discussed
above, there are compelling reasons to find that, in the circumstances prevailing at the
-28-

time, it did not – the fact remains that applying the “encouragement” law at all in the
context of a representative-client relationship will blur the line in such a way that
immigration representatives can never be sure that the advice they give to clients will
not subject them to later federal prosecution.
8.

Moreover, contrary to the Ninth Circuit’s conclusion, the charged conduct

does implicate the Petition Clause as well as the Free Speech Clause of the First
Amendment. The Petition Clause is subject to the same constitutional analysis as the
Free Speech Clause, see Wayte v. United States, 470 U.S. 598, 611 n.11 (1985), and
shares a common purpose of ensuring freedom of communication on matters relating
to legal rights and the functioning of government, Globe Newspaper Co. v. Superior
Court, 457 U.S. 596, 604 (1982). The filing of legal process is, of course, a form of
petitioning activity protected by this clause, see McDonald v. Smith, 472 U.S. 479, 485
(1985), and includes process addressed to administrative agencies as well as the courts,
Cal. Motor Transport Co. v. Trucking Unlimited, 404 U.S. 508, 510 (1972).
The Ninth Circuit sidestepped the Petition Clause on the basis that SinenengSmith was prosecuted for her representations to her clients, not the filings she made
to government agencies. But in fact the two cannot be separated. Aliens require the
assistance of representatives to make their petitions to the government, and as such,
the representatives’ discussion of prospective petitions with their clients is integral to
the clients’ ability to file those petitions at all. Petitioner submits that where, as here,
a penal statute is applied to conduct that chills a representative’s freedom to
recommend and file legal process on behalf of her clients, the Petition Clause is
-29-

implicated even if the statements underlying the criminal charge involved discussion
of the prospective petition rather than being part of the petition itself. SinenengSmith's as-applied First Amendment challenge thus warrants this Court's review.
CONCLUSION

WHEREFORE, in light of the foregoing, this Court should grant certiorari on all
issues raised in this Petition and, upon review, should vacate the judgment against
petitioner and grant such other and further relief as may be appropriate.
Dated:

Gualala, CA
June 23, 2021
Respectfully Submitted,
LAW OFFICE OF ALAN ELLIS
Attorney for Petitioner

-30-

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 1 of 21

OPINION OF THE NINTH CIRCUIT COURT OF APPEALS
DATED DECEMBER 8, 2020 [APP. 1-21]

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 15-10614

v.

D.C. No.
5:10-cr-0414-RMW

EVELYN SINENENG-SMITH,
Defendant-Appellant.

OPINION

On Remand from the Supreme Court of the United States
Filed December 8, 2020
Before: A. Wallace Tashima, Marsha S. Berzon, and
Andrew D. Hurwitz, Circuit Judges.
Opinion by Judge Tashima

App. 1

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 2 of 21

2

UNITED STATES V. SINENENG-SMITH
SUMMARY*

Criminal Law
On remand from the Supreme Court, the panel affirmed
convictions on two counts of encouraging and inducing an
alien to remain in the United States for the purposes of
financial gain (8 U.S.C. §§ 1324(a)(1)(A)(iv) and
1324(a)(1)(B)(i)), in a case in which the defendant, who
operated an immigration consulting firm, continued to sign
retainer agreements and inform clients that they could obtain
green cards via a labor certification program under
Section 245i of the Immigration and Nationality Act, which
the defendant knew had expired.
The panel rejected the defendant’s argument that
Subsection (A)(iv) is limited to conduct involving fraud, false
documents, or fraud against the government; and held that the
fact that engaging in the underlying § 245i process may have
yielded some legitimate benefit to the defendant’s clients
does not detract from the defendant’s culpability under
Subsection (A)(iv).
Rejecting the defendant’s contention that she lacked fair
notice that her conduct violated the law, the panel wrote that
the charged conduct fell within the plain meaning of the
statute. The panel wrote that the fact that the government
approved numerous labor certification and I-140 alien-worker
petitions for the defendant’s clients did not deprive her of fair
notice that her representations to the clients covered by the
*

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

App. 2

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 3 of 21

UNITED STATES V. SINENENG-SMITH

3

charges—knowingly misleading them into believing that the
approved petitions could lead to permanent residence and
thereby encouraging them to remain illegally in the
country—constituted unlawful encouragement.
The panel rejected the defendant’s contention that
interpreting Subsection (A)(iv) to prohibit the charged
conduct renders the statute impermissibly vague as applied to
her. The panel also rejected the defendant’s contention that
the charged conduct was protected by the Free Speech and
Petition Clauses of the First Amendment.
Rejecting the defendant’s challenge to the sufficiency of
the evidence, the panel held that a rational trier of fact could
have found beyond a reasonable doubt that the defendant,
who provided two clients with the false hope that their
retention of her services for each step in the § 245i labor
certification process could lead to permanent residency,
encouraged them to remain in the United States in violation
of Subsection (A)(iv).

COUNSEL
Daniel F. Cook, Bodega Bay, California, for DefendantAppellant.
Susan B. Gray, Assistant United States Attorney; J. Douglas
Wilson, Chief, Appellate Section; United States Attorney’s
Office, San Francisco, California; Elizabeth D. Collery,
Attorney, Criminal Division; John P. Cronan, Principal
Deputy Assistant Attorney General; Kenneth A. Blanco,
Acting Assistant Attorney General; United States Department
of Justice, Washington, D.C.; for Plaintiff-Appellee.

App. 3

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 4 of 21

4

UNITED STATES V. SINENENG-SMITH

Mark C. Fleming and Megan E. Barriger, Wilmer Cutler
Pickering Hale & Dorr LLP, Boston, Massachusetts; Beth C.
Neitzel, Wilmer Cutler Pickering Hale & Dorr LLP,
Washington, D.C.; for Amici Curiae Immigrant Defense
Project, and National Immigration Project of the National
Lawyers Guild.
Annie Hudson-Price and Mark Rosenbaum, Public Counsel,
Los Angeles, California, for Amicus Curiae Public Counsel.
Stephen R. Sady, Chief Deputy Federal Public Defender; Lisa
Ma, Research and Writing Attorney, Portland, Oregon;
Carmen A. Smarandoiu, Assistant Federal Public Defender,
San Francisco, California; for Amicus Curiae Federal
Defender Organizations of the Ninth Circuit.
Lee Rowland, Cecillia D. Wang, Anand Balakrishnan, ACLU
Foundation, New York, New York; Christine Patricia Sun,
American Civil Liberties Union Foundation of Northern
California, Inc.; for Amici Curiae American Civil Liberties
Union, and American Civil Liberties Union of Northern
California.
Eugene Volokh, Scott & Cyan Banister First Amendment
Clinic, UCLA School of Law, Los Angeles, California, as
Amicus Curiae.
Elliott Schulder, Tina M. Thomas, Nicole Y. Roberts,
Covington & Burling LLP, Washington, D.C.; Robin
Wechkin, Sidley Austin LLP, Seattle, Washington; for
Amicus Curiae National Association of Criminal Defense
Lawyers.

App. 4

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 5 of 21

UNITED STATES V. SINENENG-SMITH

5

Dennis J. Herrera, City Attorney; Christine Van Aken, Chief
of Appellate Litigation; Yvonne T. Mere, Chief of Complex
and Affirmative Litigation; Molly M. Lee and Matthew S.
Lee, Deputy City Attorneys; Office of the City Attorney, San
Francisco, California; for Amicus Curiae City and County of
San Francisco.
Stephen W. Manning, Innovation Law Lab, Portland, Oregon;
Kari Hong, Boston College Law School, Newton,
Massachusetts; for Amici Curiae Oregon Interfaith
Movement for Immigrant Justice, Causa Immigrant Rights
Coalition of Oregon, Catholic Charities of Oregon, and
Immigration Counseling Services of Oregon.
Emily T. Kuwahara, Crowell & Moring LLP, Los Angeles,
California; Harry P. Cohen and Gary A. Stahl, Crowell &
Moring LLP, New York, New York; Noor Taj, Crowell &
Moring LLP, Washington, D.C.; Niyati Shah, John C. Yang,
Asian Americans Advancing Justice | AAJC, Washington,
D.C.; for Amicus Curiae Asian Americans Advancing
Justice | AAJC.

App. 5

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 6 of 21

6

UNITED STATES V. SINENENG-SMITH
OPINION

TASHIMA, Circuit Judge:
INTRODUCTION
This case is back before us on remand from the Supreme
Court. See United States v. Sineneng-Smith, 140 S. Ct. 1575
(2020). Evelyn Sineneng-Smith appeals her convictions on
two counts of encouraging and inducing an alien to remain in
the United States for the purposes of financial gain, in
violation of 8 U.S.C. §§ 1324(a)(1)(A)(iv) and
1324(a)(1)(B)(i).1 She contends that the district court erred
by denying her motion to dismiss these charges, and that the
evidence at trial was insufficient to establish her guilt beyond
a reasonable doubt. We have jurisdiction under 28 U.S.C.
§ 1291, and we affirm.
FACTS AND PROCEDURAL HISTORY
I. Factual Background
Sineneng-Smith operated an immigration consulting firm
in San Jose, California. As part of her work, Sineneng-Smith
counseled foreign nationals, mostly natives of the Philippines
who were employed without authorization in the home health
care industry in the United States, on applying for and

1

Sineneng-Smith was also convicted of filing false tax returns, in
violation of 26 U.S.C. § 7206(1), and mail fraud, in violation of 18 U.S.C.
§ 1341. Sineneng-Smith did not appeal the tax fraud convictions, and we
affirmed the mail fraud convictions in a memorandum disposition, United
States v. Sineneng-Smith, 744 F. App’x 498 (9th Cir. 2018). The tax and
mail fraud convictions were not affected by the Supreme Court’s mandate.

App. 6

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 7 of 21

UNITED STATES V. SINENENG-SMITH

7

obtaining employment-based visas, including permanent
resident employment-based visas (“green cards”).
A. The § 245i Labor Certification Program
Prior to December 21, 2000, Section 245i of the
Immigration and Naturalization Act, 8 U.S.C. § 1255(i),
permitted certain aliens who had entered the country illegally,
accepted unauthorized work, or overstayed their tourist visas,
to seek an employment-based adjustment of their immigration
status and obtain green cards through the “§ 245i Labor
Certification” process. See 8 C.F.R. § 245.10. Obtaining a
green card through this process involved three sequential
steps: (1) obtaining labor certification approval from the
United States Department of Labor (“DOL”); (2) obtaining
alien worker approval (“I-140 approval”) from the United
States Customs and Immigration Service (“CIS”); and
(3) applying for legal permanent residence. Aliens seeking to
obtain permanent residence via § 245i Labor Certification
were not entitled to work in the United States until the end of
the process when they received their green card.
The § 245i Labor Certification process expired on April
30, 2001, and aliens who arrived in the United States after
December 21, 2000, were not eligible to receive permanent
residence through the program. See Esquivel-Garcia v.
Holder, 593 F.3d 1025, 1029 n.1 (9th Cir. 2010). But
ineligible aliens could nevertheless continue to apply for
labor certification at step one and I-140 approval at step two.
Completing these two steps would give the alien a priority
date and a place in line if Congress ever changed the law and
reopened eligibility for adjusted legal status at step three.
However, without further congressional action, an alien who

App. 7

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 8 of 21

8

UNITED STATES V. SINENENG-SMITH

completed steps one and two would be standing in line for a
closed door.
Sineneng-Smith knew that the § 245i Labor Certification
program had expired. Nevertheless, between 2001 and 2008,
she continued to sign retainer agreements and inform clients
whom she knew to be ineligible under § 245i that they could
obtain green cards via Labor Certification.
B. Guillermo and Esteban
Amelia Guillermo and Hermansita Esteban are natives of
the Philippines. They entered the United States separately on
tourist visas in November 2001 and April 2002, respectively,
and were thereafter offered employment as caregivers. In
April 2002, Sineneng-Smith met with Guillermo and had her
sign an agreement to retain Sineneng-Smith’s services “for
purposes of [Sineneng-Smith] assisting [Guillermo] (alien),
to obtain permanent residence through Labor Certification.”
In May 2002, Esteban also signed a functionally identical
retainer agreement. Neither Sineneng-Smith nor her
employees, however, explained the § 245i Labor Certification
process to Guillermo or Esteban, or informed either that,
because she entered the United States after December 21,
2000, she was ineligible for lawful permanent residence
through Labor Certification. On the contrary, Esteban was
told that Sineneng-Smith’s office was trustworthy and had
worked with many people whose petitions, which Esteban
understood to mean applications for green cards, had been
approved. Both aliens began working after retaining
Sineneng-Smith, and Esteban did not extend her thenunexpired tourist visa, because she thought that a petition had
been filed to legalize her status.

App. 8

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 9 of 21

UNITED STATES V. SINENENG-SMITH

9

After the initial meetings in 2002, and until 2008,
Sineneng-Smith periodically sent Guillermo and Esteban
copies of “leniency letters” addressed to state and federal
agencies, which requested that the agencies allow each alien
“to remain in the United States at least during the process of
the application for Labor Certification” because “[t]his alien
is taking steps to legalize his/her immigration status in the
United States.” Sineneng-Smith also periodically sent “status
letters” to each alien, which advised her to “[p]lease be
patient and cooperate with us so that we will be successful in
obtaining your permanent residency in the United States. The
State and Federal Governments will reward your patience
later.”
DOL approved Guillermo’s and Esteban’s labor
certification petitions on May 5, 2007, and June 18, 2007,
respectively. On those same dates, Sineneng-Smith mailed
second retainer agreements to each alien, providing for an
additional fee for assistance in obtaining I-140 approval from
CIS. Along with the new retainer agreements, SinenengSmith included a “premium processing” chart that showed a
path from the step one labor certification, to the step two I140 petition, to a step three “work permit” and “green card.”
The chart stated “[i]f no 245i [w]ait 5 or more years until
Congress passes a new law,” but Guillermo and Esteban both
testified at trial that they did not know what “245i” meant.
Esteban also received another chart that described “the road
to obtaining permanent residence,” and contained more
references to § 245i, which Esteban also did not understand.
Guillermo testified that if she had been told that she could
not obtain a green card through the § 245i Labor Certification
process, she would have returned to the Philippines, but she
stayed because Sineneng-Smith and her associates told her

App. 9

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 10 of 21

10

UNITED STATES V. SINENENG-SMITH

that she could work. Esteban similarly testified that she
would not have stayed in the United States if she had known
she could not get a green card.
II. Procedural History
On July 14, 2010, a grand jury returned a superseding
indictment charging Sineneng-Smith with, as relevant to this
appeal, three counts of violating 8 U.S.C. § 1324(a)(1)(A)(iv)
(“Subsection (A)(iv)”) and § 1324(a)(1)(B)(i) (“Subsection
(B)(i)”). Subsection (A)(iv) prohibits “encourag[ing] or
induc[ing] an alien to come to, enter, or reside in the United
States, knowing or in reckless disregard of the fact that such
coming to, entry, or residence is in violation of the law.”
Subsection (B)(i) imposes additional penalties if “the offense
was done for the purpose of commercial advantage or private
financial gain.” The indictment charged, as to each § 1324
count, that the violation occurred on the dates that Guillermo,
Esteban, and another alien (Oliver Galupo) executed the
retainer agreement for Sineneng-Smith to file an I-140
petition at step two of the § 245i process.
Before trial, the district court denied Sineneng-Smith’s
motion to dismiss the immigration counts, rejecting her
arguments that: (1) her conduct as charged was not within
the scope of Subsection (A)(iv); (2) Subsection (A)(iv) is
impermissibly vague under the Fifth Amendment; and
(3) Subsection (A)(iv), as applied to Sineneng-Smith’s
activities, violates the First Amendment because it is a
content-based restriction on her speech.

App. 10

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 11 of 21

UNITED STATES V. SINENENG-SMITH

11

After a twelve-day trial, the jury found Sineneng-Smith
guilty on all three counts of violating Subsections (A)(iv) and
(B)(i). Sineneng-Smith then moved for a judgment of
acquittal pursuant to Federal Rule of Criminal Procedure
29(c), renewing the arguments from her motion to dismiss
and further contending that the evidence adduced at trial did
not support the verdicts. The district court concluded that
sufficient evidence supported the convictions for the two
§ 1324 counts relating to Guillermo and Esteban, but that
sufficient evidence did not support the conviction for the
§ 1324 count relating to Galupo.
Sineneng-Smith timely appealed, again arguing that the
immigration charges should have been dismissed for the
reasons asserted in her motion to dismiss, and that the
evidence did not support the convictions. We then reversed
Sineneng-Smith’s immigration convictions, holding that
Subsection (A)(iv) was unconstitutionally overbroad in
violation of the First Amendment. See United States v.
Sineneng-Smith, 910 F.3d 461 (9th Cir. 2018).
The Supreme Court granted the government’s petition for
certiorari, United States v. Sineneng-Smith, 140 S. Ct. 36
(2019) (mem.), and vacated and remanded “the case for
reconsideration shorn of the overbreadth inquiry.” SinenengSmith, 140 S. Ct. at 1582. We now affirm Sineneng-Smith’s
convictions for encouraging or inducing an alien to illegally
reside in the United States, in violation of § 1324(a)(1)(A)(iv)
and § 1324(a)(1)(B)(I)

App. 11

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 12 of 21

12

UNITED STATES V. SINENENG-SMITH
ANALYSIS

I. The Denial of Sineneng-Smith’s Motion to Dismiss the
Charges under Subsection (iv)
A. Standard of Review
We review de novo the district court’s denial of a motion
to dismiss the indictment. United States v. Tomsha-Miguel,
766 F.3d 1041, 1048 (9th Cir. 2014). The district court’s
construction of a statute is reviewed de novo. United States
v. Frega, 179 F.3d 793, 802 n.6 (9th Cir. 1999).
B. The Scope of § 1324(a)(1)(A)(iv)
Sineneng-Smith first argues that the district court erred by
denying her motion to dismiss the indictment because the
conduct charged is beyond the scope of Subsection (A)(iv).
She contends that her conduct was not unlawful under the
statute because it did not involve fraud, false documents, or
bribery, and because the aliens could obtain a legitimate
benefit from engaging in the § 245i Labor Certification
process, even if they were not ultimately eligible for
permanent residence. We are unpersuaded on all counts.
As an initial matter, Sineneng-Smith’s arguments are all
premised on a fundamental mischaracterization of the charges
in the superseding indictment. She alleges that she was
prosecuted solely for being hired to file putatively lawful I140 petitions on behalf of Guillermo and Esteban’s
employers. However, as the district court correctly noted,
Sineneng-Smith was actually prosecuted for entering into
retainer agreements with aliens, knowingly misrepresenting
to them that her efforts through the § 245i Labor Certification

App. 12

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 13 of 21

UNITED STATES V. SINENENG-SMITH

13

process would, for a price, enable them to become legal
permanent residents, and misleading them about their ability
to work lawfully in the United States while they waited for
the process to be completed. We agree with the district court
that the charged conduct is forbidden by Subsection (A)(iv).
Subsection (A)(iv) proscribes “encourag[ing] or
induc[ing] an alien to . . . reside in the United States, knowing
or in reckless disregard of the fact that such . . . residence is
or will be in violation of law.” We have previously defined
“encourage” as “to inspire with courage, spirit, or hope . . . to
spur on . . . to give help or patronage to,” United States v.
Thum, 749 F.3d 1143, 1148 (9th Cir. 2014) (quoting United
States v. He, 245 F.3d 954, 960 (7th Cir. 2001)), and have
indicated that a defendant’s encouragement or inducing must
be knowing, see United States v. Yoshida, 303 F.3d 1145,
1149–51 (9th Cir. 2002). Nothing in the statutory language
or our case law supports Sineneng-Smith’s argument that
encouragement or inducing is unlawful under Subsection
(A)(iv) only if it is accomplished by unlawful means, entails
fraud against the government or the use of false documents,
or bribery, or provides no legitimate benefit to an alien.
Sineneng-Smith points to several out-of-circuit
decisions—notably United States v. Ndiaye, 434 F.3d 1270,
1298 (11th Cir. 2006) (defendant encouraged alien by
improperly supplying a Social Security number) and United
States v. Oloyede, 982 F.2d 133, 135–37 (4th Cir. 1993) (per
curiam) (defendant encouraged aliens by providing false
documents for citizenship applications)—to support her
contention that there is a fraud or false documents limitation
to Subsection (A)(iv). Her efforts are unavailing. Although
Ndiaye and Oloyede involved defendants who used false
documents or provided illegitimate benefits to aliens, neither

App. 13

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 14 of 21

14

UNITED STATES V. SINENENG-SMITH

case limited the scope of Subsection (A)(iv) to such factual
scenarios.
See, e.g., Oloyede, 982 F.2d at 137
(“‘encouraging’ relates to actions taken to convince the
illegal alien to … to stay in this country”). We previously
analyzed both cases when construing the meaning of
“encourage” under Subsection (A)(iv), and noted merely that
the opinions “demonstrate[ that] a defendant encourages an
illegal alien to reside in the United States when the defendant
takes some action to convince the illegal alien to stay in this
country, or to facilitate the alien’s ability to live in this
country indefinitely.” Thum, 749 F.3d at 1148 (internal
citations, quotation marks, and alterations omitted) (emphasis
added). Moreover, we can discern no principled reason for
reading a fraud or false document limitation into the statute.
As to importing a false documents limitation into
Subsection (A)(iv), we note that the 1985 Senate Judiciary
Committee Report on the Immigration Reform and Control
Act indicates that the purpose of a related statute, 18 U.S.C.
§ 1546, is to “enable[] the prosecution of procurers and
purveyors of false, altered, or fraudulently obtained
documents and the aliens who use such documents to remain
in the United States in violation of the law”. S. Rep. No. 99132, at 31 (1985). Reading a false documents element into
Subsection (A)(iv) would therefore render § 1546
superfluous. See Yates v. United States, 135 S. Ct. 1074,
1086 (2015) ([C]ourts are to “resist[] a reading of [a statute]
that would render superfluous an entire provision passed in
proximity as part of the same Act.”).
Sineneng-Smith’s suggestion that only fraud against the
government may be prosecuted under Subsection (A)(iv)
fares no better. Again, there is nothing in the statute
suggesting such a limitation. We therefore reject Sineneng-

App. 14

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 15 of 21

UNITED STATES V. SINENENG-SMITH

15

Smith’s argument that the scope of Subsection (A)(iv) is
limited to conduct involving fraud, false documents, or fraud
against the government.
Finally, we reject the argument that the charged conduct
was outside the scope of Subsection (A)(iv) because
Sineneng-Smith lawfully provided Guillermo and Esteban
with a legitimate benefit—namely, a place in line if Congress
changed the law and expanded eligibility for adjustment of
status—by pursuing the § 245i Labor Certification process on
their behalf. Neither the language of Subsection (A)(iv) nor
our previous constructions of the statute requires that a
defendant’s encouragement be accomplished by means of an
illegitimate process or involve only illegitimate benefits. See
Thum, 749 F.3d at 1148. Furthermore, the gravamen of the
encouragement offense was that Sineneng-Smith encouraged
Guillermo and Esteban to stay in the United States in
violation of the law by misleading them about the full extent
of the benefits they might realistically expect from engaging
in the § 245i Labor Certification process. The fact that
engaging in the underlying § 245i process may have yielded
some legitimate benefit to Guillermo and Esteban does not
detract from Sineneng-Smith’s culpability under Subsection
(A)(iv).
C. Lack of Fair Notice
Sineneng-Smith also contends that she lacked fair notice
that her conduct violated the law because the instant case
involved a novel construction of the statute and no prior case
law supported the statutory construction underlying the
government’s prosecution. We disagree. “[D]ue process bars
courts from applying a novel construction of a criminal
statute to conduct that neither the statute nor any prior

App. 15

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 16 of 21

16

UNITED STATES V. SINENENG-SMITH

judicial decision has fairly disclosed to be within its scope.”
United States v. Lanier, 520 U.S. 259, 266 (1997). “[T]he
touchstone is whether the statute, either standing alone or as
construed, made it reasonably clear at the relevant time that
the defendant’s conduct was criminal.” Id. at 267 (emphasis
added). Although previously reported Subsection (A)(iv)
cases involved distinguishable fact patterns, SinenengSmith’s prosecution did not violate due process because, as
noted above, the conduct charged fell with the plain meaning
of the statute standing alone, including the meaning of
“encourag[ed]” as construed in Thum, 749 F.3d at 1148. See
Lanier, 520 U.S. at 267.
Also unavailing is Sineneng-Smith’s contention that her
reasonable reliance on DOL and CIS’s issuance of numerous
labor certification and I-140 approvals for her clients
deprived her of fair notice that her conduct was criminal
under Subsection (A)(iv). This argument relies on the same
mischaracterization of the charges that we have previously
rejected. Because the charged conduct— knowingly
misleading aliens into believing that the approved petitions
could lead to permanent residence and thereby encouraging
them to remain illegally in the country—was clearly covered
under Subsection (A)(iv), the fact that DOL and CIS
approved the labor certification and I-140 petitions did not
deprive Sineneng-Smith of fair notice that her representations
to Guillermo and Esteban constituted unlawful
encouragement.
D. Vagueness
We also find unavailing Sineneng-Smith’s contention that
interpreting Subsection (A)(iv) to prohibit the conduct
charged in the indictment renders the statute impermissibly

App. 16

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 17 of 21

UNITED STATES V. SINENENG-SMITH

17

vague as applied to her.2 “In an as-applied challenge, a
statute is unconstitutionally vague if it fails to put a defendant
on notice that his conduct was criminal.” United States v.
Harris, 705 F.3d 929, 932 (9th Cir. 2013) (cleaned up).
Misleading an alien with false hope about her ability to obtain
a green card falls within the plain meaning of Subsection
(A)(iv)’s proscription against encouraging an illegal alien to
remain in the United States in violation of the law, and an
ordinary person would have understood that such conduct is
prohibited by the statute. As such, the Subsection (A)(iv)
charges against Sineneng-Smith were not impermissibly
vague, and the district court did not err by refusing to dismiss
them.
E. First Amendment Free Speech and Petition Clause
Protections
Sineneng-Smith next contends that the immigration
charges in the indictment should have been dismissed because
the conduct charged therein was protected by the Free Speech
and Petition Clauses of the First Amendment. These
arguments, which rely yet again on the faulty premise that she
was prosecuted for being hired to file I-140 petitions, lack
merit. Sineneng-Smith was prosecuted for a course of
conduct that involved misrepresentations made to convince
Guillermo and Esteban to retain her services as an
immigration consultant. To the extent that Sineneng-Smith
was specifically prosecuted for her speech, First Amendment
protections generally do not extend to “false claims that are
made to effect a fraud or secure moneys or other valuable
considerations.” United States v. Alvarez, 567 U.S. 709, 723
2

Sineneng-Smith’s briefing raised only the question of whether
Subsection (A)(iv) was vague as applied to her conduct.

App. 17

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 18 of 21

18

UNITED STATES V. SINENENG-SMITH

(2012). Furthermore, these representations to Guillermo and
Esteban did not fall under the protections of the Petition
Clause because “the right to petition is generally concerned
with expression directed to the government seeking redress of
a grievance,” Borough of Duryea, Pa. v. Guarnieri, 564 U.S.
379, 388 (2011), not with expression directed to a private
individual regarding a government petition.
Because Sineneng-Smith’s own conduct, as charged in the
indictment, was not protected by the First Amendment,3 we
conclude that the district court did not err by denying
Sineneng-Smith’s motion to dismiss the charges on First
Amendment grounds.
II. The Sufficiency of the Evidence as to Encouragement
or Inducing under Subsection (iv).
Sineneng-Smith also contends that the evidence was
insufficient to establish beyond a reasonable doubt that, on
the dates charged in the indictment, she encouraged or
induced Guillermo or Esteban to remain in the United States.
A. Standard of Review
We review the denial of a motion for acquittal based on
insufficiency of the evidence de novo. See United States v.
Suarez, 682 F.3d 1214, 1218 (9th Cir. 2012). We determine
whether “after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could

3

We express no opinion about whether Subsection (A)(iv) is
facially overbroad in violation of the First Amendment. See SinenengSmith, 140 S. Ct. at 1582 (“we vacate the Ninth Circuit's judgment and
remand the case for reconsideration shorn of the overbreadth inquiry”).

App. 18

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 19 of 21

UNITED STATES V. SINENENG-SMITH

19

have found the essential elements of the crime beyond a
reasonable doubt.” United States v. Nevils, 598 F.3d 1158,
1163–64 (9th Cir. 2010) (quoting Jackson v. Virginia,
443 U.S. 307, 319 (1979)) (emphasis in original).
B. Elements of the Offense
To sustain the Subsection (A)(iv) charges, the government
was required to prove that Sineneng-Smith knowingly
(1) “encourage[d] or induce[d],” (2) “an alien to come to,
enter, or reside in the United States,” (3) “knowing or in
reckless disregard of the fact that such coming to, entry, or
residence is or will be in violation of law.” To prove a
violation of Subsection (B)(i), the government also needed to
show that “the offense was done for the purpose of
commercial advantage or private financial gain.” 8 U.S. C.
§ 1324(a)(1)(B)(i).
Sineneng-Smith challenges the sufficiency of the
evidence only as to the first element, claiming that the
evidence was legally insufficient to establish that she
encouraged Guillermo or Esteban to reside in the United
States on the dates charged, respectively, in Counts 2 and 3
of the indictment. We disagree.
C. Evidence at Trial
The evidence at trial showed that, in 2002, SinenengSmith entered into retainer agreements with Guillermo and
Esteban, which stated that the purpose of hiring SinenengSmith was “to obtain permanent residence through Labor
Certification.” The evidence also established that, from 2002
through 2008, Sineneng-Smith periodically sent copies of
“leniency letters” to Guillermo and Esteban that requested

App. 19

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 20 of 21

20

UNITED STATES V. SINENENG-SMITH

leniency from state and federal agencies in allowing each
alien “to remain in the United States at least during the
process of the application for Labor Certification,” because
she was “taking steps to legalize []her immigration status in
the United States.” The government also introduced evidence
showing that, during the same time frame of 2002–2008,
Sineneng-Smith also periodically sent Guillermo and Esteban
“status” letters that requested them to “be patient and
cooperate with us so that we will be successful in obtaining
permanent residency.”
Additionally, the government
established, as charged in the indictment, that on May 5,
2007, and June 18, 2007, Guillermo and Esteban,
respectively, signed retainer agreements for SinenengSmith’s assistance in obtaining I-140 approvals; these retainer
agreements were accompanied by documents that referenced
receiving a “work permit” and “green card” and purported to
show Guillermo and Esteban “the road to obtaining
permanent residence” through the Labor Certification
program.
Sineneng-Smith provided the jury with evidence that
completing steps one and two of the § 245i Labor
Certification process could have benefited Guillermo and
Esteban because they could receive a place in line if Congress
changed the law to give them eligibility for permanent
residence through the § 245i Labor Certification program.
However, both Guillermo and Esteban testified at trial that
they did not understand the intricacies of § 245i eligibility, no
one informed them that they were ineligible for green cards
under § 245i, and they would not have remained in the United
States had Sineneng-Smith not given them the impression that
they were eligible to obtain permanent residence through the
Labor Certification process.

App. 20

Case: 15-10614, 12/08/2020, ID: 11918143, DktEntry: 136-1, Page 21 of 21

UNITED STATES V. SINENENG-SMITH

21

D. Analysis
The evidence as a whole showed that Sineneng-Smith had
ongoing professional relationships with both Guillermo and
Esteban, and that at numerous
times during those
relationships—including, specifically, on the dates charged in
the indictment—Sineneng-Smith took some action to provide
these individuals with the false hope that their retention of her
services for each step in the § 245i Labor Certification
process could lead to permanent residency. Viewing the
evidence in the light most favorable to the prosecution, we
conclude that a rational trier of fact could have found beyond
a reasonable doubt that Sineneng-Smith encouraged
Guillermo and Esteban to remain in the United States in
violation of Subsection (A)(iv).
When she provided them with the retainer agreements,
she bolstered their false hope that using her services to file I140 petitions would be another step on the road to obtaining
permanent residency.
CONCLUSION
For all of the foregoing reasons, the judgment of the
district court as to Sineneng-Smith’s convictions under
8 U.S.C. §§ 1324(a)(1)(A)(iv) and 1324(a)(1)(B)(i) is
AFFIRMED.

App. 21

(32 of 1156)

Case5:10-cr-00414-RMW Docurnent51 Filed10/12/11 Page1of6
DECISION
OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
DATED OCTOBER 12, 2011 [APP. 22-27]
2
3

E-FILED

4

Oil

I 0/12/2011

Case: 15-10614, 04/27/2016, ID: 9955478, DktEntry: 8-1, Page 32 of 38

5
6

7

--=

8

IN THE UNITED STA TES DISTRICT COURT

9

FOR THE NORTHERN DISTRICT OF CALIFORNIA

10

SAN JOSE DIVISION

11

0

12

<:J

13

·---·-·- .....
u

-"1 u
....

~ -~
"1

Ci

ell

....

~:::::
11)
r.11
..c:

15
16

= ....

17

Q.I

.-::Z
;.J

0

u...

No. CR-10-00414 RMW

Plaintiff,

v.

14

t::
0

"O

UNITED STATES OF AMERICA,

EVELYN SlNENENG-SMITH,

ORDER DENYING MOTION TO DISMISS
COUNTS ONE THROUGH THREE, NINE,
TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING
INDICTMENT

Defendant.

[Re Docket No. 46]
18
19
20

Defendant Evelyn Sineneng-Smith moves to dismiss counts one through three, counts nine

21

and ten, and the forfeiture allegations of the superseding indictment filed against her. The counts in

22

question allege violations of 8 U.S.C. § 1324(a)(l)(A)(iv) and (B)(I), which impose criminal liability

23

and penalties on any person who "encourages or induces an alien to come to, enter, or reside in the

24

United States, knowing or in reckless disregard of the fact that such coming to, entry, or residence is

25

or will be in violation of the law .... " For the reasons set forth below, the court denies the motion

26

to dismiss.

27

III

28

III
ORDER DENYING MOTION TO DISMISS COUNTS ONE THROUGH THREE, NINE. TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING INDICTMENT-No. CR-10-00414 RMW
MEC

App. 22

(33 of 1156)

Case5: 1O-cr-00414-RMW Document51

Filed 10/12/11

Page2 of 6

I. BACKGROUND 1
From approximately 1990 to April 2008, defendant Evelyn Sineneng-Smith owned and

Case: 15-10614, 04/27/2016, ID: 9955478, DktEntry: 8-1, Page 33 of 38

2
3

operated an immigration consultation business located in San Jose, California, with additional

4

offices in Beverly Hills, California, La Jolla, California, Las Vegas, Nevada, and New York, New

5

York. Sineneng-Smith counseled foreign nationals on applying for and obtaining employment-

6

based visas in order to enable them to work in the residential health care industry.
An alien can obtain an employment-based visa under United States immigration law from the

7
8

Department of State by filing form I-485, Application to Register Permanent Residence or Adjust

9

Status. Certain aliens are ineligible for adjustment of status. However, in 1994, Congress enacted

10

Section 245(i) of the Immigration and Naturalization Act, known as the Legal Immigration Family

.:sc

11

Equity Act ("LIFE Act"), which permitted certain aliens who were otherwise ineligible for

t: r.8
=:..:::::
o
ro

12

adjustment of status to pay a penalty in order to adjust their status without leaving the United States

13

if the alien was the beneficiary of a qualifying immigrant visa petition or application for labor

14

certification and met statutory and regulatory requirements before April 30, 2001. The relevant

15

labor certification application, known as Form ETA-750, is filed with the United States Department

16

of Labor ("USDOL") by the employer seeking to hire the alien. If the USDOL approves the form,

<l)

17

an employer can apply on the alien's behalf to obtain a visa number and file an application with the

0

18

United States Citizenship and Immigration Services ("USCIS") called the 1-140, Petition for Alien

19

Worker.

.....

uu

·--"" ·-(;...,.

c:J

0

......
(.)
"' ...........
~ .~
"' Ci
~ c
e::: .....

·r.r.:,

"O
<:iJ

<l)
...c
t::
0

:.: : z

=-B.....

;;;:;i

~

20

Counts one through three each allege that for the purpose of private financial gain, Sineneng-

21

Smith encouraged or induced an alien to reside in the United States, knowing or in reckless

22

disregard of the fact that such residence was in violation of the law. The indictment lists the initials

23

of each alien, the date he or she entered into a retainer agreement with the defendant, and the

24

admission number listed in Form 1-94, the record of the alien's arrival into the United States.
The defendant is also charged with three counts of mail fraud. In support of those

25
26

allegations, the superseding indictment alleges that Sineneng-Smith entered into retainer agreements

27
28

1

Unless otherwise noted, background facts are taken from the superseding indictment.

ORDER DENYING MOTION TO DISMISS COUNTS ONE THROUGH THREE, NINE, TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING INDICTMENT-No. CR-10-00414 RMW
MEC
2

App. 23

(34 of 1156)

Case5:10-cr-00414-RMW Document51

Filed10/12/11

Page3of6

Case: 15-10614, 04/27/2016, ID: 9955478, DktEntry: 8-1, Page 34 of 38

with foreign nationals, most of whom entered the United States on visitor's visas from the
2

Philippines, and their employers. The superseding indictment alleges that Sineneng-Smith

3

fraudulently promoted USDOL's labor certification program as a way for foreign nationals to obtain

4

a permanent resident employment-based visa, while knowing that foreign nationals who did not file

5

petitions with USDOL or USCIS prior to April 30, 2001 would not be eligible to obtain

6

employment-based visas. She charged $5,900 for the filing of an application for a foreign labor

7

certification with USDOL and $900 for the filing of the 1-140 Form with USCIS-filings that she

8

allegedly knew were futile. Sineneng-Smith also allegedly knew that her clients had overstayed the

9

amount of time they were allowed to be in the United States and worked illegally at various health

10

care facilities.

11

II. ANALYSIS

12
13

A.

Motion to Dismiss

14

Under Rule 12(b) of the Federal Rules of Criminal Procedure, a party may file a motion to

15

dismiss based on "any defense, objection, or request that the court can determine without a trial of

16

the general issue." Fed. R. Crim. P. 12(b); United States v. Shortt Accountancy Corp., 785 F.2d

17

1448, 1452 (9th Cir. 1986). In considering a motion to dismiss, the court is limited to the face of the

18

indictment and must accept the facts alleged in the indictment as true. Winslow v. United States, 216

19

F.2d912,913(9thCir.1955).

20

B.

21

Section l 324(a)(l )(A) provides:

22

Bringing in and harboring certain aliens

23

(a) Criminal penalties.

24
25

The Scope of the Charged Statute

(1) (A) Any person who -

26

(iv) encourages or induces an alien to come to, enter, or reside in the United
States, knowing or in reckless disregard of the fact that such coming to, entry, or
residence is or will be in violation of the law.

27

Section l 324(a)( 1)(B)(I) sets the penalty when such conduct was done for commercial purposes

28

or private financial gain.
ORDER DENYING MOTION TO DISMISS COUNTS ONE THROUGH THREE, NINE, TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING INDICTMENT-No. CR- I 0-00414 RMW
MEC
3

App. 24

(35 of 1156)

Case5:10-cr-00414-RMW Document51

Filed10/12/11

Page4 of 6

Case: 15-10614, 04/27/2016, ID: 9955478, DktEntry: 8-1, Page 35 of 38

The primary issue raised in the motion is whether defendant "encourage[d]" illegal aliens to
2

continue to reside in the United States within the meaning of the statute by encouraging or inducing

3

illegal aliens and their employers to pay her to pursue what she knew were hopeless applications for

4

permanent residency. Defendant submitted no false information to USDOL or USCIS. A number of

5

courts have considered the meaning of "encourages" under § 1324( a)( 1)(A)(iv).

6

In United States v. Oloyede, 982 F .2d 133 (4th Cir. 1992), defendants had been convicted of a

7

scheme to defraud the INS by falsifying documents for citizenship applications for illegal aliens already

8

residing in the United States. Analyzing the meaning of "encourage" in a predecessor statute to §

9

1324( a)( 1)(A)(iv), the court compared the language of that statute's predecessor statute, which had only

10

proscribed conduct that encouraged "entry into the United States." It explained:

:::
.....

11

=:.::

12

IRCA [Immigration Reform and Control Act] worked a substantial expansion in the
types of activities held criminal under this statute. IRCA's plain language distinguishes
between these distinct categories of behavior and indicates that "encouraging" is not
limited to bringing in, transporting or concealing illegal aliens. Rather, "encouraging"
relates to actions taken to convince the illegal alien to come to this country or to stay in
this country. Appellants' actions reassured their clients that they could continue to work
in the United States, that they would not be subject to the threat of imminent detection
and deportation, and that they could travel back to their homeland without risk of being
prevented from returning, thus providing all the benefits of citizenship. The selling of
fraudulent documents and immigration papers under these circumstances constitutes
"encourages" as that word is used in the statute.
Id at 137 (emphasis added) .

.:s
t: t.8

o ro
uu

·--"' ··-

13

"' Ci

15

-<.;....

c:J

0

i..

......
u

.....
......

~ -~

~:::
~
.....
-

14

<l)

00...:::::
"O t::
~ 0

.-<::Z

=

<l)

;::;i ;:
.....
0

µ_,

16
17

In United States v. Ndiaye, 434 F.3d 1270, 1296 (11th Cir. 2006), the Eleventh Circuit held that
18
the defendant had encouraged and induced an illegal alien to reside in the United States by helping him
19
fraudulently obtain a Social Security number. The court explained that the defendant "may not have
20
encouraged or induced an alien to come to or enter the United States, but a jury could have found that
21
he encouraged or induced an alien ... to reside in the United States, knowing it was in violation of the
22
law. This violates the plain language of the statute."
23
Sineneng-Smith argues that her case is unlike Oloyede, Ndiaye, or other cases upholding
24
convictions under the subject statute because she is not accused of helping aliens to obtain a benefits
25
to which the aliens were not entitled. But the plain language of the statute imposes no requirement that
26
the "encouragement" be accomplished through conduct that involves fraud against the United States.
27
Here, the victims of defendant's alleged scheme were the aliens themselves. By suggesting to the aliens
28
ORDER DENYING MOTION TO DISMISS COUNTS ONE THROUGH THREE, NINE. TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING INDICTMENT-No. CR-10-00414 RMW
MEC
4

App. 25

(36 of 1156)

Case5:10-cr-00414-RMW Document51

Filed10/12/11

Pages of6

Case: 15-10614, 04/27/2016, ID: 9955478, DktEntry: 8-1, Page 36 of 38

that the applications she would make on their behalf, in exchange for their payments, would allow them
2

to eventually obtain legal permanent residency in the United States, Sineneng-Smith encouraged the

3

aliens to remain in the country within the meaning of§ l 324(a)(l )(A)(iv). Indeed, the fact that she is

4

accused of defrauding the aliens themselves, as opposed to the federal government, more strongly

5

supports the conclusion the Sineneng-Smith encouraged or induced the aliens to remain in the United

6

States than if she had merely assisted the aliens in obtaining fraudulent documents. The promise of a

7

path to legal permanent residency that Sineneng-Smith held out to the alleged victims of her scheme was

8

plainly powerful encouragement to those aliens to set up a life in the United States.

9

Sineneng-Smith cites the unreported district court decision in Hagar v. ABXAir, Inc., 2008 WL

10

819293 (S.D. Ohio Mar. 25, 2008) for the proposition that merely employing an illegal alien does not

·a.....

11

constitute "encourag[ing]" or "induc[ing]" an alien to reside in the United States in violation of §

=:..:::::
o
ro

12

1324(a)(l )(A)(iv). That court held that "at a minimum the defendant must take some affirmative act to

13

assist an alien to enter or remain in the United States" and that allegations thatthe defendants knowingly

·-"' -

14

hired unauthorized aliens did not allege affirmative conduct that constituted encouraging or inducing.

~ c
C<:l .....

15

Id. Hagar appears questionable to the extent that it implies that the statute requires that a person

16

actually assist the alien as opposed to merely encouraging the alien. The fact that Sineneng-Smith may

17

not have assisted her clients to remain in the United States does not mean that she did not wrongfully

18

encourage or induce them to continue to reside in the United States. The facts alleged demonstrate that

19

she did.

crj

t: <-8

uu
... 4-

·-... ·-0

c:J
i..

(.)

.....

~ .~

"' Ci

...

(!)

"'O

t

rJ1 ...c:
a.I

0

:.:: z

=

(!)

~.s
.....
0

i:.i:..

20

In addition, interpreting§ 1324(a)(l)(A)(iv) to prohibit the conduct of which Sineneng-Smith

21

is accused does not cause the statute to be impermissibly vague. "To satisfy due process, 'a penal statute

22

[must] define the criminal offense [1] with such definiteness that ordinary people can understand what

23

conduct is prohibited and [2] in a manner that does not encourage arbitrary and discriminatory

24

enforcement."' Skilling v. United States, 130 S.Ct. 2896, 2927-27(2010) (quoting Koleder v. Lawson,

25

461 U.S. 352, 357 (1983)). Sineneng-Smith argues that she is being prosecuted "for the simple act of

26

being hired to provide immigration consultancy services to an unlawful alien." (Mot. at 14.) In fact,

27

she is being prosecuted for allegedly fraudulently entering into retainer agreements by which she

28

represented to illegal aliens that she would pursue a viable path to legal permanent residency on their
ORDER DENYING MOTION TO DISMISS COUNTS ONE THROUGH THREE, NINE, TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING INDICTMENT-No. CR- I 0-00414 RMW
MEC
5

App. 26

(37 of 1156)

Case5:10-cr-00414-RMW Document51

Filed10/12/11

Page6of6

Case: 15-10614, 04/27/2016, ID: 9955478, DktEntry: 8-1, Page 37 of 38

behalf, when she knew that the aliens she represented could not become legal permanent residents. As
2

explained above, that conduct falls within the plain meaning of the statute, and an ordinary person would

3

have understood that such conduct is prohibited. Defendant cites a number of cases involving the

4

infamous honest services statute, 18 U.S.C. § 1346, but does not explain how 1324(a)(l)(A)(iv)

5

resembles that statute in vagueness or novelty of application. The mere fact that there have been no

6

prior cases directly on point does not mean that Sineneng-Smith did not have notice that her conduct

7

was prohibited.

8

Similarly, Sineneng-Smith does not accurately describe the charges against her in her argument

9

that she lacked notice because she relied on numerous USDOL and USCIS approvals of applications

I0

or that her First Amendment rights have been violated. She is not being prosecuted for making

11

applications to the USDOL or USCIS. She is being prosecuted for allegedly entering into allegedly

=:.:::
0 ro
uu

12

retainer agreements with illegal aliens, accepting payment from aliens and representing to aliens that

-~ 4...

13

her efforts would enable them to become legal permanent residents when she knew that they could not.

.~
.~ .!:::

14

That conduct, if proven, would be illegal under§ 1324(a)(l)(A)(iv).

2"'oc::

15

-c t::

16

.~

E
t: r.8

·-!: -o
~ .~

~ ~
00 ...c:
~

0

.-<::Z

=

(!.)

~fj

....
0

µ..

The parties agreed that the ruling on counts one through three dictate the outcome on counts nine
and ten and the forfeiture allegations.

III. ORDER

17
18

For the foregoing reasons, the court denies defendant's motion.

19
20

21

DATED:

10/11/2011

RO!~/».~

United States District Judge

22

23
24
25
26

27
28
ORDER DENYING MOTION TO DISMISS COUNTS ONE THROUGH THREE, NINE, TEN, AND THE FORFEITURE
ALLEGATIONS OF THE SUPERSEDING INDICTMENT-No. CR-10-004I4 RMW
MEC
6

App. 27

(8 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
8 of
Case5:10-cr-00414-RMW
Document224
Page1
of 38
19

DECISION OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
1
DATED DECEMBER 23, 2013 [APP. 28-46]
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10
United States District Court
For the Northern District of California

SAN JOSE DIVISION
11
12

UNITED STATES OF AMERICA,
Plaintiff,

13
14
15
16

Case No. CR-10-00414-RMW
ORDER GRANTING-IN-PART AND
DENYING-IN-PART DEFENDANT
EVELYN SINENENG-SMITH’S
MOTION FOR ACQUITTAL AND
DENYING DEFENDANT’S MOTION
FOR A NEW TRIAL

v.
EVELYN SINENENG-SMITH,
Defendant.

[Re: Docket Nos. 213, 214]
17
18
19

Defendant Evelyn Sineneng-Smith moves for a judgment of acquittal and a new trial with

20

respect to three counts of violating § 1324(a)(1)(A)(iv) and (b)(i), and three counts of mail fraud.

21

Dkt. Nos. 213, 214. For the reasons explained below, the court grants the motion for judgment of

22

acquittal as to Counts One and Four, and denies the motion for judgment of acquittal as to Counts

23

Two, Three, Five, and Six. The court conditionally grants the motion for a new trial as to Counts

24

One and Four, and denies the motion for a new trial as to Counts Two, Three, Five, and Six.

25
26

I. BACKGROUND
From approximately 1990 to April 2008, defendant Evelyn Sineneng-Smith owned and

27

operated an immigration consultation business located in San Jose, California, with additional

28

offices in Beverly Hills, California, La Jolla, California, Las Vegas, Nevada, and New York, New

App. -28
1-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(9 of 1156)

United States District Court
For the Northern District of California

Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
9 of
Case5:10-cr-00414-RMW
Document224
Page2
of 38
19

1

York. Sineneng-Smith counseled foreign nationals on applying for and obtaining employment based

2

visas in order to enable them to work in the residential health care industry. An alien can obtain an

3

employment-based visa under United States immigration law from the Department of State by filing

4

form I-485, Application to Register Permanent Residence or Adjust Status. Certain aliens are

5

ineligible for adjustment of status. However, in 1994, Congress enacted Section 245(i) of the

6

Immigration and Naturalization Act, known as the Legal Immigration Family Equity Act ("LIFE

7

Act"), which permitted certain aliens who were otherwise ineligible for adjustment of status to pay a

8

penalty in order to adjust their status without leaving the United States if the alien was the

9

beneficiary of a qualifying immigrant visa petition or application for labor certification and met

10

statutory and regulatory requirements before April 30, 2001. The relevant labor certification

11

application, known as Form ETA-750, is filed with the United States Department of Labor

12

("USDOL") by the employer seeking to hire the alien. If the USDOL approves the form, an

13

employer can apply on the alien's behalf to obtain a visa number and file an application with the

14

United States Citizenship and Immigration Services ("USCIS") called the I-140, Petition for Alien

15

Worker.

16

Counts one through three each allege that for the purpose of private financial gain,

17

Sineneng-Smith encouraged or induced an alien to reside in the United States, knowing or in

18

reckless disregard of the fact that such residence was in violation of the law. The indictment lists the

19

initials of each alien, the date he or she entered into a retainer agreement with the defendant, and the

20

admission number listed in Form I-94, the record of the alien's arrival into the United States. These

21

aliens have since been revealed to be Oliver Galupo (Counts One and Four), Amelia Guillermo

22

(Counts Two and Five), and Hermansita Esteban (Counts Three and Six).

23

The defendant is also charged with three counts of mail fraud. In support of those

24

allegations, the superseding indictment alleges that Sineneng-Smith entered into retainer agreements

25

with foreign nationals, most of whom entered the United States on visitor's visas from the

26

Philippines, and their employers. The superseding indictment alleges that Sineneng-Smith

27

fraudulently promoted USDOL's labor certification program as a way for foreign nationals to obtain

28

a permanent resident employment-based visa, while knowing that foreign nationals who did not file

App. -29
2-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(10 of 1156)
Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
10 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page3

1

petitions with USDOL or USCIS prior to April 30, 2001 would not be eligible to obtain

2

employment-based visas. She charged $5,900 for the filing of an application for a foreign labor

3

certification with USDOL and $900 for the filing of the I-140 Form with USCIS–filings that she

4

allegedly knew were futile. Sineneng-Smith also allegedly knew that her clients had overstayed the

5

amount of time they were allowed to be in the United States and worked illegally at various health

6

care facilities.

7

On July 30, 2013, after a twelve-day trial, a jury convicted Sineneng-Smith on all six counts.

8

Dkt. No. 195. Sineneng-Smith now moves the court for a judgment of acquittal and, in the

9

alternative, for a new trial on all six counts.

United States District Court
For the Northern District of California

10

II. ANALYSIS

11

Federal Rule of Criminal Procedure 29(c) permits a court to “set aside the verdict and enter

12

an acquittal” if the jury has returned a guilty verdict or “[i]f the jury has failed to return a verdict.”

13

Fed. R. Crim. P. 29(c)(2). “In ruling on a Rule 29 motion, the relevant question is whether, after

14

viewing the evidence in the light most favorable to the prosecution, any rational trier of fact could

15

have found the essential elements of the crime beyond a reasonable doubt.” United States v.

16

Alarcon-Simi, 300 F.3d 1172, 1176 (9th Cir. 2002) (internal quotation marks omitted). The court

17

“must bear in mind that it is the exclusive function of the jury to determine the credibility of

18

witnesses, resolve evidentiary conflicts, and draw reasonable inferences from proven facts.” United

19

States v. Rojas, 554 F.2d 938, 943 (9th Cir. 1977) (internal quotation marks omitted); see also

20

Alarcon-Simi, 300 F.3d at 1176.

21

As for the new trial motion, Federal Rule of Criminal Procedure 33 permits the court, on

22

defendant's motion, to “vacate any judgment and grant a new trial if the interest of justice so

23

requires.” Fed. R. Crim. P. 33(a). The court's power to grant a new trial is broader than its power to

24

grant a motion for judgment of acquittal because the court “is not obliged to view the evidence in

25

the light most favorable to the verdict, and it is free to weigh the evidence and evaluate for itself the

26

credibility of the witnesses.” United States v. Kellington, 217 F.3d 1084, 1097 (9th Cir. 2000).

27

However, the court's discretion is not unconstrained. The court may only grant a new trial if it finds

28

that “the evidence preponderates sufficiently heavily against the verdict that a serious miscarriage of

App. -30
3-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(11 of 1156)

United States District Court
For the Northern District of California

Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
11 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page4

1

justice may have occurred.” Id. (quoting United States v. Lincoln, 630 F.2d 1313, 1319 (8th Cir.

2

1980)).

3

A. Sufficiency of the Evidence on the Immigration Charges

4

To prove that Sineneng-Smith was guilty under § 1324(a)(1)(A)(iv) and (b)(i), the

5

government had to show beyond a reasonable doubt that (1) the person identified in the count was

6

an alien; (2) Sineneng-Smith encouraged or induced the alien to reside in the United States in

7

violation of the law; (3) Sineneng-Smith knew that the alien’s residence in the United States was or

8

would be in violation of the law; and (4) Sineneng-Smith did so for private financial gain. The

9

parties agree that a violation of § 1324(a)(1)(A)(iv) is not a continuing offense. Therefore, the

10

government must prove that the offense was completed on the charged date. However, as the court

11

ruled in considering the defendant’s motions in limine, “[e]vidence of defendant's continued

12

encouragement or inducement of the specific clients charged in the counts is relevant if it tends to

13

prove acts consistent with the alleged inducement or encouragement such as showing that the

14

inducement or encouragement was carried out.” Dkt. No. 131, at 5.

15

The defendant did not dispute that Guillermo, Esteban, and Galupo are aliens. The

16

government introduced evidence proving this element as to all three alleged victims. RT: 686:16-17;

17

688:5-6; Gov’t Exh. 13B; Gov’t Exh. 14 (as to Guillermo); RT: Vol. 6, 4:19-20; 6:5-8; Gov’t Exh.

18

17B (as to Esteban); Gov’t Exh. 10 (as to Galupo).

19

It is also undisputed that Sineneng-Smith knew that Guillermo’s, Esteban’s, and Galupo’s

20

residences in the United States were in violation of the law. Sineneng-Smith knew of her clients’

21

immigration status because she routinely examined her clients’ passports and visas and made copies

22

for her files. RT: 1019:2-6. The defendant also admitted to ICE Special Agent Anthony Villacorta

23

that she knew that “most of [her clients] were here illegally.” Id. at 1018:24-1019:1. Therefore, the

24

government presented sufficient evidence from which a reasonable jury could have found the first

25

and third elements of the immigration charges proven beyond a reasonable doubt.

26

Finally, there is no dispute that Sineneng-Smith committed the immigration offenses for

27

private financial gain. The government introduced checks to the defendant written on behalf of

28

Galupo, Gov’t Exh. 11, Esteban, Gov’t Exh. 19, and Guillermo, Gov’t Exh. 15. Esteban and

App. -31
4-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(12 of 1156)
Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
12 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page5

1

Guillermo both testified that they paid Sineneng-Smith for their retainer agreements. RT: Vol. 6,

2

19:18-23; 30:9-10 (Esteban); RT: 701:12-24; 715:19-24 (Guillermo).

3

United States District Court
For the Northern District of California

4

1. Count Two: “Encouragement” as to Guillermo
The defendant argues that the government presented insufficient evidence for a reasonable

5

jury to find beyond a reasonable doubt that Sineneng-Smith encouraged or induced Guillermo to

6

reside in the United States in violation of the law. The government in response directs the court to

7

several excerpts of Guillermo’s testimony at trial. In particular, Guillermo testified that she met with

8

the defendant, the defendant’s staff member, and Guillermo’s employer, Marilyn Santiago, on April

9

10, 2002. RT: 693:11-24. At that meeting, Guillermo signed a retainer agreement for Sineneng-

10

Smith to guide her through the labor certification process, paying Sineneng-Smith $200 per month

11

plus a $500 down payment for a total of $5,900. Id. at 701:3-5; 12-15; 23-24. Guillermo testified

12

that she then asked the defendant’s staff member—apparently while Sineneng-Smith was present—

13

whether she could work, and the staff member replied “that’s why you are here.” Id. at 704:9-12.

14

Shortly after Guillermo’s meeting with the defendant, she began working for Santiago. Id. at

15

705:14-18.

16

Guillermo testified that five years later, Santiago informed her that her labor certification

17

was approved. RT: 713:22-24. Sineneng-Smith mailed her a retainer for a Petition for Alien Worker

18

(I-140), which Guillermo signed on May 5, 2007, the charged date. Id. at 714:14-23; 715:25-716:3.

19

This retainer agreement cost Guillermo $1,000, and she paid $300 down. Id. at 715:12-24. Santiago

20

signed the agreement on June 20, 2007, and Guillermo mailed the retainer back to Sineneng-Smith.

21

Id. at 716:12-16; 720:16-20. The government introduced several of Guillermo’s retainer agreements

22

with Sineneng-Smith into evidence. Gov’t Exh. 13A at 346-47; Gov’t Exh. 13D; Gov’t Exh. 13F.

23

Along with the retainer agreement for the Petition for Alien Worker, the government introduced a

24

document from Sineneng-Smith advising Guillermo on a premium processing service for the

25

Petition for Alien Worker. Gov’t Exh. 13F at 182-83. This document mentions the possibility of

26

Guillermo receiving a work permit and green card, and the accompanying chart states that the “Next

27

Step if result is Approval” is to “Apply for Work Permit/Green Card.” Id.

28

App. -32
5-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(13 of 1156)
Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
13 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page6

United States District Court
For the Northern District of California

1

From this evidence, a reasonable jury could have found beyond a reasonable doubt that

2

Sineneng-Smith encouraged Guillermo to reside illegally in the United States on May 5, 2007. This

3

court previously held in denying the defendant’s motion to dismiss that Sineneng-Smith could

4

“encourage” within the meaning of § 1324(a)(1)(A)(iv) “[b]y suggesting to the aliens that the

5

applications she would make on their behalf, in exchange for their payments, would allow them to

6

eventually obtain legal permanent residency in the United States.” Dkt. No. 51, at 4-5. The jury

7

could have concluded that Sineneng-Smith suggested to Guillermo that, by proceeding with the

8

retainer agreements and various applications, Guillermo would eventually be able to obtain legal

9

status. While the defendant was present, her employee told Guillermo that the purpose of the

10

meeting was to allow Guillermo to work in the United States. The defendant had Guillermo sign and

11

pay for retainer agreements that would purportedly help Guillermo achieve legal status, when in fact

12

legal status was impossible.

13

The evidence at trial was sufficient for a reasonable jury to find that through advertisements

14

in Filipino newspapers and flyers at residential healthcare facilities, Sineneng-Smith attracted

15

individuals she knew were working illegally in the United States, promising them that a successful

16

labor certification and I-140 petition would allow them to obtain legal permanent residency, all the

17

while knowing that without a change in the law, many of her clients were not allowed to work even

18

after the labor certification and I-140 were approved. RT: 1018:9-11; 16-18; 1019:19-21; 1020:1-5;

19

13-18; 1022:9-17. This evidence could have provided the jury with context for Sineneng-Smith’s

20

specific meeting with Guillermo, lending credibility to Guillermo’s testimony on her perception of

21

the meeting’s purpose. This evidence also could have provided context for Sineneng-Smith’s

22

employee’s “that’s why you are here” statement, allowing a reasonable jury to find beyond a

23

reasonable doubt that Sineneng-Smith “encouraged” Guillermo to reside illegally within the United

24

States on the day Guillermo signed the Petition for Alien Worker, as prohibited by

25

§ 1324(a)(1)(A)(iv).

26

Sineneng-Smith argues that she never met with Guillermo or talked to her about the Petition

27

for Alien Worker. The defendant contends that she merely filed paperwork for Guillermo. But the

28

jury could have reasonably concluded otherwise. Sineneng-Smith did meet with Guillermo with

App. -33
6-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(14 of 1156)
Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
14 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page7

1

respect to the labor certification, and the documents surrounding the Petition for Alien Worker

2

indicate that Sineneng-Smith held out her services as a vehicle to obtain a legal work permit and

3

green card. The evidence shows an ongoing relationship between Guillermo and the defendant, and

4

Guillermo testified repeatedly that she “trusted Evelyn Sineneng-Smith,” even though Sineneng-

5

Smith was not providing Guillermo with legal advice. RT: 720:1-9. A reasonable jury could have

6

found beyond a reasonable doubt that the retainer agreements, meetings, and other documents

7

exchanged by Sineneng-Smith and Guillermo rose to the level of the defendant “encouraging”

8

Guillermo to reside illegally in the United States.

United States District Court
For the Northern District of California

9

Sineneng-Smith also argues, with respect to Counts Two and Three, that the retainer

10

agreements were not signed until after the charged date, meaning that they were not in legal effect

11

on the charged date. But this fact is irrelevant. The government’s allegations are not based on the

12

legal relationship between the defendant and her clients. In fact, as the defendant repeatedly asserts,

13

the legal relationship was relatively circumscribed. Instead, the government alleges that Sineneng-

14

Smith encouraged her clients to reside illegally in the United States by suggesting to them that the

15

applications she would make on their behalf would allow them to eventually obtain legal permanent

16

residency in the United States. In other words, the government’s proof of encouragement is based

17

on the impression Sineneng-Smith fostered in her clients that they would be able to obtain a green

18

card through her services. Having her clients sign a retainer agreement was the mechanism of the

19

defendant’s encouragement, but the retainer agreement having immediate legal effect was

20

unnecessary for encouragement to have occurred.

21
22

2. Count Three: “Encouragement” as to Esteban
Esteban’s testimony at trial tells a similar story to Guillermo’s. Esteban testified that she

23

met with Sineneng-Smith on May 13, 2002. RT: Vol. 6 at 8:17-22. At that meeting, Esteban signed

24

a retainer agreement, which the government admitted into evidence. Gov’t Exh. 17A at 245-46. Like

25

Guillermo, Esteban paid the defendant a $5,900 retainer fee. RT: Vol. 6 at 19:23. Esteban testified

26

that during the May 13, 2002 meeting, Sineneng-Smith told her that she “was able to work once the

27

[labor certification] was filed.” Id. at 11:10-13. Esteban also testified that, with respect to Esteban’s

28

ability to remain in the United States, Sineneng-Smith advised her that “[she] was here in the U.S.

App. -34
7-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(15 of 1156)
Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
15 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page8

1

and that [she] could stay here in the U.S.” Id. at 11:14-24. It was Esteban’s understanding that at the

2

end of the process, she “would receive a green card.” Id. at 11:25-12:2.

United States District Court
For the Northern District of California

3

Esteban testified that after the May 13, 2002 meeting, she began to work at Soquel Leisure

4

Villa. RT: Vol. 6 at 23:4-5. Esteban did not attempt to extend her visa, which expired on October

5

12, 2002, because she “thought that [she] had a petition that had been filed and that that was [her]

6

way of being legalized.” Id. at 23:7-13. Later, Esteban testified that she received a letter notifying

7

her that her labor certification application had been approved. Id. at 29:3-5. Sineneng-Smith then

8

sent Esteban a retainer agreement for immigrant petition, which Esteban signed. Id. at 29:11-30:1.

9

As with Guillermo, Esteban paid $1,000 for this retainer agreement. RT: Vol. 6 at 29:17-23. Esteban

10

testified that she gave the second retainer agreement, dated June 18, 2007—the charged date—to her

11

employer to mail to Sineneng-Smith. The government introduced this retainer agreement, along

12

with several related documents, into evidence. Gov’t Exh. 17E.

13

The evidence as to Esteban is stronger than the evidence as to Guillermo. The jury could

14

reasonably believe Esteban’s testimony that the defendant personally represented to her that she

15

could stay in the United States and work while her labor certification was pending. It is uncontested

16

that Sineneng-Smith knew that Esteban’s continued residence in the United States was illegal. Thus,

17

based on Esteban’s testimony, a reasonable jury could find beyond a reasonable doubt that

18

Sineneng-Smith encouraged Esteban to remain in the United States on the charged date by

19

promising to help her obtain legal status.

20
21

3. Count One: “Encouragement” as to Galupo
The court finds the evidence presented at trial insufficient as to Galupo. Unlike Esteban or

22

Guillermo, Galupo did not testify at trial, nor did his employer. The only evidence presented by the

23

government at trial connecting Galupo and Sineneng-Smith was the retainer agreement for the

24

defendant’s services signed by Galupo. The government argues that the “jury could infer from

25

reviewing Galupo’s June 2, 2005 retainer agreement that the defendant also encouraged him to

26

reside in the United States.” Gov. Opp. at 6-7. In doing so, the government wishes to criminalize the

27

signing of a retainer agreement with an illegal resident in the United States for the filing of a labor

28

certification on the alien’s behalf. This simple act, as the defendant argues, is certainly not a

App. -35
8-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(16 of 1156)
Case:
15-10614, 04/27/2016,
ID: 9955478, DktEntry:
8-1, Page
16 of
of 19
38
Case5:10-cr-00414-RMW
Document224
Filed12/23/13
Page9

1

violation of § 1324(a)(1)(A)(iv). Rather, as the court ruled in denying Sineneng-Smith’s motion to

2

dismiss, encouragement under the statute requires “suggesting to the aliens that the applications

3

[Sineneng-Smith] would make on their behalf, in exchange for their payments, would allow them to

4

eventually obtain legal permanent residency in the United States.” Dkt. No. 51, at 4-5. Therefore, to

5

present sufficient evidence of encouragement, the government must demonstrate that Sineneng-

6

Smith suggested to Galupo that the applications she would make on his behalf would potentially

7

lead to legal permanent residency in the United States.

8

United States District Court
For the Northern District of California

9

However, the government has introduced no evidence that Sineneng-Smith made any
representations to Galupo that her services could allow him to obtain legal permanent residency in

10

the United States. The government presented no testimony concerning statements made by

11

Sineneng-Smith to Galupo, nor did it introduce any documentary evidence to that effect. Moreover,

12

the retainer agreement between Galupo and Sineneng-Smith by itself is insufficient—on its face, it

13

merely states that Sineneng-Smith will assist Galupo in attaining a labor certification. The retainer

14

agreement does not promise that the labor certification can lead to legal permanent residency for

15

Galupo.

16

Although the circumstances surrounding the signing of Galupo’s retainer agreement appear

17

similar to those of Guillermo and Esteban, the court—and a reasonable jury—must examine the

18

evidence as to each count separately. If the court were to allow the jury to infer solely from the

19

retainer agreement that Galupo had an experience with Sineneng-Smith similar to Guillermo’s and

20

Esteban’s, it would allow the jury to convict Sineneng-Smith on Count One based solely on other

21

crimes she committed. From the government’s presentation of a few otherwise neutral documents

22

from Galupo’s file that are similar to documents found in Guillermo’s and Esteban’s files, the

23

government wished the jury to infer that the representations the defendant made to Guillermo and

24

Esteban also were made to Galupo. This sort of inference is prohibited by Fed. R. Ev. 404(b)(1).

25

And without any evidence that Sineneng-Smith made any representations at all regarding Galupo’s

26

ability to obtain legal permanent residency, no reasonable jury could find beyond a reasonable doubt

27

that Sineneng-Smith encouraged Galupo to reside illegally in the United States.

28

App. -36
9-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(17 of 1156)

United States District Court
For the Northern District of California

Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
17 of
Case5:10-cr-00414-RMW
Document224
Page10
of 38
19

1

The government contends that the jury could have found that once Galupo signed the

2

retainer agreement with Sineneng-Smith, he had to remain in the United States so he could work to

3

pay her. This argument suggests that any person who lends an alien money could be guilty of

4

violating § 1324(a)(1)(A)(iv). Another court has held, and the Third Circuit has affirmed, that an

5

employer does not encourage an alien within the meaning of § 1324(a)(1)(A)(iv) by hiring an

6

undocumented worker. Zavala v. Wal-Mart Stores, Inc., 393 F. Supp. 2d 295, 308 (D.N.J. 2005)

7

aff'd sub nom. Zavala v. Wal Mart Stores Inc., 691 F.3d 527 (3d Cir. 2012). If actually hiring an

8

alien to work does not constitute “encouragement,” it is certainly not “encouragement” to make an

9

agreement with an alien that, under the circumstances, requires him to work to pay money owed

10

under the agreement. Even further, nothing about simply owing the defendant money required

11

Galupo to live and work in the United States. Galupo could have sent Sineneng-Smith the money

12

from the Philippines. He could have obtained the money from a generous relative. The

13

government’s argument here fails.

14

4. Summary: Immigration Charges
In sum, the evidence presented at trial was sufficient as to Counts Two (Guillermo) and

15
16

Three (Esteban), and insufficient as to the encouragement element of Count One (Galupo).

17

Sineneng-Smith argues, as she did in her motion to dismiss earlier in this case, Dkt. No. 46, that her

18

conduct cannot fall within the scope of § 1324(a)(1)(A)(iv), and that interpreting

19

§ 1324(a)(1)(A)(iv) to prohibit the conduct of which defendant is accused would cause it to be

20

unconstitutionally vague. But for the reasons stated above and in the court’s denial of her motion to

21

dismiss, Dkt. No. 51 at 4-6, the court finds that the conduct proven as to Counts Two and Three

22

constitutes “encouragement” under § 1324(a)(1)(A)(iv), 1 and that this interpretation of

23

1

24
25
26
27
28

Sineneng-Smith makes the same arguments as before. However, the court will address one
argument in particular, as the government further refuted it with evidence presented at trial.
Sineneng-Smith contends that she must be acquitted because there can be legitimate reasons for
someone to file a labor certification or petition for alien worker. The defendant relies on USCIS
Associate Center Director Kurt Gooselaw’s grand jury testimony that individuals have a right to file
foreign labor certifications and I-140s, and that thousands of foreign labor certifications and I-140s
for aliens unlawfully present in the United States have been approved. But the government
sufficiently responded to this argument with Mr. Gooselaw’s trial testimony. Mr. Gooselaw testified
that an alien with an approved labor certification and I-140, who is ineligible for § 245(i) and
residing in the United States, is creating an “unlawful presence.” RT: 244:4-11. “That means if they

App. - 1037
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(18 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
18 of
Case5:10-cr-00414-RMW
Document224
Page11
of 38
19

1

§ 1324(a)(1)(A)(iv) does not render it unconstitutionally vague or deny Sineneng-Smith fair notice.

2

Therefore, the court grants the defendant’s motion for judgment of acquittal as to Count One, and

3

denies it as to Counts Two and Three. Upon a similar review of the evidence, but without construing

4

the evidence in the light most favorable to the government, the court finds that failing to grant a new

5

trial on Counts Two and Three would not result in “a serious miscarriage of justice,” United States

6

v. Kellington, 217 F.3d 1084, 1097 (9th Cir. 2000), so the court accordingly denies Sineneng-

7

Smith’s motion for a new trial as to Counts Two and Three. As to Count One, the court

8

conditionally grants Sineneng-Smith’s motion for a new trial.

9

United States District Court
For the Northern District of California

10

B. Sufficiency of the Evidence on the Mail Fraud Charges
To prove that Sineneng-Smith committed mail fraud, the government had to show beyond a

11

reasonable doubt that: (1) Sineneng-Smith knowingly devised and intended to devise a scheme or

12

plan to defraud, or a scheme or plan for obtaining money by means of false or fraudulent pretenses,

13

representations, or promises; (2) the statements made or facts omitted as part of the scheme were

14

material; (3) Sineneng-Smith acted with the intent to defraud; and (4) Sineneng-Smith used, or

15

caused to be used, the mails to carry out or attempt to carry out an essential part of the scheme.

16

Sineneng-Smith in her motions for judgment of acquittal and new trial only contests the first two

17

elements.

18

The defendant does not dispute that if a scheme to defraud is found, the mails were used to

19

carry out an essential part of the scheme. As to Count Four, ICE Special Agent Wendell Wright

20

testified that he discovered a letter dated December 2, 2005 from the defendant transmitting a

21

Department of Labor Application for Permanent Employment Certification for Galupo that was

22

mailed from San Jose, CA to Chicago, IL. RT: 1162:11-1163:3; see Gov’t Exh. 9E. Special Agent

23

Wright found a U.S. Postal certified mail receipt with the document. Id. at 1163:4-7. As to Count

24

Five, Special Agent Wright testified that he found a letter, dated July 12, 2007, signed by Sineneng-

25
26
27
28

accrue more than 180 days in less than a year they could be barred from the United States if they
depart. And more than one year unlawful presence, they depart the United States, they could be
barred for ten years.” Id. at 244:13-16. Therefore, Sineneng-Smith did not file for labor
certifications and I-140s for legitimate reasons, but rather that the defendant harmed her clients by
worsening their immigration status.

App. - 1138
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(19 of 1156)

United States District Court
For the Northern District of California

Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
19 of
Case5:10-cr-00414-RMW
Document224
Page12
of 38
19

1

Smith, and accompanying the I-140 Form for Guillermo, that was mailed from San Jose, CA to

2

Lincoln, NE. Id. at 1167:16-1168:14; see Gov’t Exh. 13H. Special Agent Wright found a U.S.

3

Postal certified mail receipt with these documents as well. Id. at 1168:15-18. As to Count Six,

4

Esteban testified that she received a leniency letter dated October 22, 2007 in the mail from

5

Sineneng-Smith. RT: Vol. 6 27:17-28:6.

6

Sineneng-Smith also does not appear to dispute that if a scheme to defraud is found, a

7

reasonable jury could have concluded beyond a reasonable doubt that she acted with intent to

8

defraud. The government presented sufficient evidence as to this element. ICE Special Agent

9

Anthony Villacorta testified that Sineneng-Smith admitted to him that she knew that her clients

10

could not obtain legal permanent residency through labor certification, that she knew how the

11

§ 245(i) legislation operated, and that her clients could not work even after the labor certification

12

and petition for immigrant worker were approved. RT: 1020:1-18; 1022:9-14. According to Special

13

Agent Villacorta’s testimony, Sineneng-Smith explained to him the proper procedure for her clients

14

to be able to legally adjust their immigration status, which required them to wait in their home

15

country until they were approved for a work visa to enter the United States. Id. at 1022:17-1023:8.

16

Sineneng-Smith knew that she was not following the proper procedure with her clients. Id. at

17

1023:5-8. The government also presented evidence that Sineneng-Smith, through advertisements in

18

Filipino newspapers and flyers at residential healthcare facilities, attracted clients she knew were

19

working illegally in the United States. Id. at 1018:9-11; 16-18; 1019:19-21. From all of this

20

evidence, the jury could have reasonably concluded beyond a reasonable doubt that Sineneng-Smith

21

acted with intent to defraud.

22
23

1. A Scheme or Plan to Defraud
“Proof of an affirmative, material misrepresentation supports a conviction of mail fraud”

24

without any additional proof of a fiduciary duty to the victim. United States v. Benny, 786 F.2d

25

1410, 1418 (9th Cir. 1986). However, “[a] defendant's activities can be a scheme or artifice to

26

defraud whether or not any specific misrepresentations are involved.” United States v. Halbert, 640

27

F.2d 1000, 1007 (9th Cir. 1981) (citing United States v. Bohonus, 628 F.2d 1167 (9th Cir. 1980);

28

Lustiger v. United States, 386 F.2d 132, 138 (9th Cir. 1967); Lemon v. United States, 278 F.2d 369,

App. - 1239
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(20 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
20 of
Case5:10-cr-00414-RMW
Document224
Page13
of 38
19

1

373 (9th Cir. 1960)). In addition, “deceitful statements of half truths or the concealment of material

2

facts is actual fraud violative of the mail fraud statute. . . . [T]he deception need not be premised

3

upon verbalized words alone. The arrangement of the words, or the circumstances in which they are

4

used may convey the false and deceptive appearance.” United States v. Woods, 335 F.3d 993, 998

5

(9th Cir. 2003) (citing Lustiger, 386 F.2d at 138). Note also that “materiality of falsehood is an

6

element of the federal mail fraud, wire fraud, and bank fraud statutes.” Neder v. United States, 527

7

U.S. 1, 25 (1999).

8

United States District Court
For the Northern District of California

9

The government alleges that Sineneng-Smith misled Guillermo, Esteban, and Galupo into
believing that they could achieve legal permanent residency via the defendant’s services. The

10

relevant inquiry, then, is whether, as to each alleged victim, the government presented sufficient

11

evidence from which a reasonable jury could conclude beyond a reasonable doubt that Sineneng-

12

Smith engaged in a scheme to defraud by creating the false impression that her client could achieve

13

legal permanent residency. The government must also have introduced sufficient evidence from

14

which a jury could conclude that the falsehood was material. The court finds that the government

15

upheld its burden with respect to Count Five (Guillermo) and Count Six (Esteban), but not as to

16

Count Four (Galupo). Sineneng-Smith’s motion for judgment of acquittal is therefore denied as to

17

Counts Five and Six and granted as to Count Four.

18
19

2. Count Five: Scheme to Defraud as to Guillermo
The relevant facts for the mail fraud charge are similar to the facts for the immigration

20

charge. Guillermo testified that she met Sineneng-Smith on April 10, 2002. RT: 693:11-24. There,

21

Guillermo sat at a table with Santiago (her employer), the defendant, and the defendant’s staff

22

member. Id. At the meeting, Guillermo signed a retainer agreement for Sineneng-Smith to assist her

23

in “obtain[ing] permanent residence through Labor Certification.” Gov’t Exh. 13A at 346-47.

24

Guillermo testified that she asked the defendant’s staff member whether she could work, and the

25

staff member replied “that’s why you are here.” RT: 704:9-12.

26

Guillermo testified that she began working for Santiago about a month after the meeting, on

27

May 5, 2002. RT: 705:14-18. Guillermo also testified that she received a number of leniency letters

28

from Sineneng-Smith. Id. at 706:16-25. The letters indicated that Guillermo was “taking steps to

App. - 1340
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(21 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
21 of
Case5:10-cr-00414-RMW
Document224
Page14
of 38
19

1

legalize his/her immigration status in the United States,” and they were addressed to various state

2

and federal agencies. Gov’t Exh. 13C. Eventually, Santiago told Guillermo that her labor

3

certification had been approved. RT: 713:22-24. Shortly thereafter, Sineneng-Smith sent Guillermo

4

a retainer for an I-140, which Guillermo signed. Id. at 714:14-23; 715:25-716:3. Guillermo testified

5

that she also paid a $300 down payment on the retainer agreement’s $1,000 total cost. Id. at 715:12-

6

24. As described in the section on Count Two, Guillermo testified that she signed a document on

7

“premium processing.” Gov’t Exh. 13F at 182-83. This document mentions the possibility of

8

Guillermo receiving a work permit and green card, and the accompanying chart states that the “Next

9

Step if result is Approval” is to “Apply for Work Permit/Green Card.” Id.

United States District Court
For the Northern District of California

10

Sineneng-Smith, contending that the evidence only reveals material omissions, argues that

11

“a non-disclosure can only serve as a basis for a fraudulent scheme when there exists an

12

independent duty that has been breached by the person so charged.” United States v. Dowling, 739

13

F.2d 1445, 1449 (9th Cir. 1984), rev'd on other grounds, 473 U.S. 207 (1985). But the evidence

14

introduced at trial establishes that the defendant’s statements to Guillermo are better characterized

15

as half-truths, or even as being affirmatively misleading. Various different documents suggested that

16

Guillermo could obtain a green card, and the defendant’s staff member indicated to Guillermo that

17

following Sineneng-Smith’s advice would allow Guillermo to legally work in the United States. A

18

jury could have reasonably concluded from the evidence that Sineneng-Smith intentionally led

19

Guillermo to believe that Guillermo could obtain legal permanent residency.

20

Finally, the government presented unequivocal evidence of materiality. Guillermo testified

21

that if the defendant told her that she could not obtain a green card, she would have gone home. RT:

22

796:17-19. Guillermo reasonably relied on Sineneng-Smith’s representations that Guillermo could

23

obtain a green card. The evidence introduced at trial was sufficient as to Count Five.

24
25

3. Count Six: Scheme to Defraud as to Esteban
As Esteban’s testimony was detailed in the section on Count Three, and the testimony was

26

largely similar to Guillermo’s, the court will only highlight a few key facts. Esteban testified that

27

when she met with Sineneng-Smith, the defendant told her “to trust her because she studied law, and

28

that her office was trustworthy, and that there were many people whose petitions had been

App. - 1441
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(22 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
22 of
Case5:10-cr-00414-RMW
Document224
Page15
of 38
19

1

approved.” RT: Vol. 6, 10:11-16. Esteban believed that at the end of the process, she “would receive

2

a green card.” Id. at 11:25-12:2. Esteban signed a retainer agreement with similar language to the

3

one Guillermo signed. The agreement stated that “Evelyn Sineneng-Smith, has been retained by me

4

Hermansita Esteban (alien) for the purposes of assisting me (alien), to obtain permanent residence

5

through Labor Certification.” Gov’t Exh. 17A at 245-46. Esteban testified that after the meeting, she

6

was under the impression that her petition “was [her] way of being legalized.” RT: Vol. 6, 23:7-13.

7

As a result, Esteban did not extend her visa. Id.

8

United States District Court
For the Northern District of California

9

Esteban testified that, like Guillermo, she received leniency letters “almost every month.”
RT: Vol 6, 25:19-20; Gov’t Exh. 17C. The leniency letters stated that “[t]his alien is taking steps to

10

legalize his/her immigration status in the United States,” again indicating to Esteban that she was

11

going through the process to achieve legal permanent residency. Gov’t Exh. 17C. The government

12

also admitted status letters sent by Sineneng-Smith to Esteban. These letters told Esteban to

13

“[p]lease be patient and cooperate with us so that we will be successful in obtaining your permanent

14

residency in the United States.” Gov’t Exh. 17C. Esteban later signed a retainer agreement for

15

Sineneng-Smith to assist her in filing a Petition for Alien Worker. Gov’t Exh. 17E at 42-43.

16

The record is replete with explicit misrepresentations made to Esteban. A reasonable jury

17

could have found beyond a reasonable doubt that Sineneng-Smith’s repeated allusions to Esteban

18

attaining legal status or permanent residency fraudulently misled Esteban into believing that she

19

could obtain a green card, when in fact it was impossible. Esteban’s testimony demonstrates that

20

Esteban assumed she was taking the proper steps to achieve legal permanent residency, and that

21

Sineneng-Smith’s actions were instrumental in forming this belief. Unlike the defendant contends,

22

this count is not based purely on an omission. Rather, Sineneng-Smith’s affirmative statements to

23

Esteban in person and through retainer agreements and letters misled Esteban.

24

As to materiality, although the government does not point to an express statement from

25

Esteban that she would not have reasonably retained Sineneng-Smith had Esteban known that she

26

was ineligible for a green card, the jury could reasonably infer materiality beyond a reasonable

27

doubt based on all of Esteban’s testimony detailing her belief that she could work and reside in the

28

App. - 1542
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(23 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
23 of
Case5:10-cr-00414-RMW
Document224
Page16
of 38
19

1

United States while proceeding to obtain a green card. The court therefore denies the defendant’s

2

motions with respect to Count Six.

3
4

As mentioned in the section on Count One, Galupo did not testify at trial. The government

5

directs the court to two documents introduced at trial to support the jury’s verdict: Galupo’s retainer

6

agreement, Gov’t Exh. 9 at 189-91, and a chart entitled “The Road to Obtaining Permanent

7

Residence is a Rocky and Frustrating Road,” Gov’t Exh. 9 at 195. Because the government cannot

8

demonstrate that Sineneng-Smith engaged in a scheme to defraud Galupo, the court grants the

9

defendant’s motion for judgment of acquittal as to Count Four.

10
United States District Court
For the Northern District of California

4. Count Four: Scheme to Defraud as to Galupo

The government highlights the first line of Galupo’s retainer agreement, which reads “This

11

will acknowledge that Evelyn Sineneng-Smith has been retained by me Oliver Galupo (alien

12

worker) for purposes of assisting me to obtain my Labor Certification thru PERM.” Nothing about

13

this statement is misleading. It does not suggest that Galupo will receive legal status or a green card.

14

Not only is it apparently true that Galupo retained Sineneng-Smith, but the government does not

15

contend that Galupo could not have obtained a labor certification.

16

The government also points to an addendum to the retainer agreement: “As of today, 245i

17

was not renewed, but Congress may reintroduce 245i during their next session.” The government

18

argues that a “jury could find that the statement is misleading because it does not provide an

19

explanation of what 245(i) [sic] and speculates that Congress may take action.” Dkt. No. 218 at 15-

20

16. If anything, this addendum is more consistent with full disclosure than with misrepresentation.

21

In adding this language, Sineneng-Smith made only truthful statements. These truthful statements

22

disclosed the current state of the law to Galupo. Because there is no evidence as to what either

23

Sineneng-Smith or Galupo said at the time the retainer agreement was signed, there is insufficient

24

evidence from which a reasonable jury could find that the defendant should have explained what

25

§ 245(i) is or that she should have told Galupo that he was ineligible for a green card. In fact,

26

because there is a lack of evidence, it is reasonable to conclude that Sineneng-Smith may have told

27

Galupo that, without a change in the law, he could not obtain a green card. No reasonable jury could

28

App. - 1643
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(24 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
24 of
Case5:10-cr-00414-RMW
Document224
Page17
of 38
19

1

conclude beyond a reasonable doubt from the retainer agreement that Sineneng-Smith misled

2

Galupo.

United States District Court
For the Northern District of California

3

The analysis as to the “Rocky and Frustrating Road” chart is similar. This chart indicates

4

that attaining a work permit and green card may be possible, but that it is a difficult and

5

“frustrating” process. Gov’t Exh. 9 at 195. Under the portion of the chart mentioning a work permit

6

and green card, a note reads “If applicable, 245i effective here.” Again, because the government

7

presented no evidence of the discussion surrounding this chart, there was no evidence from which a

8

jury could conclude that Sineneng-Smith did or did not represent to Galupo that he could obtain a

9

green card. The only evidence that the government showed the jury was the chart itself, without any

10

context. No reasonable jury could find beyond a reasonable doubt based on this ambiguous chart

11

that Sineneng-Smith engaged in a scheme to defraud Galupo.

12

Taken together, the retainer agreement and chart fare no better. As both documents specially

13

mention § 245(i), Sineneng-Smith may have highlighted the issue rather than concealed it. The

14

government introduced no testimony concerning the meeting, nor did the jury have any context for

15

how the defendant presented these two documents to Galupo.

16

Furthermore, even if a reasonable jury could accept beyond a reasonable doubt that the

17

retainer agreement and the “Rocky and Frustrating Road” chart proved a scheme to defraud, the

18

government could not prove that the falsehood was material. Without any testimony as to Galupo’s

19

motives for retaining Sineneng-Smith, the government presented no evidence that Galupo even

20

intended to pursue a green card. Any conclusion that Galupo would not have reasonably retained

21

Sineneng-Smith had he known that he was ineligible for legal permanent residency would have been

22

based on pure speculation, much less evidence beyond a reasonable doubt. The evidence as to

23

Galupo is clearly insufficient.

24
25

5. Summary: Mail Fraud Charges
In sum, the evidence presented at trial was sufficient as to Counts Five (Guillermo) and Six

26

(Esteban), and insufficient as to the scheme to defraud and materiality elements of Count Four

27

(Galupo). Therefore, the court grants the defendant’s motion for judgment of acquittal as to Count

28

Four, and denies it as to Counts Five and Six. Upon a similar review of the evidence, but without

App. - 1744
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(25 of 1156)

United States District Court
For the Northern District of California

Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
25 of
Case5:10-cr-00414-RMW
Document224
Page18
of 38
19

1

construing the evidence in the light most favorable to the government, the court finds that failing to

2

grant a new trial on Counts Five and Six would not result in “a serious miscarriage of justice,”

3

United States v. Kellington, 217 F.3d 1084, 1097 (9th Cir. 2000), so the court accordingly denies

4

Sineneng-Smith’s Motion for a new trial as to Counts Five and Six. As to Count Four, the court

5

conditionally grants Sineneng-Smith’s motion for a new trial.

6

C. Entrapment by Estoppel

7

Sineneng-Smith argues that the government is estopped from prosecuting her for the act of

8

being hired to do immigration consultant work. But, as the court stated in addressing this same

9

assertion in the defendant’s motion to dismiss, Sineneng-Smith is not being prosecuted for the act of

10

being hired to do immigration consultant work. “She is being prosecuted for allegedly entering into

11

allegedly retainer agreements with illegal aliens, accepting payment from aliens and representing to

12

aliens that her efforts would enable them to become legal permanent residents when she knew that

13

they could not. That conduct, if proven, would be illegal under § 1324(a)(1)(A)(iv).” Dkt. No. 51 at

14

6.

15

D. First Amendment Arguments

16

Sineneng-Smith contends that her conviction on the immigration charges violates her rights

17

under the Petition Clause and Free Speech Clause of the First Amendment. The defendant makes the

18

same arguments here—almost verbatim—as she made in her motion to dismiss. See Dkt. No. 46 at

19

20-25. For the same reasons as the court expressed in its order denying Sineneng-Smith’s motion to

20

dismiss, it rejects the defendant’s contentions here. Dkt. No. 51 at 6.

21

E. Objections to Evidence and Jury Instructions

22

1. Scheme Evidence and Relevant Time Period

23

The court previously considered and rejected the defendant’s arguments to exclude evidence

24

of mail fraud based on a scheme mail fraud theory in its Rulings on Defendant’s Motions In Limine

25

I-IV. Dkt. No. 131. The court denied the defendant’s motion in limine to exclude evidence based on

26

a scheme mail fraud theory because Sineneng-Smith’s arguments all rested on the erroneous

27

premise that the scheme is not relevant to establish liability for the three specific counts charged. Id.

28

at 1-3. The summary witnesses’ testimony was relevant to the existence and scope of the charged

App. - 1845
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

(26 of 1156)
Case: 15-10614, 04/27/2016,
ID: 9955478, Filed12/23/13
DktEntry: 8-1, Page
26 of
Case5:10-cr-00414-RMW
Document224
Page19
of 38
19

1

offenses, and the witnesses properly laid foundation for each of the summary charts introduced

2

under Federal Rule of Evidence 1006. For the reasons stated here and those given in the order on the

3

defendant’s motions in limine, Sineneng-Smith is not entitled to a new trial based on the court’s

4

allowance of this evidence.

United States District Court
For the Northern District of California

5

2. La Jolla Recording and Ramelb Testimony

6

The court also previously considered and rejected Sineneng-Smith’s arguments as to the La

7

Jolla recording and ICE Special Agent Ramelb testimony in its Rulings on Defendant’s Motions In

8

Limine I-IV. Dkt. No. 131. As Special Agent Ramelb sufficiently authenticated the recording in his

9

testimony at trial, RT: 1097:5-6; 1098:17-24; 1099:1-4; 1100:23-25; 1101:19-21; 1102:11-20;

10

1103:1-11, and the defendant concedes that her arguments here are the same as in the motion in

11

limine, the court concludes that Sineneng-Smith is not entitled to a new trial based on the court’s

12

allowance of this evidence.

13
14

3. Vicarious Liability Instruction
The court has previously denied the defendant’s request for a vicarious liability instruction.

15

The government did not rely upon a vicarious liability theory, and the evidence the government

16

offered from Sineneng-Smith’s employees was limited to conduct within the scope of the

17

employees’ agency as proscribed by Sineneng-Smith.

18
19

III. ORDER
For the above stated reasons, the court grants defendant Evelyn Sineneng-Smith’s motion for

20

judgment of acquittal as to Counts One and Four. The motion for judgment of acquittal is denied as

21

to Counts Two, Three, Five, and Six. The motion for a new trial is conditionally granted as to

22

Counts One and Four, and denied as to Counts Two, Three, Five, and Six.

23
24
25

Dated: December 23, 2013

_________________________________
RONALD M. WHYTE
United States District Judge

26
27
28

App. - 1946
-

ORDER RE ACQUITTAL AND NEW TRIAL
Case No. CR-10-00414-RMW
RDS

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 1 of 42

OPINION OF THE NINTH CIRCUIT COURT OF APPEALS
DATED DECEMBER 4, 2018 [APP. 47-88]

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 15-10614

v.

D.C. No.
CR 10-414 RMW

EVELYN SINENENG-SMITH,
Defendant-Appellant.

OPINION

Appeal from the United States District Court
for the Northern District of California
Ronald M. Whyte, Senior District Judge, Presiding
Argued and Submitted April 18, 2017
San Francisco, California
Reargued and Resubmitted February 15, 2018
Pasadena, California
Filed December 4, 2018
Before: A. Wallace Tashima, Marsha S. Berzon,
and Andrew D. Hurwitz,* Circuit Judges.
Opinion by Judge Tashima

*

Judge Reinhardt, who was originally a member of this panel, died
after this case was reargued and resubmitted for decision. Judge Hurwitz
was randomly drawn to replace him. Judge Hurwitz has read the briefs,
reviewed the record, and watched video recordings of the oral arguments.

App. 47

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 2 of 42

2

UNITED STATES V. SINENENG-SMITH
SUMMARY**

Criminal Law
The panel reversed the district court’s judgment with
respect to the defendant’s convictions on two counts of
encouraging and inducing an alien to remain in the United
States for the purposes of financial gain, in violation of
8 U.S.C. §§ 1324(a)(1)(A)(iv) & 1324(a)(1)(B)(i); vacated
the defendant’s sentence; and remanded for resentencing.
The panel held that subsection (iv) – which permits a
felony prosecution of any person who “encourages or
induces” an alien to come to, enter, or reside in the United
States if the encourager knew, or recklessly disregarded the
fact that such coming to, entry, or residence is or will be in
violation of law – is unconstitutionally overbroad in violation
of the First Amendment because it criminalizes a substantial
amount of protected expression in relation to its narrow band
of legitimately prohibited conduct and unprotected
expression.
In a concurrently filed memorandum disposition, the
panel affirmed the judgment with respect to the defendant’s
convictions on two counts of mail fraud in violation of
18 U.S.C. § 1341.

**

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

App. 48

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 3 of 42

UNITED STATES V. SINENENG-SMITH

3

COUNSEL
Daniel F. Cook (argued), Bodega Bay, California, for
Defendant-Appellant.
Susan B. Gray (argued), Assistant United States Attorney;
J. Douglas Wilson, Chief, Appellate Section; United States
Attorney’s Office, San Francisco, California; Elizabeth D.
Collery (argued), Attorney, Criminal Division; John P.
Cronan, Principal Deputy Assistant Attorney General;
Kenneth A. Blanco, Acting Assistant Attorney General;
United States Department of Justice, Washington, D.C.; for
Plaintiff-Appellee.
Mark C. Fleming (argued) and Megan E. Barriger, Wilmer
Cutler Pickering Hale & Dorr LLP, Boston, Massachusetts;
Beth C. Neitzel, Wilmer Cutler Pickering Hale & Dorr LLP,
Washington, D.C.; for Amici Curiae Immigrant Defense
Project, and National Immigration Project of the National
Lawyers Guild.
Annie Hudson-Price (argued) and Mark Rosenbaum, Public
Counsel, Los Angeles, California, for Amicus Curiae Public
Counsel.
Stephen R. Sady (argued), Chief Deputy Federal Public
Defender; Lisa Ma, Research and Writing Attorney, Portland,
Oregon; Carmen A. Smarandoiu, Assistant Federal Public
Defender, San Francisco, California; for Amicus Curiae
Federal Defender Organizations of the Ninth Circuit.

App. 49

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 4 of 42

4

UNITED STATES V. SINENENG-SMITH

Lee Rowland (argued), Cecillia D. Wang, Anand
Balakrishnan, ACLU Foundation, New York, New York;
Christine Patricia Sun, American Civil Liberties Union
Foundation of Northern California, Inc.; for Amici Curiae
American Civil Liberties Union, and American Civil
Liberties Union of Northern California.
Eugene Volokh, Scott & Cyan Banister First Amendment
Clinic, UCLA School of Law, Los Angeles, California, as
Amicus Curiae.
Elliott Schulder, Tina M. Thomas, Nicole Y. Roberts,
Covington & Burling LLP, Washington, D.C.; Robin
Wechkin, Sidley Austin LLP, Seattle, Washington; for
Amicus Curiae National Association of Criminal Defense
Lawyers.
Dennis J. Herrera, City Attorney; Christine Van Aken, Chief
of Appellate Litigation; Yvonne T. Mere, Chief of Complex
and Affirmative Litigation; Molly M. Lee and Matthew S.
Lee, Deputy City Attorneys; Office of the City Attorney, San
Francisco, California; for Amicus Curiae City and County of
San Francisco.
Stephen W. Manning, Innovation Law Lab, Portland, Oregon;
Kari Hong, Boston College Law School, Newton,
Massachusetts; for Amici Curiae Oregon Interfaith
Movement for Immigrant Justice, Causa Immigrant Rights
Coalition of Oregon, Catholic Charities of Oregon, and
Immigration Counseling Services of Oregon.

App. 50

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 5 of 42

UNITED STATES V. SINENENG-SMITH

5

Emily T. Kuwahara, Crowell & Moring LLP, Los Angeles,
California; Harry P. Cohen and Gary A. Stahl, Crowell &
Moring LLP, New York, New York; Noor Taj, Crowell &
Moring LLP, Washington, D.C.; Niyati Shah, John C. Yang,
Asian Americans Advancing Justice | AAJC, Washington,
D.C.; for Amicus Curiae Asian Americans Advancing
Justice | AAJC.

OPINION
TASHIMA, Circuit Judge:
INTRODUCTION
Defendant-Appellant Evelyn Sineneng-Smith was
convicted on two counts of encouraging and inducing an alien
to remain in the United States for the purposes of financial
gain, in violation of 8 U.S.C. § 1324(a)(1)(A)(iv) &
§ 1324(a)(1)(B)(i).1 Section 1324(a)(1)(A)(iv) (“Subsection
(iv)”) permits a felony prosecution of any person who
“encourages or induces an alien to come to, enter, or reside in
the United States” if the encourager knew, or recklessly
disregarded “the fact that such coming to, entry, or residence
is or will be in violation of law.” We must decide whether
Subsection (iv) abridges constitutionally-protected speech.
To answer this question, we must decide what “encourages or
induces” means.

1

Sineneng-Smith was also convicted of two counts of mail fraud in
violation of 18 U.S.C. § 1341. We affirm those convictions in a separate,
concurrently filed memorandum disposition.

App. 51

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 6 of 42

6

UNITED STATES V. SINENENG-SMITH

The parties have widely divergent views about how to
interpret the statute. Sineneng-Smith and several amici
contend that encourage and induce carry their plain meaning
and, therefore, restrict vast swaths of protected expression in
violation of the First Amendment. The government counters
that the statute, in context, only prohibits conduct and a
narrow band of unprotected speech.
We do not think that any reasonable reading of the statute
can exclude speech. To conclude otherwise, we would have
to say that “encourage” does not mean encourage, and that a
person cannot “induce” another with words. At the very
least, it is clear that the statute potentially criminalizes the
simple words – spoken to a son, a wife, a parent, a friend, a
neighbor, a coworker, a student, a client – “I encourage you
to stay here.”
The statute thus criminalizes a substantial amount of
constitutionally-protected expression. The burden on First
Amendment rights is intolerable when compared to the
statute’s legitimate sweep.
Therefore, we hold that
Subsection (iv) is unconstitutionally overbroad in violation of
the First Amendment.
FACTUAL AND PROCEDURAL BACKGROUND
A. Underlying Facts
Sineneng-Smith operated an immigration consulting firm
in San Jose, California. Her clients were mostly natives of
the Philippines, unlawfully employed in the home health care
industry in the United States, who sought authorization to
work and adjustment of status to obtain legal permanent
residence (green cards). Sineneng-Smith assisted clients with

App. 52

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 7 of 42

UNITED STATES V. SINENENG-SMITH

7

applying for a “Labor Certification,” and then for a green
card. She signed retainer agreements with her clients that
specified the purpose of the retention as “assisting [the client]
to obtain permanent residence through Labor Certification.”
The problem was that the Labor Certification process expired
on April 30, 2001; aliens who arrived in the United States
after December 21, 2000, were not eligible to receive
permanent residence through the program. See EsquivelGarcia v. Holder, 593 F.3d 1025, 1029 n.1 (9th Cir. 2010).
Sineneng-Smith knew that the program had expired. She
nonetheless continued to sign retainer agreements with her
clients and tell them that they could obtain green cards via
Labor Certifications. And she also continued to sign new
retainer agreements purportedly to assist additional clients
in obtaining Labor Certification. At least two of SinenengSmith’s clients testified that they would have left the country
if Sineneng-Smith had told them that they were not eligible
for permanent residence. Sineneng-Smith’s words and acts
which allegedly violated the statute were alleged to have
occurred from 2001 to 2008.
B. Procedural History
On July 14, 2010, a grand jury returned a ten-count
superseding indictment charging Sineneng-Smith with, as
relevant to this appeal, three counts of violating 8 U.S.C.
§ 1324(a)(1)(A)(iv) & § 1324(a)(1)(B)(i) – encouraging or
inducing an alien to reside in the country, knowing and in
reckless disregard of the fact that such residence is in
violation of the law.
Before trial, Sineneng-Smith moved to dismiss the
immigration counts of the superseding indictment. SinenengSmith argued that: (1) her conduct was not within the scope

App. 53

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 8 of 42

8

UNITED STATES V. SINENENG-SMITH

of Subsection (iv); (2) Subsection (iv) is impermissibly vague
under the Fifth Amendment; and (3) Subsection (iv) violates
the First Amendment because it is a content-based restriction
on her speech. The district court denied the motion to
dismiss, but did not explicitly address the First Amendment
argument.
After a twelve-day trial, the jury found Sineneng-Smith
guilty on all three counts of violating Subsection (iv) and
§ 1324(a)(1)(B)(i), and all three counts of mail fraud.
Sineneng-Smith then moved for a judgment of acquittal
pursuant to Federal Rule of Criminal Procedure 29(c),
renewing the arguments from her motion to dismiss and
contending that the evidence elicited at trial did not support
the verdicts. The district court concluded that sufficient
evidence supported the convictions for two of the three
§ 1324 counts and two of the three mail fraud counts.2
Sineneng-Smith timely appealed, again arguing that the
charges against her should have been dismissed for the
reasons asserted in her motion to dismiss, and that the
evidence did not support the convictions. We first held oral
argument on April 18, 2017, and submitted the case for
decision. Subsequent to submission, however, we determined
that our decision would be significantly aided by further
briefing. On September 18, 2017, we filed an order inviting
interested amici to file briefs on the following issues:

2

The court sentenced Sineneng-Smith to 18 months on each of the
remaining counts, to be served concurrently; three years of supervised
release on the § 1324 and mail fraud counts, and one year of supervised
release on the filing of false tax returns count, all to run concurrently. She
was also ordered to pay $43,550 in restitution, a $15,000 fine, and a $600
special assessment.

App. 54

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 9 of 42

UNITED STATES V. SINENENG-SMITH

9

1. Whether the statute of conviction is overbroad or
likely overbroad under the First Amendment, and if
so, whether any permissible limiting construction
would cure the First Amendment problem?
2. Whether the statute of conviction is void for
vagueness or likely void for vagueness, either under
the First Amendment or the Fifth Amendment, and if
so, whether any permissible limiting construction
would cure the constitutional vagueness problem?
3. Whether the statute of conviction contains an implicit
mens rea element which the Court should enunciate.
If so: (a) what should that mens rea element be; and
(b) would such a mens rea element cure any serious
constitutional problems the Court might determine
existed?
We received nine amicus briefs,3 as well as supplemental
briefs from both Sineneng-Smith and the government. On
February 15, 2018, we again held oral argument and
resubmitted the case for decision.
STANDARD OF REVIEW
The government urges us to review Sineneng-Smith’s
First Amendment overbreadth claim for plain error, arguing
that she waived the issue by not raising it until we requested
supplemental briefing.
Although Sineneng-Smith never specifically argued
overbreadth before our request for supplemental briefing, she
3

We thank all amici for their helpful briefs and oral advocacy.

App. 55

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 10 of 42

10

UNITED STATES V. SINENENG-SMITH

has consistently maintained that a conviction under the statute
would violate the First Amendment. Sineneng-Smith’s
motion to dismiss argued that “[t]he crime alleged here is
rooted in speech content – performing immigration
consultancy work on behalf of aliens and their employers by
petitioning the government on their behalf – not in conduct
lacking any First Amendment protection.” Likewise, her
opening brief on appeal reasserted a First Amendment
challenge: “Such communication is ‘pure’ speech entitled to
the highest level of protection.”
“Once a federal claim is properly presented, a party can
make any argument in support of that claim; parties are not
limited to the precise arguments they made below.” Yee v.
City of Escondido, 503 U.S. 519, 534 (1992). Because
Sineneng-Smith has asserted a First Amendment claim
throughout the litigation, her overbreadth challenge “is – at
most – a new argument to support what has been a consistent
claim.” Citizens United v. FEC, 558 U.S. 310, 331 (2010)
(internal quotation marks omitted). We thus conclude that
she preserved her overbreadth argument, and review it de
novo.
ANALYSIS
The First Amendment dictates that “Congress shall make
no law . . . abridging the freedom of speech.” “[A] law
imposing criminal penalties on protected speech is a stark
example of speech suppression.” Ashcroft v. Free Speech
Coal., 535 U.S. 234, 244 (2002).
Of course, like most constitutional principles, the right to
free speech “is not absolute.” Ashcroft v. Am. Civil Liberties
Union, 535 U.S. 564, 573 (2002). For example, laws or

App. 56

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 11 of 42

UNITED STATES V. SINENENG-SMITH

11

policies that target conduct but only incidentally burden
speech may be valid. See, e.g., Virginia v. Hicks, 539 U.S.
113, 122–23 (2003). Further, traditional narrow carve-outs
to the First Amendment, “long familiar to the bar,” allow
Congress to restrict certain types of speech “including
obscenity, defamation, fraud, incitement, and speech integral
to criminal conduct.” United States v. Stevens, 559 U.S. 460,
468 (2010) (internal quotation marks and citations omitted).
Sineneng-Smith and several amici argue that the statute
explicitly criminalizes speech through its use of the term
“encourages or induces,” and that the speech restriction is
content-based and viewpoint-discriminatory, because it
criminalizes only speech in support of aliens coming to or
remaining in the country. Alternatively, Sineneng-Smith
asserts that even if the statute targets some conduct, it
sweeps in too much protected speech and is therefore
unconstitutionally overbroad. The government counters that
Subsection (iv) should be read as referring only to conduct
and, to the extent it affects speech, restricts only unprotected
speech.
We address those competing constructions below,
beginning with the topic of overbreadth.4

4

We follow the Supreme Court’s lead in assessing the statute’s
overbreadth before engaging in the strict scrutiny analysis that would
follow if we concluded that Subsection (iv) was a content-based restriction
on speech. See Stevens, 559 U.S. at 474 (recognizing that the statute at
issue explicitly regulated expression based on content, but analyzing the
statute for overbreadth rather than for whether it survived strict scrutiny).

App. 57

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 12 of 42

12

UNITED STATES V. SINENENG-SMITH

I. First Amendment Overbreadth
Because of the “sensitive nature of protected expression,”
New York v. Ferber, 458 U.S. 747, 768 (1982), “[t]he
Constitution gives significant protection from overbroad laws
that chill speech within the First Amendment’s vast and
privileged sphere,” Free Speech Coal., 535 U.S. at 244. To
implement this protection, the general rules governing facial
attacks on statutes are relaxed under the First Amendment.
Typically, to succeed on a facial attack, a challenger would
need “to establish that no set of circumstances exists under
which [the statute] would be valid, or that the statute lacks
any plainly legitimate sweep.” Stevens, 559 U.S. at 472
(internal quotation marks and citations omitted).
However, “[i]n the First Amendment context . . . a law
may be invalidated as overbroad if ‘a substantial number of
its applications are unconstitutional, judged in relation to the
statute’s plainly legitimate sweep.’” Id. at 473 (quoting
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 449, n. 6 (2008)). This exception to the typical
rule is based on the idea that speakers may be chilled from
expressing themselves if overbroad criminal laws are on the
books. See Farber, 458 U.S. at 768–69 (citing Vill. of
Schaumburg v. Citizens for a Better Env’t, 444 U.S. 620, 634
(1980)). To combat that chilling effect, even a person whose
activity is clearly not protected may challenge a law as
overbroad under the First Amendment. See id.
To determine whether Subsection (iv) is overbroad, we
must first construe the statute. Next, we must ask whether
Subsection (iv), as construed, restricts speech and, if so,
whether that speech is protected. Finally, we must weigh the

App. 58

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 13 of 42

UNITED STATES V. SINENENG-SMITH

13

amount of protected speech that the statute restricts against
the statute’s legitimate sweep.
Recognizing that striking down a statute as overbroad is
“strong medicine,” and the justification for facially striking
down a statute “attenuates as the otherwise unprotected
behavior that it forbids the State to sanction moves from
‘pure speech’ toward conduct,” we conclude that the chilling
effect of Subsection (iv) is both real and substantial.
Broadrick v. Oklahoma, 413 U.S. 601, 615–16 (1973). The
only reasonable construction of Subsection (iv) restricts a
substantial amount of protected speech in relation to the
narrow band of conduct and unprotected expression that the
statute legitimately prohibits. Therefore, we hold that
Subsection (iv) is facially invalid.
A. Construing the Statute
“The first step in overbreadth analysis is to construe the
challenged statute; it is impossible to determine whether a
statute reaches too far without first knowing what the statute
covers.” United States v. Williams, 553 U.S. 285, 293 (2008).
Subsection (iv) reads: “Any person who . . . encourages or
induces an alien to come to, enter, or reside in the United
States, knowing or in reckless disregard of the fact that such
coming to, entry, or residence is or will be in violation of law
. . . shall be punished as provided in subparagraph (B).”5
5

The government argues that the “statute of conviction is not
8 U.S.C. § 1324(a)(1)(A)(iv), standing alone. Rather, the indictment
charged and the jury found that Sineneng-Smith acted ‘for the purpose of
commercial advantage or private financial gain’ under 8 U.S.C.
§ 1324(a)(1)(B)(i) . . . . Accordingly, the ‘statute[s] of conviction’ are
8 U.S.C. § 1324(a)(1)(A)(iv) and (B)(i).” Subsection (B)(i) is a
commercial enhancement of Subsection (A)(iv). For the purposes of our

App. 59

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 14 of 42

14

UNITED STATES V. SINENENG-SMITH

Construing the statute also requires us to look beyond the
plain text of Subsection (iv). See Stevens, 559 U.S. at 474.
Thus, to interpret Subsection (iv), we analyze: the mens rea
required for conviction; what “encourages or induces” means;
whether “an alien” limits the scope of the statute; and whether
“in violation of law” refers to both criminal and civil laws.
The government contends that a defendant runs afoul of
Subsection (iv) only when she (1) knowingly undertakes,
(2) a non-de-minimis, (3) act that, (4) could assist, (5) a
specific alien (6) in violating, (7) civil or criminal
immigration laws.
While we endeavor to “construe[] [a statute] to avoid
serious constitutional doubts,” we can only do so if the statute
is “readily susceptible to such a construction.” Stevens, 559
U.S. at 481 (internal quotation marks and citations omitted).
“We will not rewrite a law to conform it to constitutional
requirements, for doing so would constitute a serious invasion
of the legislative domain, and sharply diminish Congress’
incentive to draft a narrowly tailored law in the first place.”
Id. (internal quotation marks and citations omitted).
The government’s interpretation of Subsection (iv)
rewrites the statute. For the following reasons, we hold that
to violate Subsection (iv), a defendant must knowingly
encourage or induce a particular alien – or group of aliens –
overbreadth analysis, the commercial enhancement is irrelevant.
Subsection (A)(iv) is the predicate criminal act; without the encouraging
or inducing, Sineneng-Smith could not have been convicted. And, as the
meaning of § 1324(a)(1)(A)(iv) does not vary depending upon whether the
financial gain enhancement also applies, the chilling effect of the
“encourage or induce” statute extends to anyone who engages in behavior
covered by it, whether for financial gain or not.

App. 60

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 15 of 42

UNITED STATES V. SINENENG-SMITH

15

to come to, enter, or reside in the country in reckless
disregard of whether doing so would constitute a violation of
the criminal or civil immigration laws on the part of the alien.
As properly construed, “encourage or induce” can mean
speech, or conduct, or both, and there is no substantiality or
causation requirement.
1. Mens Rea
We first address what mens rea is required to sustain a
conviction under Subsection (iv). As an initial matter, the
most natural reading of Subsection (iv) requires us to break
it into two prongs for the purposes of determining the
requisite mens rea: first, the “encourage or induce” prong;
and, second, the violation of law prong. Subsection (iv) is
silent about the mens rea required for the encourage prong,
but explicitly provides that a defendant must “know[] or
reckless[ly] disregard” the fact that an alien’s “coming to,
entry, or residence is or will be in violation of law.” 8 U.S.C.
§ 1324(a)(1)(A)(iv).
a. Mens Rea for “encourage or induce” Prong
In United States v. Yoshida, the defendant was indicted
for “knowingly encouraging and inducing” three aliens to
enter the United States. 303 F.3d 1145, 1149 (9th Cir. 2002).
On appeal, Yoshida argued that “there [was] insufficient
evidence that she . . . knowingly encouraged or induced in
some way [the aliens’] presence in the United States.” Id. at
1149–50. In affirming the conviction, we concluded that “[a]
number of events revealed at trial creates a series of
inescapable inferences leading to the rational conclusion that
Yoshida knowingly ‘encouraged and induced’ [the aliens] to
enter the United States.” Id. at 1150. We repeatedly

App. 61

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 16 of 42

16

UNITED STATES V. SINENENG-SMITH

emphasized the knowledge requirement. See id. (“The
government also offered circumstantial evidence that Yoshida
knowingly encouraged [the aliens] to enter the United
States”); id. at 1151 (“a reasonable jury could easily conclude
that Yoshida knowingly led the aliens to the flight”).
Therefore, we think it clear that Subsection (iv) has a
knowledge mens rea for the encourage prong.
b. Mens Rea for the Violation of Law Prong
Despite the fact that Subsection (iv) explicitly states that
a defendant must “know[] or reckless[ly] disregard” the fact
that an alien’s “coming to, entry, or residence is or will be in
violation of law,” the government argues that we have
increased that mens rea requirement to an “intent” to violate
the immigration laws. We disagree, but recognize that our
prior cases provide some support for the government’s
position.
The government’s argument is based on United States v.
Nguyen, 73 F.3d 887 (9th Cir. 1995), in which we reviewed
a conviction under subsection (i) of § 1324(a)(1)(A).
Subsection (i) criminalizes “bring[ing]” an alien “to the
United States . . . at a place other than a designated port of
entry” when the defendant “know[s] that [such] person is an
alien.” 8 U.S.C. § 1324(a)(1)(A)(i). “Read literally, then, the
statute criminalizes bringing, purposefully or otherwise, any
alien, illegal or otherwise, into the country other than at a
designated port of entry.” Nguyen, 73 F.3d at 890. In the
absence of an explicit mens rea standard, we considered the
legislative history of the statute and concluded that Congress
did not intend to “dispense with a mens rea requirement for
the felony offense.” Id. at 893. “Accordingly, we [held] that
to convict a person of violating [§] 1324(a)(1)(A), the

App. 62

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 17 of 42

UNITED STATES V. SINENENG-SMITH

17

government must show that the defendant acted with criminal
intent.”6 Id.
Subsequent cases adding a mens rea element to the other
subsections of § 1324(a)(1)(A) adopted Nguyen’s criminal
intent language. See United States v. Barajas-Montiel,
185 F.3d 947, 951–53 (9th Cir. 1999). Central to the
government’s argument, in Yoshida we stated, “[w]e have
held that ‘to convict a person of violating section
1324(a)(1)(A), the government must show that the defendant
acted with criminal intent, i.e., the intent to violate United
States immigration laws.’” Yoshida, 303 F.3d at 1149
(quoting Barajas-Montiel, 185 F.3d at 951).
However, the passing reference to “criminal intent” in
Yoshida did not increase the mens rea of the violation of law
prong to intent. We affirmed Yoshida’s conviction because
“the jury had ample evidence before it to conclude, beyond a
reasonable doubt, that Yoshida encouraged the aliens to enter
the United States, with knowledge or in reckless disregard of
the fact that the aliens’ entry was in violation of law.” Id. at
1151 (emphasis added). Not only does Yoshida foreclose the
government’s argument that we have increased the mens rea
level of Subsection (iv), it confirms that we have not read out
of the statute the “reckless disregard” standard that appears
explicitly in it.

6

“Criminal intent” is an amorphous term that can signify different
levels of culpability. For example, Black’s Law Dictionary defines the
term as “mens rea,” or “[a]n intent to commit an actus reus without any
justification, excuse, or other defense.” Intent, Black’s Law Dictionary,
930–31 (10th ed. 2014). However, Black’s also recognizes that
sometimes “criminal intent” means “an intent to violate the law, —
implying a knowledge of the law violated.” Id. (citations omitted).

App. 63

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 18 of 42

18

UNITED STATES V. SINENENG-SMITH
2. “Encourages or Induces”
a. Our Construction of “encourage or induce”

Next, we turn to the meaning of “encourage or induce.”
As always, we begin with the language of the statute to
determine whether it has “a plain and unambiguous meaning
with regard to the particular dispute in the case.” Barnhart v.
Sigmon Coal Co., 534 U.S. 438, 450 (2002) (quoting
Robinson v. Shell Oil Co., 519 U.S. 337, 340 (1997)). A
critical dispute in this case is whether, and to what extent, the
words “encourage and induce” criminalize protected speech.
We have previously recognized that “encourage” means
“to inspire with courage, spirit, or hope . . . to spur on . . . to
give help or patronage to.” United States v. Thum, 749 F.3d
1143, 1147 (9th Cir. 2014) (alterations in original) (quoting
United States v. He, 245 F.3d 954, 960 (7th Cir. 2001)
(quoting Merriam Webster’s Collegiate Dictionary 381 (10th
ed. 1996))). This definition is well-accepted. See, e.g.,
Encourage, Oxford English Dictionary Online (3d ed. 2018)
(“to inspire with courage, animate, inspirit . . . . [t]o incite,
induce, instigate”). Similarly, induce means “[t]o lead (a
person), by persuasion or some influence or motive that acts
upon the will . . . to lead on, move, influence, prevail upon
(any one) to do something.” Induce, Oxford English
Dictionary Online (3d ed. 2018).
In isolation, “encourage or induce” can encompass both
speech and conduct. It is indisputable that one can encourage
or induce with words, or deeds, or both. The dictionary
definitions do not, however, necessarily resolve the dispute in
this case. We must also examine the context in which the
words are used to determine whether we can avoid First

App. 64

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 19 of 42

UNITED STATES V. SINENENG-SMITH

19

Amendment concerns. See Williams, 553 U.S. at 294–95.
We look to the principle of noscitur a sociis to determine
whether the language surrounding “encourage or induce”
provides those words with a more precise definition. Id. at
294.
In Williams, the Supreme Court analyzed whether
18 U.S.C. § 2252A(a)(3)(B)’s prohibition on “advertis[ing],
promot[ing], present[ing], distribut[ing], or solicit[ing]”
purported child pornography was overbroad. Id. at 293–94.
In construing the statute, the Court narrowed the meanings of
“promotes” and “presents” in light of their neighboring verbs.
Id. at 294.
The Court reasoned that “advertises,”
“distributes,” and “solicits” all had an obvious transactional
connotation: “Advertising, distributing, and soliciting are
steps taken in the course of an actual or proposed transfer of
a product.” Id. “Promotes” and “presents,” on the other
hand, are not obviously transactional. In context, however,
the Supreme Court read them as having a transactional
meaning as well. Id. at 294–95. Thus, the Court interpreted
“promotes” to mean “recommending purported child
pornography to another person for his acquisition,” and
“presents” to “mean[] showing or offering the child
pornography to another person with a view to his
acquisition.” Id. at 295.
By contrast, Subsection (iv) does not have a string of five
verbs – it is limited to only two: “encourages or induces.”
Here, the proximity of encourage and induce to one another
does not aid our analysis. As discussed above, both
encourage and induce can be applied to speech, conduct, or
both. Therefore, unlike the string of verbs in Williams,
neither of these verbs has clear non-speech meanings that
would inform and limit the other’s meaning. In other words,

App. 65

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 20 of 42

20

UNITED STATES V. SINENENG-SMITH

when read together, they do not provide a more precise
definition or one that excludes speech. Nor are the words
necessarily transactional like those in Williams. Thus, the
application of noscitur a sociis to the two operative verbs
here, does not narrow our search; our conclusion that
Subsection (iv) could cover speech, as well as conduct,
remains.
Beyond their immediate neighbors in Subsection (iv),
encourage and induce also “keep company” with the verbs in
the other subsections of § 1324(a)(1)(A). The neighboring
subsections prohibit: (i) “bring[ing]” an alien to the United
States “at a place other than a designated port of entry;”
(ii) “transport[ing] or mov[ing]” an alien in furtherance of a
violation of the immigration laws; and (iii) “conceal[ing],
harbor[ing], or shield[ing] from detection” an alien in the
country in violation of the immigration laws. 8 U.S.C.
§ 1324(a)(1)(A)(i), (ii), & (iii). Bringing, transporting,
moving, concealing, harboring, and shielding all clearly refer
to some type of action.
The government contends, in light of these other verbs in
the other subsections, that “encourage or induce” “should
likewise be interpreted to require specific actions that
facilitate an alien’s coming to, entering, or residing in the
United States illegally. So understood, § 1324(a)(1)(A)[(iv)]
serves as a ‘catch-all’ provision that covers actions other than
‘bringing,’ ‘transporting,’ etc., that might facilitate illegal
immigration.” (Citation omitted.) Conversely, Amicus
American Civil Liberties Union contends that subsections
(i)–(iii) criminalize so much conduct that the only thing left
to criminalize in Subsection (iv) is pure speech.

App. 66

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 21 of 42

UNITED STATES V. SINENENG-SMITH

21

The government’s proposed interpretation of “encourage
or induce” in the context of §1324(a)(1)(A) is strained.
While we agree that the statute is intended to restrict the
facilitation of illegal immigration and that subsections (i)–(iii)
prohibit specific actions, it does not follow that Subsection
(iv) covers only actions. Instead, the structure of the section
lends itself to the more obvious conclusion that the verbs in
the subsections must mean different things because they form
the basis of separate charges. See Thum, 749 F.3d at
1146–47.
In § 1324, “Congress created several discrete immigration
offenses including,” among others, the crimes outlined in
subsections (a)(1)(A)(i)–(iv). United States v. Lopez,
484 F.3d 1186, 1190–91, 1193–94 (9th Cir. 2007) (en banc);
see Thum, 749 F.3d at 1146. We have held that construing
§ 1324(a)(1)(A) “so that effect is given to all its provisions,
so that no part will be inoperative or superfluous, void or
insignificant,” requires Subsection (iv) to be read as
excluding the conduct criminalized in the remaining
subsections. Thum, 749 F.3d at 1147 (quoting Corley v.
United States, 556 U.S. 303, 314 (2009)). If encouraging or
inducing cannot mean bringing, transporting, moving,
concealing, harboring, or shielding, what is left?
The government offers a few limited examples of other
actions that could potentially be covered under Subsection
(iv), but not reached by subsections (i)–(iii). These examples
include: (1) providing aliens with false documents; (2) selling
a border-crossing kit to aliens, including a map of “safe
crossing” points and backpacks filled with equipment
designed to evade border patrol; (3) duping foreign tourists
into purchasing a fake “visa extension;” or (4) providing a
“package deal” to foreign pregnant women who wish to give

App. 67

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 22 of 42

22

UNITED STATES V. SINENENG-SMITH

birth in the United States that includes a year of room and
board, a six-month tourist visa, and instructions on how to
overstay the visa without detection. But we doubt Congress
intended to limit Subsection (iv) to actions such as these, as
the provision does not appear necessary to prosecute any of
these actions. Subsection (i), (iii), and (v)(II), which,
respectively, restrict bringing, shielding from detection, and
aiding and abetting the commission of any of these acts,
cover the examples raised by the government. Additionally,
8 U.S.C. § 1324c and 18 U.S.C. § 1546 provide broad
criminal prohibitions against document fraud in violation of
the immigration laws. These few, unpersuasive examples
therefore do not convince us that “encourage” and “induce”
can be read so as not to encompass speech, even though their
plain meaning dictates otherwise.
In sum, the structure of the statute, and the other verbs in
the separate subsections, do not convince us to stray from the
plain meaning of encourage and induce – that they can mean
speech, or conduct, or both. Although the “encourage or
induce” prong in Subsection (iv) may capture some conduct,
there is no way to get around the fact that the terms also
plainly refer to First Amendment-protected expression. In
fact, in Williams, one of the seminal overbreadth cases,
Justice Scalia used the statement, “I encourage you to obtain
child pornography” as an example of protected speech.
553 U.S. at 300. We see no reason why “I encourage you to
overstay your visa” would be any different. And interpreting
“encourage or induce” to exclude such a statement would
require us to conclude that “encourage” does not mean
encourage. The subsection is not susceptible to that
construction.
Subsection (iv), therefore, criminalizes
encouraging statements like Justice Scalia’s example and
other similar expression.

App. 68

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 23 of 42

UNITED STATES V. SINENENG-SMITH

23

b. Other Courts’ Construction of “encourage or
induce”
Only one other Circuit has considered a First
Amendment overbreadth challenge to Subsection (iv), and
that was in an unpublished disposition. In United States v.
Tracy, the defendant “pled guilty to one count of conspiring
to encourage non-citizens to enter the United States illegally
. . . but reserved the right to appeal the district court’s denial
of his motion to dismiss that charge.” 456 F. App’x 267, 268
(4th Cir. 2011) (per curiam). The Fourth Circuit rejected the
defendant’s argument “that speech that encourages illegal
aliens to come to the United States is protected by the First
Amendment in certain instances.” Id. at 272. Instead, the
court stated “that speech that constitutes criminal aiding and
abetting does not enjoy the protection of the First
Amendment,” and concluded that the statute did not prohibit
a substantial amount of protected speech. Id. (alteration and
citations omitted). We will address the extent to which
Subsection (iv) can be read to prohibit only aiding and
abetting in more detail below, but it is clear that Tracy
recognized that the subsection reaches some speech. Id.
(“[T]here may be some instances in which we might find that
the statute chills protected speech.”).
Although not addressing Subsection (iv) from a First
Amendment perspective, other courts have interpreted what
“encourage or induce” means in the subsection. Somewhat
recently, we touched upon the issue in Thum. Amici put quite
a bit of stock in our use of a “broad” definition of
“encourage” in Thum, but we agree with the government that
Thum is inconclusive about whether “encourage” (or
“induce”) includes speech.

App. 69

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 24 of 42

24

UNITED STATES V. SINENENG-SMITH

In Thum, we considered whether the defendant
encouraged or induced an alien to reside in the United States
when the defendant escorted an alien from a fast food
restaurant near the San Ysidro Port of Entry – on the U.S.
side of the border – to a nearby vehicle headed north.
749 F.3d at 1144–45. In interpreting “encourage,” we relied
on the general dictionary definition. Id. at 1147. We also
recognized that we “ha[d] previously equated ‘encouraged’
with ‘helped.’” Id. (citing Yoshida, 303 F.3d at 1150). But
the main question in that case was whether the defendant had
done enough to encourage the alien to reside in the U.S.
Thum, 749 F.3d at 1147. On that point, we agreed with the
defendant that escorting an alien to a van bound for Northern
California was at most “aid[ing] in the attempted
transportation of the alien, which would be covered under
8 U.S.C. § 1324(a)(1)(A)(ii),” and did not “convince the
illegal alien to stay in this country . . . or . . . facilitate the
alien’s ability to live in this country indefinitely.” Id. at 1148
(internal quotation marks and citations omitted). Thum thus
stands for the proposition that “[e]ncouraging an illegal alien
to reside in the United States must mean something more than
merely transporting such an alien within this country.” Id. at
1149.7 We did not address whether the statute reached
speech.
Many other courts have concluded that encourage can
mean “to help.” See United States v. Lopez, 590 F.3d 1238,
1249–52 (11th Cir. 2009) (upholding a supplemental jury

7
Likewise, Yoshida does not aid our analysis. Yoshida, examining
whether there was sufficient evidence to sustain the defendant’s
conviction under Subsection (iv), held only that escorting aliens through
an airport to a United States-bound flight constituted encouragement.
Yoshida, 303 F.3d at 1150–51.

App. 70

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 25 of 42

UNITED STATES V. SINENENG-SMITH

25

instruction which, in part, defined “encourage” as “to help”);
United States v. Fujii, 301 F.3d 535, 540 (7th Cir. 2002); He,
245 F.3d at 957–58; United States v. Oloyede, 982 F.2d 133,
135–37 (4th Cir. 1993) (per curiam). However, as mentioned
above, none of these cases considered a First Amendment
challenge to Subsection (iv), nor do they foreclose the
conclusion that “encourage or induce” can mean speech. To
“help” is not a helpful limitation in terms of excluding
expression, because speech can help someone decide to enter
or to reside in the United States.
Additionally, the government cites out-of-circuit cases for
the argument that encouraging or inducing “requires
substantial assistance (or offers of assistance) that the
defendant expects to make an alien lacking lawful
immigration status more likely to enter or remain in the
United States than she otherwise would have been.” For
example, in DelRio-Mocci v. Connolly Props. Inc., the Third
Circuit
read subsection (iv) as prohibiting a person
from engaging in an affirmative act that
substantially encourages or induces an alien
lacking lawful immigration status to come to,
enter, or reside in the United States where the
undocumented person otherwise might not
have done so. Thus, subsection (iv) has the
distinct character of foreclosing the type of
substantial assistance that will spur a person
to commit a violation of immigration law
where they otherwise might not have.
672 F.3d 241, 249 (3d Cir. 2012) (emphasis added). The
court reasoned that if it interpreted “encourage or induce” too

App. 71

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 26 of 42

26

UNITED STATES V. SINENENG-SMITH

broadly it would “render subsections (i)–(iii)] redundant or
superfluous.” Id. The court thus read the following elements
into what constituted encouragement under Subsection (iv):
it must be (1) an affirmative act that (2) substantially
encourages (3) an alien lacking lawful immigration status to
(4) come to, enter, or reside in the United States where (5) the
undocumented person otherwise might not have done so. Id.
At least one other court has adopted the Third Circuit’s
interpretation. See United States v. Henderson, 857 F. Supp.
2d 191, 204–08 (D. Mass. 2012).
There is a lot to unpack in this interpretation of the
statute, but at bottom, DelRio-Mocci added an act
requirement, a substantiality requirement, and a causation
requirement to the text of Subsection (iv). The Third Circuit
adopted the substantiality requirement from its “harboring”
decisions under § 1324(a)(1)(A)(iii), which hold that a
defendant can only be convicted where his “conduct tend[s]
to substantially facilitate an alien’s remaining in the United
States illegally and to prevent government authorities from
detecting the alien’s unlawful presence.” Id. at 246–48
(quoting United States v. Ozcelik, 527 F.3d 88, 97 (3d Cir.
2008) (internal quotation marks omitted)). The Ninth Circuit,
however, does not have such a precedent and we do not think
the statute is reasonably susceptible to this interpretation in
the absence of statutory text to that effect. See Valle del Sol
Inc. v. Whiting, 732 F.3d 1006, 1017 n.9 (9th Cir. 2013)
(recognizing that the Ninth Circuit broadly defines harboring
“to mean ‘afford shelter to’”) (quoting United States v. Acosta
de Evans, 531 F.2d 428, 430 (9th Cir. 1976)). We therefore
reject the government’s proposed interpretation that
“encourage or induce” must mean an act that provides
substantial assistance (or non-de-minimis help) to an alien for
entering or remaining in the country.

App. 72

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 27 of 42

UNITED STATES V. SINENENG-SMITH

27

We also disagree with the Third Circuit that a causation
requirement can be read into the statute. On its face “the
plain language of the statute makes clear that the relevant
inquiry is the conduct of the defendant,” and not the alien.
See United States v. Dhingra, 371 F.3d 557, 561 (9th Cir.
2004) (rejecting vagueness and overbreadth challenges to
18 U.S.C. § 2422(b), which prohibits “knowingly
persuad[ing], induc[ing], entic[ing], or coerc[ing] any
individual who has not attained the age of 18 years, to engage
in prostitution or any sexual activity for which any person can
be charged with a criminal offense”).
One district court’s struggle to interpret Subsection (iv)
illustrates our concerns. In Henderson, defendant was
convicted pursuant to Subsection (iv) because she had
“employed a person she came to learn was an illegal alien to
clean her home from time to time and, when asked, advised
the cleaning lady generally about immigration law practices
and consequences.” 857 F. Supp. 2d at 193. Considering a
post-verdict motion for judgment of acquittal, the district
court reviewed the “Developing Appellate Case Law” to
determine the scope of Subsection (iv), and adopted the Third
Circuit’s test from DelRio-Mocci. Id. at 204, 208.
In arguing against the motion, the government took “the
position that giving illegal aliens advice to remain in the
United States while their status is disputed constitutes
felonious conduct under § 1324(a)(1)(A)(iv) because it
constitutes encouragement or inducement under the statute.”8
Doubling down, “the government contended that an
immigration lawyer would be prosecutable for the federal
8

The defendant in Henderson does not appear to have made an
explicit First Amendment argument.

App. 73

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 28 of 42

28

UNITED STATES V. SINENENG-SMITH

felony created by § 1324(a)(1)(A)(iv) if he advised an illegal
alien client to remain in the country because, if the alien were
to leave, the alien could not return to seek adjustment of
status.” Id. at 203.
The district court expressed discomfort with the
government’s position and incredulity that the government
would continue to pursue the felony prosecution. See id. at
193–94, 211–14. However, applying the DelRio-Mocci test,
the district court concluded that “a jury could find that
[defendant’s] employment together with her [immigration]
advice could have caused [the alien], or a person in her
position, to reside here when she otherwise might not have.”
Id. at 208. The court denied the motion for acquittal, but
granted defendant’s motion for a new trial in order to give
new jury instructions. Id. at 210, 214.
Despite Henderson, the government now argues that “[n]o
reported decision applies Subsection (iv) to efforts to
persuade, expressions of moral support, or abstract advocacy
regarding immigration.” Even if this were correct, it misses
the point. “[T]he First Amendment protects against the
Government; it does not leave us at the mercy of noblesse
oblige. We would not uphold an unconstitutional statute
merely because the Government promised to use it
responsibly.” Stevens, 559 U.S at 480. Thus, the absence of
convictions based purely on protectable expression is not
evidence that the statute does not criminalize speech. Just
because the government has not (yet) sought many
prosecutions based on speech, it does not follow that the
government cannot or will not use an overbroad law to obtain
such convictions. Further, the lack of convictions says
nothing about whether Subsection (iv) chills speech. Indeed,
Henderson exemplifies why we cannot take the government’s

App. 74

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 29 of 42

UNITED STATES V. SINENENG-SMITH

29

word for how it will enforce a broadly written statute, and
suggests that any would-be speaker who has thought twice
about expressing her views on immigration was not being
paranoid.
3. “An alien”
The government contends that Subsection (iv) is limited
to encouraging “a particular alien or aliens,” rather than “the
general public.” For the purposes of this appeal, and to avoid
serious constitutional concerns, we think the government’s
proposed interpretation is reasonable, but not ultimately
dispositive to our overbreadth analysis. And while it is easy
to foresee arguments about what constitutes a group of
particular aliens versus the “general public,” we accept that
Subsection (iv) requires a defendant to direct his or her
encouragement or inducement toward some known audience
of undocumented individuals.
4. “In Violation of Law”
Recognizing the breadth of the statute, the government
admits that “in violation of law” refers not only to criminal
law, but also to civil violations of the immigration laws. We
agree. Amicus Professor Eugene Volokh argues that we could
narrow the scope of the statute by reading “violation of law”
to mean only violations of the criminal law. But, because
simple residence in the United States without legal status is
not a crime, and the statute reaches inducing or encouraging
an alien to “reside” in the United States, the subsection is not
susceptible to this limiting construction. See Arizona v.
United States, 567 U.S. 387, 407 (2012) (“As a general rule,
it is not a crime for a removable alien to remain present in the

App. 75

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 30 of 42

30

UNITED STATES V. SINENENG-SMITH

United States.”). The proposed limiting construction would
render “reside” superfluous.
5. Construction of the Statute
To recap, we interpret Subsection (iv) as follows: to
violate the subsection, a defendant must knowingly encourage
or induce a particular alien – or group of aliens – to come to,
enter, or reside in the country, knowing or in reckless
disregard of whether doing so would constitute a violation of
the criminal or civil immigration laws. As construed,
“encourage or induce” can mean speech, or conduct, or both,
and there is no substantiality or causation requirement.
Ultimately, the government asks us to rewrite the statute.
Under no reasonable reading are the words “encourage” and
“induce” limited to conduct. We think the statute is only
susceptible to a construction that affects speech. As an
illustration – under the government’s reading of the statute,
it would argue that a mother telling an undocumented adult
child “If you leave the United States, I will be very lonely. I
encourage you to stay and reside in the country” would not
subject the mother to prosecution. But, in this example, the
mother is merely repeating the words of the statute in an
attempt to get her child to stay. We think any reasonable
person reading the subsection would assume that the mother’s
statement makes her vulnerable to prosecution, that the words
of the statute have their plain meaning, and that a person can
encourage or induce another by verbally, explicitly
encouraging or inducing her.

App. 76

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 31 of 42

UNITED STATES V. SINENENG-SMITH

31

B. Subsection (iv) Restricts Protected Speech
The conclusion that Subsection (iv) reaches speech does
not end our inquiry. We must now examine: (1) whether the
statute reaches protected speech and, if so, (2) whether the
statute restricts a substantial amount of such speech in
relation to the statute’s legitimate sweep. See, e.g., Hicks,
539 U.S. at 118–19.
Not all speech is protected under the First Amendment.
Congress is allowed to restrict certain types of speech,
including obscenity, defamation, fraud, incitement, and
speech integral to criminal conduct. See Stevens, 559 U.S. at
468. The most relevant exception to the First Amendment for
this case is speech integral to criminal conduct, but
incitement also deserves mention.
The government asserts that even if we interpret
Subsection (iv) to reach speech, it does not constrain
protected speech because the speech is integral to assisting
others in violating the immigration laws. In the government’s
reading, Subsection (iv) is analogous to an aiding and
abetting statute. But, to repeat, continuing to reside in the
U.S. is not a criminal offense; therefore, assisting one to
continue to reside here cannot be aiding and abetting a crime.
One amicus, supporting the constitutionality of the statute,
reads it as a solicitation restriction.9
9

Amicus Professor Eugene Volokh proposes construing the statute to
restrict a defendant from “directly, specifically, and purposefully
encouraging” criminal violations of the immigration laws. We do not
think that the statute is reasonably susceptible to this interpretation. First,
we decline to read a specificity or directness requirement into the statute
because the plain meanings of encourage and induce do not include such
principles. Second, Congress clearly knows how to write a solicitation

App. 77

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 32 of 42

32

UNITED STATES V. SINENENG-SMITH
1. Incitement

Under the incitement exception to the First Amendment,
the government may not “proscribe advocacy of the use of
force or of law violation except where such advocacy is
directed to inciting or producing imminent lawless action and
is likely to incite or produce such action.” Brandenburg v.
Ohio, 395 U.S. 444, 447 (1969). “Abstract advocacy,” even
of a crime, on the other hand, is protected speech. See
Williams, 553 U.S. at 298–99. As we have construed
Subsection (iv), it does not require that an alien imminently
violate the immigration law. Nor does Subsection (iv) require
that any encouragement or inducement make it “likely” that
an alien will violate the immigration law. Plainly, the
incitement doctrine is a poor fit for this particular statute,
especially considering that other incitement cases typically
involve incitements to violence, riot, or breach of the peace.
See, e.g., Brandenburg, 395 U.S. at 447–48; see also Hess v.
Indiana, 414 U.S. 105, 109 (1973); United States v. Poocha,
259 F.3d 1077, 1080-81 (9th Cir. 2001); id. at 1084–85
(Tashima, J., concurring in part and dissenting in part)
(agreeing that speech must be likely to incite violence to be
proscribed). If Subsection (iv) reaches any speech that is
exempted from the First Amendment as incitement, it is an
extremely narrow band of speech and does not significantly
reduce the scope of the statute.

statute as evidenced by 18 U.S.C. § 373(a): “Whoever . . . solicits,
commands, induces, or otherwise endeavors to persuade such other person
to engage in” a violent felony is subject to prosecution. If Congress
wanted Subsection (iv) to restrict only solicitation, it could have done so.
Finally, as discussed above, we cannot limit “in violation of law” to
criminal laws and, like Professor Volokh, we are not aware of any
precedent for treating speech soliciting merely civil violations as a crime.

App. 78

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 33 of 42

UNITED STATES V. SINENENG-SMITH

33

2. Speech Integral to Criminal Conduct
The government’s primary argument is that any covered
speech is “integral” to a violation of the immigration law.
“[S]peech or writing used as an integral part of conduct in
violation of a valid criminal statute” does not enjoy First
Amendment protection. Giboney v. Empire Storage & Ice
Co., 336 U.S. 490, 498 (1949); id. at 498–502 (picketing for
“the sole immediate purpose” of compelling a company to
stop selling to nonunion peddlers was not protected speech
because it was part of “a single and integrated course of
conduct” in violation of criminal restraint of trade laws). For
this reason, speech that aids and abets criminal activity does
not necessarily benefit from First Amendment protection.
United States v. Freeman, 761 F.2d 549, 552 (9th Cir. 1985).
In Freeman, we reviewed “convict[ions] on fourteen
counts of aiding and abetting and counseling violations of the
tax laws, an offense under 26 U.S.C. § 7206(2).” Id. at 551.
We held that the defendant was entitled to a jury instruction
on a First Amendment defense as to twelve of the counts
because, at least arguably, the defendant made statements
about the “unfairness of the tax laws generally.” Id. at
551–52. Conversely, the defendant was not entitled to the
First Amendment instruction on the remaining two counts
because the defendant actually assisted in the preparation of
false tax returns. Id. at 552. We reasoned that “[e]ven if the
convictions on these [two] counts rested on spoken words
alone, the false filing was so proximately tied to the speech
that no First Amendment defense was established.” Id. As
Freeman illustrates, although some speech that aids or abets
a crime is so integral to the crime itself that it is not
constitutionally protected, other speech related to criminal
activity is not so integral as to be unprotected.

App. 79

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 34 of 42

34

UNITED STATES V. SINENENG-SMITH

Based on Freeman, the government contends that any
speech that Subsection (iv) reaches is integral to a violation
of the immigration laws.10 However, there are relevant
differences between an aiding and abetting statute and
Subsection (iv). For one, as explained above, the statute is
not limited only to speech that substantially assists an alien in
violating the immigration laws. Freeman exposes the
relevant distinction. The statute in Freeman prohibited
“[w]illfully aid[ing] or assist[ing] in, or procur[ing],
counsel[ing], or advis[ing] the preparation or presentation” of
false tax returns. 26 U.S.C. § 7206(2). On the twelve counts
for which the court reversed Freeman’s convictions, the court
focused on the fact that Freeman may have generally
advocated the filing of false returns. Id. at 551–52. On the
other hand, for the two convictions that the court affirmed, it
emphasized that Freeman “not only counseled but also
assisted in the filing of false returns.” Id. at 552 (emphasis
added). The assistance on the two affirmed counts, even if
only words, was more directly related to the completed crime.
Id. Thus, Freeman’s conclusion is that only some speech that
the statute restricted was so related to the predicate crime that
it was considered “integral.”11 Likewise, here, the statute

10

The government cites Pittsburgh Press Co. v. Pittsburgh
Commission on Human Relations, 413 U.S. 376 (1973), but the holding
in that case relies on the since-weakened distinction between commercial
and non-commercial speech. See Cent. Hudson Gas & Elec. Corp. v. Pub.
Serv. Comm’n of N.Y., 447 U.S. 557, 562 (1980). More fundamentally,
the defendant in Pittsburgh Press violated an ordinance that made it
unlawful “to aid” in employment discrimination. 413 U.S. at 389.
“Encourage” and “induce” are broader than “aid,” and sweep in protected
speech.
11

Freeman was an as-applied First Amendment challenge to the false
tax returns statute. We note that the string of verbs in the statute involved

App. 80

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 35 of 42

UNITED STATES V. SINENENG-SMITH

35

criminalizes speech beyond that which is integral to
violations of the immigration laws.
Second, as the government recognizes, aiding and
abetting convictions require the government to prove certain
elements that are not present in Subsection (iv):
In this circuit, the elements necessary for an
aiding and abetting conviction are: (1) that
the accused had the specific intent to facilitate
the commission of a crime by another, (2) that
the accused had the requisite intent of the
underlying substantive offense, (3) that the
accused assisted or participated in the
commission of the underlying substantive
offense, and (4) that someone committed the
underlying substantive offense.
Thum, 749 F.3d at 1148–49 (quoting United States v. Shorty,
741 F.3d 961, 969–70 (9th Cir. 2013)). The first obvious
difference is that aiding and abetting requires the commission
of a crime by another, but Subsection (iv) applies to both
criminal and civil violations of the immigration laws. The
government asserts that the civil/criminal distinction should
not matter in the First Amendment context, but points to no
case where a defendant was convicted for aiding and abetting
a civil offense. We are not aware of any case that upholds a
statute restricting such speech. Therefore, even if certain
speech would constitute aiding and abetting when directed
toward the commission of a crime, it would be
constitutionally protected when aimed at inducing a civil
in Freeman is more similar to the one at issue in Williams than the
operative verbs in Subsection (iv). See pp. 19–21, supra.

App. 81

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 36 of 42

36

UNITED STATES V. SINENENG-SMITH

violation of law. And because unauthorized presence in the
country is a civil violation rather than a crime, Subsection (iv)
reaches beyond speech integral to a crime.
Next, aiding and abetting requires that the accused
“assisted or participated” in the commission of the offense.
For the reasons described above, we cannot construe
Subsection (iv) as applying only to assistance for or
participation in a violation of the immigration law; it is
enough to encourage.
Further, aiding and abetting requires that a principal
actually commit the underlying offense. See id. at 1149.
There is no such requirement in Subsection (iv). The
government argues that this should not matter for the First
Amendment analysis because, citing the Model Penal Code
§ 2.06(3)(a)(ii), Subsection (iv) resembles an attempted
aiding and abetting statute. The government’s argument fails,
however, because “[t]here is no general federal ‘attempt’
statute. [A] defendant . . . can only be found guilty of an
attempt to commit a federal offense if the statute defining the
offense also expressly proscribes an attempt.” United States
v. Hopkins, 703 F.2d 1102, 1104 (9th Cir. 1983). Subsection
(iv) does not restrict attempt, unlike the other subsections of
the statute.
Most fundamentally, Subsection (iv) looks nothing like an
aiding and abetting statute. Just two lines below Subsection
(iv)’s text, Congress required that anyone who “aids or abets
the commission of any of the preceding acts” shall be
punished as a principal. 8 U.S.C. § 1324(a)(1)(A)(v)(II).
Further, Congress authored a general aiding and abetting
statute, 18 U.S.C. § 2, which states that “[w]hoever commits
an offense against the United States or aids, abets, counsels,

App. 82

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 37 of 42

UNITED STATES V. SINENENG-SMITH

37

commands, induces or procures its commission, is punishable
as a principal.” Clearly, if Congress wanted Subsection (iv)
to be an aiding and abetting statute, it would have included
the words aiding and abetting. The statute instead manifests
Congress’ intent to restrict a broader range of activity, and
that activity stretches beyond unprotected speech.
C. Subsection (iv) Restricts A Substantial Amount of
Protected Speech in Relation to its Legitimate
Sweep
Because we conclude that Subsection (iv) reaches
protected speech, we must now analyze whether the amount
of protected speech the statute restricts is substantial in
relation to its legitimate sweep. In plain terms, are the
statute’s improper applications too numerous to allow the
statute to stand? “The concept of ‘substantial overbreadth’ is
not readily reduced to an exact definition.” Members of City
Council of L.A. v. Taxpayers for Vincent, 466 U.S. 789, 800
(1984). But, “[c]riminal statutes must be scrutinized with
particular care” and “those that make unlawful a substantial
amount of constitutionally protected conduct may be held
facially invalid even if they also have legitimate application.”
City of Houston v. Hill, 482 U.S. 451, 459 (1987). Although
“substantial” does not have a precise meaning in this context,
the Supreme Court has explained that a statute may be struck
down if it is “susceptible of regular application to protected
expression.” Id. at 467. In other words, “there must be a
realistic danger that the statute itself will significantly
compromise recognized First Amendment protections of
parties not before the Court for it to be facially challenged on
overbreadth grounds.” Taxpayers for Vincent, 466 U.S. at
801.

App. 83

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 38 of 42

38

UNITED STATES V. SINENENG-SMITH

It is apparent that Subsection (iv) is susceptible to regular
application to constitutionally protected speech and that there
is a realistic (and actual) danger that the statute will infringe
upon recognized First Amendment protections. Some of the
situations raised in the supplemental briefing and at oral
argument demonstrate the improper scope of this statute.
While we are aware that the Supreme Court is skeptical of
“fanciful hypotheticals” in overbreadth cases, we do not think
that the scenarios raised here are fanciful. See Williams,
553 U.S. at 301. We think that they are part of every-day
discussions in this country where citizens live side-by-side
with non-citizens. Buttressing our assessment that the
following hypotheticals are not overly speculative, the
government has already shown a willingness to apply
Subsection (iv) to potentially protected speech. See
Henderson, 857 F. Supp. 2d at 193–94, 203–04.12
We begin with an obvious example from one of the
amicus briefs: “a loving grandmother who urges her grandson

12

Additionally, the City and County of San Francisco in its amicus
brief represents that the government has repeatedly threatened its officials
with violations of 8 U.S.C. § 1324. For example, “ICE Director Thomas
Homan announced that he had asked Attorney General Sessions to
determine whether sanctuary cities like San Francisco are ‘committing a
statutory crime’ under section 1324.” Further, San Francisco relates that
“Director Homan renewed his threat in even starker terms. According to
Director Homan, ‘when a sanctuary city intentionally or knowingly shields
an illegal alien from federal law enforcement, that is a violation of
8 U.S.C. 1324.’ Director Homan announced that he was ‘putting together
a response plan’ with ‘the highest levels of the Department of Justice,’ and
ominously declared, ‘This is not over.’” True, San Francisco reports that
“[t]o the extent these threats have been tied to any specific prong of
section 1324, they have been tied to the ‘harboring’ or ‘transporting’
prongs of that statute.” Id. But not all of the threats were tied to a specific
subsection, and the government might well turn to Subsection (iv).

App. 84

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 39 of 42

UNITED STATES V. SINENENG-SMITH

39

to overstay his visa,” by telling him “I encourage you to
stay.” Nothing in Subsection (iv) would prevent the
grandmother from facing felony charges for her statement.
Again, in Williams, the Supreme Court used almost identical
language – “I encourage you to obtain child pornography” –
to describe abstract advocacy immune from government
prohibition. 553 U.S. at 300. The government has not
responded persuasively to this point; it simply argues that the
grandmother would not be subject to criminal charges
because her statement was “not accompanied by assistance or
other inducements.” However, as we have detailed above,
Subsection (iv) does not contain an act or assistance
requirement.
Further, implying a mens rea requirement into the statute,
and applying it only to speech to a particular person does not
cure the statute’s impermissible scope. Just because the
grandmother wanted her words to encourage her grandson
and said them directly to him does not render those words
less protected under the First Amendment. We think that
situations like this one, where a family member encourages
another to stay in the country, or come to the country, are
surely the most common form of encouragement or
inducement within Subsection (iv)’s ambit.
The government similarly dismisses “marches, speeches,
publications, and public debate expressing support for
immigrants,” as being subject to Subsection (iv)’s
restrictions. Again, however, the government relies on its
faulty construction of the statute to argue that such speech
does not “assist” or “incentivize” an immigrant to come to,
enter, or reside in the United States in violation of law. The
statute, however, does not criminalize assistance or
incentivizing; it makes it a felony to “encourage” or “induce.”

App. 85

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 40 of 42

40

UNITED STATES V. SINENENG-SMITH

A speech addressed to a gathered crowd,13 or directed at
undocumented individuals on social media,14 in which the
speaker said something along the lines of “I encourage all you
folks out there without legal status to stay in the U.S.! We
are in the process of trying to change the immigration laws,
and the more we can show the potential hardship on people
who have been in the country a long time, the better we can
convince American citizens to fight for us and grant us a path
to legalization,” could constitute inducement or
encouragement under the statute. But, this general advocacy
could not be considered incitement because there is no
imminent breach of the peace. It would not be aiding and
abetting or solicitation because it is general and is not
advocating a crime. Instead, it is pure advocacy on a hotlydebated issue in our society. Such “speech on public issues
occupies the highest rung of the hierarchy of First
Amendment values, and is entitled to special protection.”
Snyder v. Phelps, 562 U.S. 443, 452 (2011) (quoting Connick
v. Myers, 461 U.S. 138, 145 (1983)). Criminalizing
expression like this threatens almost anyone willing to weigh
in on the debate. Cf. Alameda Newspapers, Inc. v. City of
Oakland, 95 F.3d 1406, 1414 (9th Cir. 1996) (“Cities,
counties, and states have a long tradition of issuing
pronouncements, proclamations, and statements of principle
on a wide range of matters of public interest, including . . .
immigration.”).

13

Speaking directly to a particular group of aliens, as opposed to the
public at large, is within the scope of Subsection (iv) as we have construed
it.
14

The Supreme Court has made clear that “cyberspace . . . . and social
media in particular” is “the most important place[] . . . for the exchange of
views.” Packingham v. North Carolina, 137 S. Ct. 1730, 1735 (2017).

App. 86

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 41 of 42

UNITED STATES V. SINENENG-SMITH

41

Additionally, amici present several examples of
professionals who work with immigrants whose speech might
be chilled on account of Subsection (iv)’s breadth. The most
common example cited is an attorney who tells her client that
she should remain in the country while contesting removal –
because, for example, non-citizens within the United States
have greater due process rights than non-citizens outside the
United States, or because, as a practical matter, the
government may not physically remove her until removal
proceedings are completed. See Zadvydas v. Davis, 533 U.S.
678, 693 (2001). Under the statute’s clear scope, the
attorney’s accurate advice could subject her to a felony
charge. The government’s arguments to the contrary are
unavailing. First, undoubtedly, the attorney would know that
telling an immigrant she would have greater rights if she
remained here or that she may not be removed while in
removal proceedings would encourage the immigrant to stay.
And, we do not think construing Subsection (iv) to reach
advice from attorneys endangers statutes like 18 U.S.C.
§ 2(a), the general aiding and abetting statute. An attorney
can knowingly encourage a course of action without aiding or
abetting it. Moreover, as we have explained, remaining in the
country while undocumented, without more, is not a crime.
More fundamentally, though, the government has already
shown its intent to prosecute those citizens (attorneys or
sympathetic lay persons) who give even general immigration
advice. See Henderson, 857 F. Supp. 2d at 193.
The foregoing examples are not some parade of fanciful
horribles. Instead, they represent real and constitutionallyprotected conversations and advice that happen daily. They
demonstrate that Subsection (iv)’s impermissible applications
are real and substantial. Because Subsection (iv)’s legitimate
sweep – which only reaches conduct not criminalized in the

App. 87

Case: 15-10614, 12/04/2018, ID: 11108185, DktEntry: 109-1, Page 42 of 42

42

UNITED STATES V. SINENENG-SMITH

other subsections of § 1324(a)(1)(A), and unprotected speech
– is narrow, we hold that Subsection (iv) is overbroad under
the First Amendment.15
CONCLUSION
Subsection (iv) criminalizes a substantial amount of
protected expression in relation to the statute’s narrow
legitimate sweep; thus, we hold that it is unconstitutionally
overbroad in violation of the First Amendment. The
judgment of the district court is REVERSED with respect to
the “encourage or induce” counts, Counts 2 and 3 of the First
Superseding Indictment.
In accordance with the
Memorandum disposition filed concurrently herewith, with
respect to the mail fraud counts, Counts 5 and 6, the judgment
of the district court is AFFIRMED.
Because two of the five counts of conviction are reversed,
the sentence must be vacated and the case remanded for
resentencing. See United States v. Carter, 2018 WL
5726694, at *8 (9th Cir. Nov. 2, 2018); United States v.Davis,
854 F.3d 601, 606 (9th Cir. 2017).
REVERSED in part, AFFIRMED in part, sentence
VACATED and REMANDED for resentencing.

15

Because we strike down Subsection (iv) as overbroad, we need not
reach the separate issue of whether the statute is void for vagueness.

App. 88

MEMORANDUM OF THE NINTH CIRCUT COURT
OF APPEALS DATED DECEMBER 4, 2018 [APP. 89-92]

FILED

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

DEC 4 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

15-10614

DC No. CR 10-414 RMW

v.
MEMORANDUM*
EVELYN SINENENG-SMITH,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of California
Ronald M. Whyte, District Judge, Presiding
Argued and Submitted April 18, 2017
San Francisco, California
Reargued and Resubmitted February 15, 2018
Pasadena, California
Before:

TASHIMA, BERZON, and HURWITZ**, Circuit Judges.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

Judge Reinhardt, who was originally a member of this panel, died
after this case was reargued and resubmitted for decision. Judge Hurwitz was
randomly drawn to replace him. Judge Hurwitz has read the briefs, reviewed the
record, and watched video recordings of the oral arguments.

App. 89

Evelyn Sineneng-Smith appeals her conviction on two counts of mail fraud
in violation of 18 U.S.C. § 1341.1 She contends that the evidence was insufficient
to uphold the verdict. We affirm.
Sineneng-Smith operated an immigration consulting firm in San Jose,
California. Her clients were mostly natives of the Philippines, unlawfully
employed in the home health care industry in the United States, who sought
authorization to work and adjustment of status to obtain legal permanent residence
(green cards). One of Sineneng-Smith’s main “services” was to assist clients with
applying for a “Labor Certification,” and then for a green card. The problem was
that Sineneng-Smith’s clients, Amelia Guillermo and Hermansita Esteban, were
not eligible to adjust their statuses to legal permanent residents through the Labor
Certification program. Sineneng-Smith told investigators that she knew that her
clients were ineligible to adjust their status through Labor Certification. SinenengSmith’s mail fraud convictions stem from her sending through the U.S. mail
retainer agreements to Guillermo and Esteban, stating that Sineneng-Smith would
help them obtain legal permanent residence.

1

Sineneng-Smith was also convicted of violating of 8 U.S.C.
§ 1324(a)(1)(A)(iv). We address those convictions in a concurrently-filed opinion.
2

App. 90

“To allege a violation of mail fraud under [18 U.S.C.] § 1341, it is necessary
to show that (1) the defendants formed a scheme or artifice to defraud; (2) the
defendants used the United States mails or caused a use of the United States mails
in furtherance of the scheme; and (3) the defendants did so with the specific intent
to deceive or defraud.” Miller v. Yokohama Tire Corp., 358 F.3d 616, 620 (9th
Cir. 2004) (internal quotation marks omitted). Sineneng-Smith only contests the
sufficiency of the evidence as to the first and third elements.
To satisfy the first element, the government must offer “[p]roof of an
affirmative, material misrepresentation,” United States v. Benny, 786 F.2d 1410,
1418 (9th Cir. 1986), or proof of “deceitful statements of half truths or the
concealment of material facts,” United States v. Woods, 335 F.3d 993, 998 (9th
Cir. 2003). The retainer agreements that Sineneng-Smith signed with Esteban and
Guillermo demonstrate her misrepresentations. The agreements stated that
Sineneng-Smith’s clients hired her “for purposes of assisting [them] to obtain
permanent residence through Labor Certification.” Because Guillermo and
Esteban had no chance of obtaining permanent residence through Labor
Certification, these statements were at least deceitful half truths that concealed
material facts. The facts were material because Esteban and Guillermo testified

3

App. 91

that they would have left the country if Sineneng-Smith had told them that they
were not eligible for green cards.
As to the third element, Sineneng-Smith admitted that she knew that her
clients could not adjust their status through Labor Certification. She further
admitted that if she informed her clients of that fact, they would not have hired her.
This evidence is sufficient to support a finding that Sineneng-Smith intended to
defraud her clients.
•

!

•

With respect to the mail fraud convictions, Counts 5 and 6, the judgment of
the district court is AFFIRMED.

4

App. 92

Case: 15-10614, 01/25/2021, ID: 11979410, DktEntry: 138, Page 1 of 1

FILED

ORDER OF THE NINTH CIRCUIT COURT OF APPEALS
DATED JANUARY 25, 2021 [APP. 93]
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

JAN 25 2021

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

15-10614

DC No. 5:10 CR-0414 RMW
ND Cal., San Jose

v.
EVELYN SINENENG-SMITH,

ORDER

Defendant-Appellant.

Before:

TASHIMA, BERZON, and HURWITZ, Circuit Judges.

The panel has voted to deny the petition for panel rehearing. Judges Berzon
and Hurwitz vote to deny the petition for rehearing en banc, and Judge Tashima so
recommends. The full court has been advised of the petition for rehearing en banc
and no judge of the court has requested a vote on en banc rehearing. See Fed. R.
App. P. 35(f).
The petition for panel rehearing and the petition for rehearing en banc are
DENIED.

App. 93

